<html>
<title> - OVERSIGHT HEARING WITH DEPUTY ATTORNEY GENERAL ROD ROSENSTEIN</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




     OVERSIGHT HEARING WITH DEPUTY ATTORNEY GENERAL ROD ROSENSTEIN

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 13, 2017

                               __________

                           Serial No. 115-49

                               __________

         Printed for the use of the Committee on the Judiciary



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






        Available via the World Wide Web: http://www.govinfo.gov

                                   ______
		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
32-476                    WASHINGTON : 2018                 
























                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
LAMAR SMITH, Texas                   ZOE LOFGREN, California
STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr., 
TRENT FRANKS, Arizona                    Georgia
LOUIE GOHMERT, Texas                 THEODORE E. DEUTCH, Florida
JIM JORDAN, Ohio                     LUIS V. GUTIERREZ, Illinois
TED POE, Texas                       KAREN BASS, California
JASON CHAFFETZ, Utah                 CEDRIC L. RICHMOND, Louisiana
TOM MARINO, Pennsylvania             HAKEEM S. JEFFRIES, New York
TREY GOWDY, South Carolina           DAVID CICILLINE, Rhode Island
RAUL LABRADOR, Idaho                 ERIC SWALWELL, California
BLAKE FARENTHOLD, Texas              TED LIEU, California
DOUG COLLINS, Georgia                JAMIE RASKIN, Maryland
RON DeSANTIS, Florida                PRAMILA JAYAPAL, Washington
KEN BUCK, Colorado                   BRAD SCHNEIDER, Illinois
JOHN RATCLIFFE, Texas
MARTHA ROBY, Alabama
MATT GAETZ, Florida
MIKE JOHNSON, Louisiana
ANDY BIGGS, Arizona
          Shelley Husband, Chief of Staff and General Counsel
       Perry Apelbaum, Minority Staff Director and Chief Counsel


























                            C O N T E N T S

                              ----------                              

                           DECEMBER 13, 2017
                           OPENING STATEMENTS

                                                                   Page
The Honorable Bob Goodlatte, Virginia, Chairman, Committee on the 
  Judiciary......................................................     1
The Honorable Jerrold Nadler, New York, Committee on the 
  Judiciary......................................................     3

                               WITNESSES

The Honorable Rod Rosenstein, Deputy Attorney General, U.S. 
  Department of Justice
    Oral Statement...............................................     7

                        Official Hearing Record

Questions for the record submitted to The Honorable Rod 
  Rosenstein.....................................................    89

 
     OVERSIGHT HEARING WITH DEPUTY ATTORNEY GENERAL ROD ROSENSTEIN

                              ----------                              


                      WEDNESDAY, DECEMBER 13, 2017

                        House of Representatives

                       Committee on the Judiciary

                            Washington, DC.

    The committee met, pursuant to call, at 10:07 a.m., in Room 
2141, Rayburn House Office Building, Hon. Bob Goodlatte 
[chairman of the committee] presiding.
    Present: Representatives Goodlatte, Smith, Chabot, Issa, 
King, Gohmert, Jordan, Poe, Marino, Gowdy, Labrador, 
Farenthold, Collins, DeSantis, Buck, Ratcliffe, Gaetz, Johnson 
of Louisiana, Biggs, Rutherford, Handel, Nadler, Lofgren, 
Jackson Lee, Cohen, Johnson of Georgia, Deutch, Gutierrez, 
Bass, Jeffries, Cicilline, Swalwell, Lieu, Raskin, Jayapal, and 
Schneider.
    Staff Present: Shelley Husband, Staff Director; Branden 
Ritchie, Deputy Staff Director; Zach Somers, Parliamentarian 
and General Counsel; Bobby Parmiter, Chief Counsel, 
Subcommittee on Crime, Terrorism, Homeland Security, and 
Investigations; Perry Apelbaum, Minority Chief Counsel, Chief 
of Staff, Staff Director; Danielle Brown, Minority 
Parliamentarian and Chief Legislative Counsel; Aaron Hiller, 
Minority Chief Oversight Counsel; Joe Graupensperger, Minority 
Chief Counsel, Subcommittee on Crime, Terrorism, Homeland 
Security, and Investigations; Monalisa Dugue, Minority Deputy 
Chief Counsel, Subcommittee on Crime, Terrorism, Homeland 
Security, and Investigations; Arya Hariharan, Minority Counsel; 
Matthew Morgan, Minority Professional Staff Member; and 
Veronica Eligan, Minority Professional Staff Member.
    Chairman Goodlatte. Good morning. The Judiciary Committee 
will come to order. And without objection, the chair is 
authorized to declare recesses of the committee at any time.
    We welcome everyone to this morning's hearing on 
``Oversight Hearing with Deputy Attorney General Rod 
Rosenstein,'' and I'll begin by recognizing myself for an 
opening statement.
    Thank you, Deputy Attorney General Rosenstein, for 
appearing for the first time in front of this committee. There 
is much to discuss today, and we look forward to your testimony 
and answers to our questions.
    As chairman of the committee with primary oversight of the 
Department of Justice and the FBI, I have always supported the 
Department and the FBI in performing their valuable missions to 
keep our Nation safe and to hold individuals accountable for 
criminal conduct. Yet, I and many on this committee now find 
ourselves in the very difficult position of questioning the 
actions of both prior and current Department and FBI 
leadership.
    You have a unique role at the Department of Justice in that 
you appointed Special Counsel Mueller and have a supervisory 
role over his investigation. It is therefore very appropriate 
for you to appear before this committee to answer questions 
related to the scope of the special counsel's investigation, as 
well as its current efficacy in light of various events calling 
into question its impartiality.
    Reports on the political predisposition and potential bias 
of certain career agents and Department lawyers on Special 
Counsel Mueller's team are deeply troubling to all citizens who 
expect a system of blind and equal justice.
    The Department of Justice investigations must not be 
tainted by individuals imposing their own political prejudices. 
We are now beginning to better understand the magnitude of this 
insider bias on Mr. Mueller's team.
    First, we have FBI Agent Peter Strzok and FBI lawyer Lisa 
Page exchanging communications showing extreme bias against 
President Trump, a fact that would be bad enough if it weren't 
for the fact that these two individuals were employed as part 
of the Mueller ``Dream Team'' investigating the very person for 
whom they were showing disdain.
    And calling it mere disdain is generous. According to the 
documents produced last night to this committee, Mr. Strzok and 
Ms. Page referred to the President as an utter idiot, a 
loathsome human, and awful, while continually praising Hillary 
Clinton and the Obamas.
    These text messages prove what we all suspected: High 
ranking FBI officials involved in the Clinton investigation 
were personally invested in the outcome of the election and 
clearly let their strong political opinions cloud their 
professional judgment. And this was only an initial disclosure 
containing heavy reductions.
    Second, former embattled FBI general counsel and current 
Mueller prosecutor Andrew Weissmann expressed his awe of a 
former DOJ official for shunning the President and failing to 
faithfully execute the law. However, we are the ones now in awe 
that someone like Mr. Weissmann remains on an investigative 
team that looks more and more partisan.
    Third, we have learned that a top Mueller prosecutor, 
Jeannie Rhee, in addition to the other actions that would 
normally justify recusal, served as an attorney for the Clinton 
Foundation. Aren't Department of Justice attorneys advised to 
avoid even the appearance of impropriety? A former Clinton 
employee is now investigating President Trump. This seems to be 
the very definition of appearance of impropriety.
    Fourth, we have just recently learned that another top 
Department of Justice official, Bruce Ohr, has been reassigned 
because of his wife and his connections with the infamous 
dossier and the company from whom the opposition research 
document originated.
    We hope to hear your assessment of the foregoing conflicts, 
whether individuals are being held accountable, and whether you 
still have confidence in the judgment of the special counsel 
you named and supervised.
    Regarding the Clinton email scandal, you, along with 
Attorney General Sessions, have to date declined to appoint a 
second special counsel to investigate the improprieties that 
continue to surface related to the handling of the Clinton 
email investigation and other events surrounding the 2016 
election.
    These are some of the important issues on which we will 
focus our energy and questions today. We want to understand 
your participation and the Department's involvement in 
addressing both investigations.
    Mr. Deputy Attorney General, the Department of Justice's 
reputation as an impartial arbiter of justice has been called 
into question. This taint of politicization should concern all 
Americans who have pride in the fairness of our Nation's 
justice system.
    While we continue to call on you to appoint a second 
special counsel, as you are aware, we have also opened our own 
joint investigation with the House Oversight and Government 
Reform Committee to review FBI and the Department of Justice's 
handling of the Clinton email investigation.
    I want to thank you and Attorney General Sessions for 
recently committing to provide us relevant documents to enable 
robust congressional oversight of this matter. I implore you to 
continue to work with us on these and other important matters 
facing our Nation.
    One of these matters involves a critical program for our 
national security, FISA Section 702. This committee passed on 
an overwhelming bipartisan basis the USA Liberty Act which 
maintains the integrity of the program while protecting 
cherished civil liberties. This overwhelming vote occurred 
despite the Department's lobbying efforts against our bill.
    The USA Liberty Act was characterized as bad for the 
program, highly problematic, unworkable, and a proposal that 
would effectively dismantle Section 702. However, the reality 
is that this committee's legislation struck a balance that 
promotes national security and civil liberties.
    I hope to hear from you why the Department of Justice felt 
it necessary to oppose a bill that would reauthorize 702 and 
instill confidence in the American people that their privacy 
and civil liberties are respected by a government whose duty it 
is to protect them.
    The Department of Justice must reacquire the trust of the 
American people. I know there are thousands of Department of 
Justice employees and line agents in the Federal Bureau of 
Investigations that are dedicated individuals that are 
dedicated to upholding the rule of law and protecting the 
American people, and I hope that we can come to a conclusion 
about those people who have not met that standard in this 
hearing today.
    Thank you, Mr. Deputy Attorney General, for appearing 
today.
    I now yield to the gentleman from New York, the ranking 
member of the committee, Mr. Nadler, for his comments.
    Mr. Nadler. Thank you, Mr. Chairman.
    Before I begin my statement, first, let me wholly endorse 
the comments of the chairman with reference to Section 702 and 
to the legislation that we reported out of this committee.
    And second, I want to acknowledge a letter the chairman and 
I received last night from the Democratic women of this 
committee. Our colleagues have written to ask that we convene a 
hearing regarding the serious and credible allegations of 
sexual harassment and misconduct leveled against President 
Trump by at least 19 women.
    Without objection, I ask that this letter be made part of 
the record.
    Chairman Goodlatte. Without objection, it will be made part 
of the record.
    Mr. Nadler. And let me be clear, I unequivocally endorse 
this letter. We should convene this hearing as soon as 
possible. This is an opportunity for us to lead and to show the 
country that this kind of behavior is unacceptable at any level 
of government.
    Mr. Chairman, let me start by saying welcome to the House 
Judiciary Committee, Mr. Rosenstein. For the better part of a 
year, my colleagues and I have implored this committee to 
conduct real oversight of the Department of Justice.
    On January 24, 2017, we wrote to Chairman Goodlatte 
insisting that the committee hold hearings on President Trump's 
conflicts of interest at home and abroad. Citing to experts 
across the political spectrum, we show that, quote, ``The 
administration's attempts to address its ongoing conflicts of 
interest are so far wholly inadequate,'' close quote.
    Six weeks later, Attorney General Sessions was forced to 
recuse himself from the Russia investigation, but we have not 
held a single hearing on the question of conflicts of interest. 
On March 8, we wrote again to the chairman encouraging him to 
call hearings on, quote, ``Russia's alleged interference in the 
U.S. election.'' Again, no such hearings were ever held.
    In fact, this committee, which during the Obama 
administration held half a dozen hearings around Operation Fast 
and Furious, received testimony from FBI Director Comey three 
times in 13 months and detailed staff and resources to a 
Benghazi investigation that cost the public almost $8 million.
    This committee, from inauguration day until 4 weeks ago, 
was largely silent in terms of oversight. We haven't lifted a 
finger on election security. Attorney General Sessions told us 
on November 14 that he has done nothing to secure the next 
election from threats from at home and abroad.
    We have not once discussed the President's abuse of the 
pardon power. While the hurricane bore down on Houston, 
President Trump sidelined the Office of the Pardon Attorney to 
pardon a serial human rights abuser who bragged about running a 
concentration camp in Arizona.
    And we have not held a single hearing on allegations of 
obstruction of justice at the White House, not for lack of 
evidence, but because, in the chairman's words, quote, ``There 
is a special counsel in place examining the issue,'' unquote, 
and quote, ``Several other congressional committees are looking 
into the matter,'' and the committee, quote, ``does not have 
the time to conduct this critical oversight.'' I ask my 
colleagues to keep those excuses in mind.
    Now, with the year coming to a close, with the leadership 
of the Department of Justice finally before us, what do my 
Republican colleagues want to discuss? Hillary Clinton's 
emails.
    Let me repeat that. With all of these unresolved issues 
left on our docket, a week before we adjourn for the calendar 
year the majority's highest oversight priority is Hillary 
Clinton's emails and a few related text messages.
    As we saw in our recent hearings with the Department of 
Justice and the FBI, my Republican colleagues seem singularly 
focused on their call for a second special counsel, and failing 
that, on the need to investigate the investigators ourselves.
    The White House has now joined the call by House 
Republicans for a new special counsel to investigate the FBI. 
The President's private lawyers have done the same. I 
understand the instinct to want to change the subject after the 
Flynn and Manafort indictments, but this request is grossly 
misguided for a number of reasons.
    First, it shows a fundamental misunderstanding of how the 
special counsel regulations work. Some criminal investigations 
pose a conflict of interest to the Department of Justice. The 
Russia investigation is such a case because of the Attorney 
General's ongoing recusal and because Department leadership 
assisted in the removal of Director Comey, among other reasons. 
In cases like these, the Attorney General may use a special 
counsel to manage the investigation outside of the ordinary 
chain of command.
    But the key here is the criminal investigation. That's what 
special counsel does. The Department cannot simply assign a 
special counsel to look at things that bother the White House. 
There has to be enough evidence to have predicated a criminal 
investigation in the first place. Then and only then, if the 
facts warrant, can a special counsel be assigned to the case.
    So far, there's been no credible factual or legal claim 
that anybody at the Department of Justice violated any law by 
deciding not to bring charges against Hillary Clinton or by 
attempting to meet with Fusion GPS. In other words, there is no 
investigation to which the Department could even assign a new 
special counsel.
    Second, the list of grievances raised by the majority for 
review by a new special counsel also seems wildly off the mark. 
For example, there is nothing unlawful about Director Comey 
sitting down to draft an early statement about the Clinton 
investigation. Nor would it have been unethical to outline his 
conclusions before the investigation was over if the clear 
weight of the evidence pointed in one direction. Nor is there 
anything wrong with FBI agents expressing their private 
political views via private text messages, as Peter Strzok and 
Lisa Page appeared to have done in the 375 text messages we 
received last night. In fact, Department regulations expressly 
permit that sort of private communication.
    I've reviewed those text messages and I'm left with two 
thoughts.
    First, Peter Strzok did not say anything about Donald Trump 
that the majority of Americans weren't also thinking at the 
same time.
    And second, in a testament to his integrity and situational 
awareness, when the Office of the Inspector General made Mr. 
Mueller aware of these exchanges, he immediately removed Mr. 
Strzok from his team.
    To the extent that we are now engaged in oversight of 
political bias at the FBI, this committee should examine 
evidence of a coordinated effort by some agents involved in the 
Clinton investigation to change the course of the campaign in 
favor of President Trump by leaking sensitive information to 
the public and by threatening to leak additional information 
about new emails after the investigation was closed.
    On Monday, Ranking Member Cummings and I sent a letter to 
the Department asking for additional materials related to these 
leaks, as well as to the claims that these efforts may have 
been coordinated with former Mayor Rudy Giuliani, former 
National Security Advisor Michael Flynn, and other senior 
figures in the Trump campaign.
    Third, the President's call for an investigation of the 
investigation is at best wildly dangerous to our democratic 
institutions. On the one hand, the President's old ``lock her 
up'' cheer seems quaint after a couple of guilty pleas by Trump 
associates.
    On the other, as former Attorney General Michael Mukasey, 
no fan of Hillary Clinton, has said, the President's continued 
threats to prosecute his political opponents is, quote, 
``something we don't do here.'' If the President were to carry 
out his threat, quote, again from Attorney General Mukasey, 
``it would be like a banana republic.''
    Finally, and most important, this investigation into the 
investigation cannot credibly be a priority for this committee 
at this time. I understand the instinct to want to give cover 
to the President. I am fearful that the majority's effort to 
turn the tables on the special counsel will get louder and more 
frantic as the walls continue to close in around the President.
    But this committee has a job to do. President Trump has 
engaged in a persistent and dangerous effort to discredit both 
the free press and the Department of Justice. These are the 
agencies and institutions under our jurisdiction.
    Every minute that our majority wastes on covering for 
President Trump is a minute lost on finding a solution for the 
DREAMers, or curbing a vicious spike in hate crimes, or 
preventing dangerous individuals from purchasing firearms, or 
stopping the President from further damaging the constitutional 
order.
    I hope my colleagues will use today's hearing as an 
opportunity to find their way back to the true work of the 
House Judiciary Committee.
    I thank the chairman, and I yield back the balance of my 
time.
    Chairman Goodlatte. We welcome our distinguished witness. 
If you would please rise, I will begin by swearing you in.
    Do you solemnly swear that the testimony that you are about 
to give shall be the truth, the whole truth, and nothing but 
the truth, so help you God?
    Mr. Rosenstein. I do.
    Chairman Goodlatte. Thank you.
    Let the record show that the witness answered in the 
affirmative.
    Mr. Rod Rosenstein was sworn in as the 37th Deputy Attorney 
General of the United States on April 26, 2017, by Attorney 
General Jeff Sessions. Mr. Rosenstein has had a distinguished 
career in public service. He began his legal career in the 
Public Integrity Section of the Department of Justice's 
Criminal Division and later served as counsel to the Deputy 
Attorney General and Principal Deputy Assistant General for the 
Tax Division.
    Until his appointment by President Trump, Mr. Rosenstein 
served for 12 years as the United States attorney for the 
District of Maryland. He holds a bachelor's degree in economics 
from the Wharton School and a JD from Harvard Law School.
    General Rosenstein, your written statement will be entered 
into the record in its entirety, and we ask that you summarize 
your testimony in 5 minutes.
    Welcome. We're pleased to have you here.

TESTIMONY OF HONORABLE ROD ROSENSTEIN, DEPUTY ATTORNEY GENERAL, 
                   U.S. DEPARTMENT OF JUSTICE

    Mr. Rosenstein. Chairman Goodlatte, Ranking Member Nadler, 
members of the committee, I want to thank you for this 
opportunity to testify as part of your oversight of the United 
States Department of Justice. I appreciate your support and 
concern for the Department of Justice. I know several of you 
are alumni of the Department. Two, in fact, served alongside me 
as United States attorneys. And I'm very grateful for the 
opportunity to be with you today.
    As Deputy Attorney General, my job is to help the Attorney 
General to manage our Department's components, including 7 Main 
Justice litigating divisions, 94 U.S. Attorney's Offices, the 
Federal Bureau of Investigation, the Drug Enforcement 
Administration, the Bureau of Alcohol Tobacco, Firearms and 
Explosives, the United States Marshals Service, the Office of 
Justice Programs, the Federal Bureau of Prisons, the Office of 
the Inspector General, and many others.
    Our Department includes over 115,000 employees and tens of 
thousands of contractors stationed in every State and territory 
and in many foreign nations.
    We prevent terrorism and violent crime, illegal drug 
distribution, fraud, corruption, child abuse, civil rights 
violations, and countless other threats to the American people.
    We enforce tax laws, antitrust laws, and environmental 
laws. We represent the United States in the Supreme Court, the 
Courts of Appeal, and the District Courts, and in State and 
territorial courts. We protect Federal judges, manage Federal 
prisons, review parole applications, oversee the bankruptcy 
system.
    We assist Tribal governments and we adjudicate immigration 
cases. We provide legal advice to the President and to every 
Federal agency. We implement grant programs and support State 
and local law enforcement. We combat waste fraud and other 
misconduct involving employees and contractors.
    We resolve foreign claims and represent our government in 
international law enforcement forums. We collect, analyze, and 
disseminate law enforcement data.
    And we perform countless other important functions for the 
American people.
    Department of Justice employees are united by a shared 
understanding that our mission is to pursue justice, protect 
public safety, preserve government property, defend civil 
rights, and promote the rule of law.
    The mission attracted me to law enforcement, but the people 
who carry out that mission are what I treasure most about my 
job. With very few exceptions, they are honorable, principled, 
and trustworthy.
    America's Federal, State, and local law enforcement 
agencies are more professional today than ever. Rigorous 
scrutiny by internal affairs offices and external oversight 
agencies has resulted in increased accountability and higher 
standards. When wrongdoing occurs, we are more likely to 
discover it and we remedy it. That is critical to building and 
maintaining public confidence.
    Over the past 8 months, I've spoken with thousands of 
Department employees around the country. I remind them that 
justice is not only our name, justice is our mission. Justice 
requires a fair and impartial process. That's why we have a 
special responsibility to follow ethical and professional 
standards.
    In 1941, Attorney General Robert Jackson said that the 
citizen's safety lies in the prosecutor who tempers zeal with 
human kindness, seeks truth and not victims, serves the law and 
not factional purposes, and approaches the task with humility.
    Under the leadership of Attorney General Jeff Sessions and 
an experienced team appointed by President Trump, the 
Department of Justice is working tirelessly to protect American 
citizens and to uphold the rule of law.
    Today I look forward to discussing some of our Department's 
important work. Following the U.S. Attorney's Manual and the 
example set by past Department of Justice officials, we always 
seek to accommodate congressional oversight requests while 
protecting the integrity of our investigations, preserving the 
Department's independence, and safeguarding sensitive 
information.
    Thank you, Mr. Chairman. I look forward to your questions.
    Chairman Goodlatte. Thank you, Mr. Rosenstein. I'll start 
by recognizing myself for questions.
    Last week Director Wray indicated that the normal 
procedures were not followed in the investigation of former 
Secretary Clinton's email server. It said it was not normal 
protocol to have witnesses sit in the room during an interview 
of the target of an investigation.
    If the inspector general determines that normal protocol 
was not followed or that the investigation was closed or 
otherwise tainted for political purposes, would that be a 
justification, in your mind, to reopen the investigation?
    Mr. Rosenstein. Mr. Chairman, we are certainly anticipating 
the outcome of that inspector general investigation. As you 
know, that's been ongoing for some time. I'm hopeful that it 
will be concluded within the next couple of months. And when we 
get those results we'll take appropriate action. I don't know 
exactly what the findings are going to be, but it's always 
appropriate for us to review any findings of impropriety or 
misconduct and take appropriate action.
    Chairman Goodlatte. When you announced your decision to 
terminate the employment of FBI Director Comey, in that 
decision you announced some practices that I took it to mean 
you thought were inappropriate actions on the part of former 
FBI Director. Do you think that those actions on his part would 
merit further investigation in how that whole matter was 
conducted?
    Mr. Rosenstein. Mr. Chairman, as you're aware, the 
inspector general is conducting an investigation into the 
handling of that Hillary Clinton email investigation, and I 
believe that the matters that you've referred to are part of 
his investigation.
    The memo that you're familiar with, that I provided, 
reflects my personal opinion. It's not an official finding of 
misconduct, that's the Inspector General's job. He'll reach his 
own independent investigation. But as you pointed out, my views 
about it are already known.
    Chairman Goodlatte. Are you aware of any prior efforts by 
the Judiciary Committee, this committee, to unduly restrict the 
ability of the intelligence community to do its job of 
protecting our national security?
    Mr. Rosenstein. I'm not personally aware of any, no, sir.
    Chairman Goodlatte. Are you aware that this committee has 
primary oversight of the Foreign Intelligence Surveillance Act 
due in part to the significant constitutional and legal 
questions that government surveillance raises?
    Mr. Rosenstein. Mr. Chairman, I respect the Congress' 
decision about which committee has oversight. I know that both 
this committee and the Intelligence Committee have an interest 
in that issue.
    Chairman Goodlatte. Well, given that you understand this 
committee's jurisdiction and its history of providing the 
intelligence community with the tools it needs, why would we, 
in the words of the Department, attempt to, quote, ``dismantle 
Section 702 of our Nation's most important surveillance 
program''?
    Mr. Rosenstein. Well, I certainly would hope that wouldn't 
be the case. I don't know who made the statement you're 
referring to.
    I know the Department, obviously, has expressed its opinion 
about the reauthorization, which we think is critically 
important, of Section 702. I respect there are differences of 
opinion, but I think the Department has been very clear that we 
believe it's essential to national security that Section 702 be 
reauthorized.
    Chairman Goodlatte. We agree with you that it's essential 
that Section 702 be reauthorized.
    We also believe that it's essential that the civil 
liberties of American citizens be protected and that a standard 
be imposed on the examination of information about U.S. 
citizens incidentally gathered as a part of the Section 702 
program with the surveillance of non-U.S. citizens outside the 
United States, but incidentally gathering information about 
U.S. citizens, and then being looked into by agents of the 
Federal Bureau of Investigation without a warrant.
    I'm not aware of that being appropriate in any other type 
of investigation that they might be conducting. We're not 
talking about terrorist attack, we're not talking about 
national security, because we have clearly distinguished that.
    We're simply talking about crimes that have already 
occurred that are being investigated, as they should be 
investigated by the Department, but under the procedures that 
the American people would expect that they would follow to 
protect their civil liberties in other circumstances.
    Mr. Rosenstein. Mr. Chairman, as you know, I've had the 
advantage over the last 8 months of having a role in overseeing 
our national security operations.
    I discussed this with Director Wray yesterday, and if you 
like, I could give you a detailed explanation. It might take a 
couple of minutes, but I'd be happy to give you some details.
    But the bottom line is that it really is critical to 
national security that the FBI have the ability to query the 
data. That's the issue here.
    Chairman Goodlatte. And our legislation allows them to do 
that. But if the query provides a hit that they want to read an 
email, they want to see other documentation, they want to see 
in its full form, they are required to get a warrant under 
those circumstances.
    Mr. Rosenstein. And I discussed this with Director Wray. 
And what happens when the FBI conducts these queries, Mr. 
Chairman, is that typically their leads that are not 
necessarily based on probable cause but based on a lead, a 
suspicion, and the ability to query that data and then follow 
up on it gives the FBI the opportunity to put two and two 
together, that connect the dots.
    Chairman Goodlatte. There are lots of leads that any law 
enforcement person would like to pursue, but we have 
protections against them pursuing it without appropriate 
standard for doing it in a whole host of other ways to protect 
people from unreasonable searches. And this is a search of 
information about a United States citizen.
    Mr. Rosenstein. Well, it's a query as a constitutional 
matter.
    Chairman Goodlatte. We allow the initial query. Once that 
results in something the agent wants to look at, I don't see 
how you distinguish the further reading of emails or other 
things from a search.
    Mr. Rosenstein. If I could take a couple of minutes, I 
could explain to you. I talked with Director Wray about an 
appropriate way to explain this publicly.
    Hypothetically, let's say, for example, that a local police 
department receives a call that somebody has purchased a large 
quantity of hydrogen peroxide. And something made the clerk at 
the store suspicious about that, so he contacts the local 
police.
    There's no probable cause, there's nothing illegal about 
what the person did, but something that caused concern. The 
local police may----
    Chairman Goodlatte. General Rosenstein, let me interrupt 
you, because the very specific instance that you are citing was 
cited to us in our discussions with the FBI, and that very 
specific protection for the FBI was added to our legislation.
    Mr. Rosenstein. Well, the example I'm providing is a 
situation where there would not be probable cause, but we think 
it would be appropriate for the FBI to follow up. And what 
we're trying to avoid is a situation where we re-erect a wall 
that would prevent the FBI from gaining access to information 
that might allow them to connect a lead to information that 
implicates national security.
    Chairman Goodlatte. Thank you. My time has expired.
    The chair recognizes the gentleman from New York, Mr. 
Nadler, for 5 minutes.
    Mr. Nadler. Thank you.
    On Monday, Ranking Member Cummings and I wrote you a 
letter, sir, about the majority's ongoing investigation into 
the investigation of former Secretary Clinton.
    Without objection, I ask unanimous consent that our letter 
be placed into the record.
    Chairman Goodlatte. Without objection, it will be made a 
part of the record.
    Mr. Nadler. Thank you.
    The first part of our letter discusses the Department's 
failure to provide the minority with access to the documents 
you've already provided to the majority.
    Yes or no, will you commit to ensuring that the minority, 
that we receive equal access to any materials that you may 
provide to this committee in the future?
    Mr. Rosenstein. Yes. And I believe, my understanding is 
that that information may have been provided----
    Mr. Nadler. I'm not interested in the past at this point. 
Thank you. That's what I wanted. I have a lot of questions.
    The majority of this committee, the White House, and 
President Trump's private attorneys have all called for the 
Department of Justice to appoint a new special counsel to 
investigate a number of Hillary Clinton-related matters. I 
think we could benefit from your experience in how the special 
counsel regulations work.
    The regulations say the Attorney General, or in your case 
the Acting Attorney General, will appoint a special counsel 
when you determine that, one, criminal investigation of a 
person or matter is warranted; and two, the investigation 
either presents a conflict of interest to the Department or 
some other strong public interest requires you to appoint a 
special counsel.
    That first part, when he or she determines that criminal 
investigation of a person or matter is warranted, is that part 
of the regulations optional?
    Mr. Rosenstein. No, that is a part of the regulations.
    Mr. Nadler. Okay. Thank you.
    So a criminal investigation must first be determined to be 
warranted before you can assign a special counsel to the 
matter?
    Mr. Rosenstein. Yes.
    Mr. Nadler. Thank you. And at the Department of Justice, a 
criminal investigation requires an initial assessment and a 
preliminary review of the evidence?
    Mr. Rosenstein. Correct.
    Mr. Nadler. Has that assessment been made with respect to 
former Director Comey's handling of the Hillary Clinton 
investigation?
    Mr. Rosenstein. I'm not going to comment on any 
investigations. In the normal course, before we made a 
determination, we would conduct an appropriate review.
    Mr. Nadler. And I assume your answer would be the same if I 
asked you about the FBI's interaction with Fusion GPS.
    Mr. Rosenstein. It would be the same for anything, yes.
    Mr. Nadler. Okay. Then presuming for a moment, presuming 
for a moment that the Department has conducted an initial 
assessment and found no predicate for criminal investigation, 
so in plain English there is no ongoing criminal investigation, 
under this presumption, could you or Attorney General Sessions 
simply appoint a special counsel to look into these matters?
    Mr. Rosenstein. No.
    Mr. Nadler. As I said earlier, to my knowledge there's been 
no credible factual or legal claim that anybody at the 
Department violated any law by deciding not to bring charges or 
by attempting to meet with Fusion GPS.
    If that is true, if there is no underlying criminal 
investigation because there is insufficient evidence of a crime 
in this or any other case, do the regulations permit you to 
appoint a special counsel?
    Mr. Rosenstein. No.
    Mr. Nadler. Thank you.
    According to the Department, the Office of the Inspector 
General informed Special Counsel Mueller of the existence of 
these text messages between Peter Strzok and Lisa Page on July 
27, 2017, the texts you sent us last night. Mr. Mueller 
immediately concluded that Mr. Strzok could no longer 
participate in the investigation and he was removed from the 
team the same day. Did Mr. Mueller take appropriate action in 
this case?
    Mr. Rosenstein. Yes, he did.
    Mr. Nadler. Thank you.
    In testimony before the Senate Judiciary Committee, you 
said that you would only fire Special Counsel Mueller for good 
cause and that you had not seen any yet. Several months have 
passed since then. Have you seen good cause to fire Special 
Counsel Mueller?
    Mr. Rosenstein. No.
    Mr. Nadler. Thank you.
    If you were ordered today to fire Mr. Mueller, what would 
you do?
    Mr. Rosenstein. As I've explained previously, I would 
follow the regulation. If there were good cause, I would act. 
If there were no good cause, I would not.
    Mr. Nadler. And you have seen no good cause so far?
    Mr. Rosenstein. Correct.
    Mr. Nadler. Thank you.
    On May 1, the Office of Legal Counsel issued an opinion 
arguing that ranking minority members do not have the authority 
to conduct oversight, unquote. Shortly thereafter, Politico 
reported that the White House Counsel instructed Federal 
agencies not to cooperate with oversight requests from 
Democrats.
    Since then, Democrats on this committee have written more 
than 40 letters to the administration without any meaningful 
response thus far.
    Can you clarify your current position on responding to 
letters from the minority? And are you concerned that the 
Department's May 1 opinion serves to justify a policy of 
stonewalling by the administration?
    Mr. Rosenstein. My position, Congressman, is that we make 
every effort to respond to any legitimate inquiry from a Member 
of Congress. Obviously, we prioritize inquiries propounded by 
the chair on behalf of the committee. But we will make an 
effort to respond to any inquiry. We get a lot of letters.
    Mr. Nadler. I'm sure.
    Mr. Rosenstein. And so I apologize if there's a delay.
    Mr. Nadler. Would you prioritize after letters from the 
chair letters from the minority?
    Mr. Rosenstein. Our goal is to respond to all those letters 
in a reasonable manner. In fact, when our new Assistant 
Attorney General, Steven Boyd, took office, there was quite a 
backlog.
    Mr. Nadler. And would you encourage the Office of Legal 
Counsel to withdraw its May 1 opinion?
    Mr. Rosenstein. I'll take a look at it, Congressman. But as 
I said, without regard to what the law may require, our policy 
is to try to----
    Mr. Nadler. I understand that, but you would take a look at 
whether you would encourage the Office of Legal Counsel to 
withdraw that May 1 opinion?
    Mr. Rosenstein. Well, I'm not committing to do anything. I 
will agree to look at it.
    Mr. Nadler. Okay. Thank you.
    And finally, I just want to say and follow up with what the 
chairman was saying about Section 702.
    The bill that this committee reported specifically said--
basically said that where you're doing a counterintelligence or 
a foreign or a terrorism investigation, you don't need a 
warrant to query Section 702 data. But where you're conducting 
an investigation of domestic crimes, then, like any other 
expression of domestic crimes, you would need a warrant. So 
that the danger that I think you were referring to is taken 
care of by the bill.
    And I endorse the comments of the chairman to that effect, 
and I think you should take a look at that. I urge you to take 
a look at that.
    Thank you. I yield back.
    Chairman Goodlatte. The chair thanks the gentleman.
    I recognize the gentleman from Texas, Mr. Smith, for 5 
minutes.
    Mr. Smith. Thank you, Mr. Chairman.
    Mr. Rosenstein, I am concerned that the special counsel may 
be casting too wide of a net, that he is trying to catch all 
the fish in the ocean, not just the Soviet sharks. And if the 
special counsel were to obtain information not directly related 
to Russian interference with the election and he wanted to 
investigate that further, would he need to obtain your 
authority to expand the investigation?
    Mr. Rosenstein. Yes, he would.
    Mr. Smith. Okay. Has he ever asked to expand the scope of 
the investigation?
    Mr. Rosenstein. I appreciate that question, Congressman. If 
I could explain briefly, there are a lot of media stories 
speculating about what the special counsel may or may not be 
doing.
    I know what he's doing. I'm appropriately exercising my 
oversight responsibilities. So I can assure you that the 
special counsel is conducting himself consistently with our 
understanding about the scope of his investigation.
    Mr. Smith. Right. That really wasn't my question. My 
question was, has he asked you or consulted with you about a 
desire to expand the investigation beyond the original scope?
    Mr. Rosenstein. Well, the consultation actually is much 
more detailed than that. He consults with me. His office 
consults with me about their investigation, both within and 
without the scope. So I know what they're authorized to do.
    Mr. Smith. I know you know what they're doing, but has he 
requested to expand the scope of the original jurisdiction?
    Mr. Rosenstein. The scope of the original jurisdiction, as 
you know, is publicly set forth in that order. But the specific 
matters are not identified in the order. So I discussed that 
with Director Mueller when he started, and we've had ongoing 
discussion about exactly what is within the scope of his 
investigation. And to the extent there was any ambiguity about 
it, he's received my permission to include those matters within 
his investigation.
    Mr. Smith. So he has asked to expand the scope and you've 
given him permission.
    Mr. Rosenstein. You're characterizing it as an expansion. 
As I said, it's a clarification in most cases. But he 
understands that this is a special counsel, it's not an 
independent counsel. And I'm accountable for what they're doing 
and I need to know what they're doing.
    Mr. Smith. Okay. Clarification may be an expansion, we may 
be caught up on the meaning of those words. But I do think, 
regardless, I think the American people have a right to know if 
the original jurisdiction has been expanded. Do you agree with 
that?
    Mr. Rosenstein. The difficulty, Congressman, is that I have 
a responsibility not to talk about what's being investigated, 
and that's why the original order doesn't identify any persons 
or charges. But we know what's under investigation.
    Mr. Smith. I'm not asking you to go into any specifics or 
to name names or to even talk about the subject, just whether 
or not the request has been made to expand it. You said you've 
clarified his jurisdiction. I assume that that would involve an 
expansion, as you've suggested.
    Mr. Rosenstein. I want to make sure I'm 100 percent 
accurate, and I'll need to check and get back to you as to 
whether or not we considered particular issues to be a 
clarification or an expansion.
    Mr. Smith. Okay.
    Mr. Rosenstein. But whatever it may be, I'm responsible for 
and I know what he's investigating.
    Mr. Smith. Okay. Please do get back to me on the difference 
between those two.
    Do you feel that the special counsel is authorized to 
investigate the personal finances of the Trump family members?
    Mr. Rosenstein. Congressman, that would implicate the 
concern that I've expressed that we just don't talk about 
what's under investigation. So I hope you don't draw any 
inference pro or con. We're simply not going to discuss it.
    Mr. Smith. Well, do you think the personal finances comes 
under the original jurisdiction of direct involvement of 
Russian interference with the election?
    Mr. Rosenstein. I certainly appreciate your concern, 
Congressman, but I hope you appreciate my position that if I 
start answering what is and isn't, I have gone down that road 
that I just don't want to go down of discussing what's under 
investigations.
    There have been four persons that have been charged. Those 
are known. And ordinarily the Department of Justice, that's 
what we publicize. If we charge somebody with a crime, we 
publicize it. If we don't charge anybody with a crime, we don't 
talk about it.
    Mr. Smith. But some of the people charged have been charged 
with crimes not directly connected to Russian interference with 
the election.
    Mr. Rosenstein. The crimes with which they're charged are 
publicly known.
    Mr. Smith. Okay. So in other words, you do feel that the 
special counsel can go into the personal finances not connected 
to Russian interference?
    Mr. Rosenstein. I hope I've been clear, Congressman. I am 
not commenting on that, on the scope of the investigation.
    Mr. Smith. Alright. What about can the special counsel 
investigate the personal actions of staff unconnected to the 
Russian interference with the election?
    Mr. Rosenstein. Only if I determine that it's appropriate 
for him to do so.
    Mr. Smith. Okay. So that's your determination, not the 
special counsel's?
    Mr. Rosenstein. As I said, Congressman, I know what he's 
doing. If I felt he was doing something inappropriate, I would 
take action.
    Mr. Smith. Right. Let me just maybe summarize by saying 
that I think the American people deserve to know who is being 
investigated and why.
    I have one final question in my last couple of seconds 
here.
    As you know, and as many of us know, in the Lawyer's Code 
of Ethics attorneys are supposed to avoid not just the actual 
impropriety itself, but the appearance of impropriety. The 
special counsel has hired at least eight attorneys who have 
direct connections to both the--to either the Obama or Clinton 
campaigns. Don't you think that creates an appearance of 
impropriety?
    And I'm not saying whether you think they can do their 
jobs. Don't you think it creates an appearance of impropriety?
    Chairman Goodlatte. The time of the gentleman has expired. 
The witness is permitted to answer the question.
    Mr. Rosenstein. I do not believe--I'm not aware of any 
impropriety.
    We do have regulations. The special counsel is subject to 
all the Department's rules and subject to oversight by the 
Department, including the inspector general. I am not aware of 
any violation of those rules by the special counsel employees.
    Mr. Smith. So you don't think it creates the appearance of 
impropriety?
    Mr. Rosenstein. Well, appearance is, to some extent, in the 
eye of the beholder. We apply the Department's rules and 
regulations in making those determinations, and we do have 
career ethics advisers who provide us counsel about that.
    Mr. Smith. Thank you, Mr. Rosenstein.
    Thank you, Mr. Chairman.
    Mr. Rosenstein. Thank you.
    Chairman Goodlatte. Thank you.
    The chair recognizes the gentlewoman from California, Ms. 
Lofgren, for 5 minutes.
    Ms. Lofgren. Thank you, Mr. Chairman.
    And thank you, Mr.Rosenstein, for being here with us today.
    You are a career attorney in the Department, isn't that 
right?
    Mr. Rosenstein. I would say I was a career attorney.
    Ms. Lofgren. Was a career attorney.
    Mr. Rosenstein. Yes.
    Ms. Lofgren. You've spent your whole life working for the 
people of the United States as a career attorney until you were 
asked to fulfill the current function that you're performing?
    Mr. Rosenstein. As a U.S. attorney, I was a political 
appointee. So in the past 12 years I've been a political 
attorney, 15 years prior to that as a career attorney.
    Ms. Lofgren. So let me ask you, in taking a look at the 
individuals who are working on the matters that we are 
discussing, are they career attorneys in the Department who are 
working on this?
    Mr. Rosenstein. Some of them are, Congresswoman. Under the 
regulation, the special counsel is permitted to request the 
detail of attorneys in the Department, if he believes it would 
be helpful. He also has authority to hire attorneys from 
outside the Department, and he's used both approaches.
    Ms. Lofgren. So wouldn't they be subject to the principles, 
the merit system principles in the Civil Service Reform Act.
    Mr. Rosenstein. Yes, I believe they are.
    Ms. Lofgren. So, you know, I was--we have been on the 
committee here for a long time. And I remember back in 2008 
there were allegations that the Department of Justice had used 
politics as a basis for hiring and firing in the Department. 
And the Office of Inspector General and the Office of 
Professional Responsibility issued a report outlining the 
impropriety of using politics in personnel decisions.
    One of the things they said was that the Department's 
policy on nondiscrimination includes the Department of Justice 
needs to seek to eliminate discrimination on the basis of race, 
color, religion, sex, sexual orientation, national origin, 
marital status, political affiliation, age, and the like.
    So wouldn't that policy be governing the actions of the 
individuals working on this, you couldn't discriminate based on 
this whole list, including their political affiliation?
    Mr. Rosenstein. Congresswoman, one of the advantages that I 
bring to the job is having been in and around the Department 
for a while, I have seen mistakes that have been made in the 
past. And that is precisely one of the issues that I've 
discussed with our political appointees, that we are not going 
to do, that we are not going to improperly consider political 
affiliation with regard to career employees in the Department.
    Ms. Lofgren. Thank you very much.
    You know, I wanted to ask about a couple of concerns, and 
you may or may not have responsibility for this. If so, just 
let me know.
    I am concerned that the Department has had a change in 
position on certain important voting rights issues. One has to 
do with the purging of rolls in Ohio.
    The Department had previously argued against purging those 
rolls because the National Voter Registration Act prohibits the 
purging of voters simply because they haven't voted in a given 
period of time. And it's my understanding that the Department 
is now arguing that Ohio can purge individuals from rolls, even 
without evidence that they have moved.
    Additionally, the Department had argued that the State of 
Texas ID law had discriminated against individuals, and that 
the Department has changed its position on that. And the law as 
currently drafted probably excludes up to 600,000 Americans 
from being able to vote because of the ID, the draconian ID 
laws.
    Can you give us any insight into why the Department changed 
its position on these key voting rights issues?
    Mr. Rosenstein. Congresswoman, I'm generally familiar. I 
don't know all the details of both of those matters. But as a 
general matter, it's important to understand that the 
determination about--ultimate determination about what the law 
means is made by a judge.
    Department officials obviously need to make a decision, 
based upon a good faith analysis of the facts and the law, what 
position to take.
    It may be that new leadership of the Department takes a 
different position. But I can assure you that's based on a good 
faith analysis, and there may be legitimate ambiguity in some 
of these provisions. And we are responsible for making our 
determination, just like the prior administration made theirs. 
But ultimately, it will be up to a judge to decide what that 
law means.
    Ms. Lofgren. Right.
    Let me just ask a final question. It's my understanding 
that under the order appointing him, Mr. Mueller has the 
authority to investigate matters that arose or may arise 
directly from the investigation, which would include crimes 
uncovered while he is investigating the main mission.
    So, for example, if he is looking at the Russia 
investigation and he finds out that the person he is looking at 
committed a bank robbery, he isn't required to ignore a bank 
robbery. Would that be a fair assessment of his 
responsibilities?
    Mr. Rosenstein. It's a fair assessment.
    Chairman Goodlatte. The time of the gentlewoman has 
expired. Mr. Rosenstein may answer the question.
    Mr. Rosenstein. Congresswoman, also it's important to 
recognize, because it is a special counsel, not an independent 
counsel, those issues are worked out with the Department. So in 
the event that he came across evidence that was not appropriate 
for him to prosecute, he could refer it to other components in 
the Department. So we wouldn't allow something like that to 
slip through the cracks, but we would make sure to route it to 
the appropriate prosecutor.
    Ms. Lofgren. Thank you, Mr. Chairman.
    Chairman Goodlatte. The chair recognizes the gentleman from 
Ohio, Mr. Chabot, for 5 minutes.
    Mr. Chabot. Thank you, Mr. Chairman.
    Mr. Rosenstein, you already indicated that Mr. Strzok was 
removed for impropriety. It's beyond me how the other people 
that were mentioned by the chairman and Mr. Smith were not 
removed for impropriety as well.
    Let me ask you, first of all, I assume that the team you 
put together you felt was going to be--that Mueller put 
together--was going to be fair and unbiased, correct?
    Mr. Rosenstein. Correct. I selected Mr. Mueller and he----
    Mr. Chabot. And he selected the team, right.
    Now, let me just review a few facts about the supposedly 
unbiased group of people that Mr. Mueller pulled together. Nine 
of the 16 have made political contributions. To be fair, let's 
just go through them in alphabetical order.
    First, Greg Andres gave $1,000 to the Democrat running to 
hold the seat, the Senate seat, previously held by Barack 
Obama. He gave $2,600 to Democrat Senator Gillibrand, who just 
this week led the charge of Democratic senators demanding that 
President Trump resign. And, oh yeah, Mr. Anders gave zero to 
the Trump campaign, or to any Republican for that matter.
    Next, again in alphabetical order, Rush Atkinson. He 
donated to the Clinton campaign last year. Again, zero to the 
Trump campaign.
    Third, Kyle Freeny contributed to both Obama campaigns and 
to Hillary Clinton's campaign. Zero to the Trump campaign.
    Next, Andrew Goldstein. He donated $3,300 to both Obama 
campaigns. Again, zero to the Trump campaign.
    Fifth, Elizabeth Prelogar, who clerked for liberal Supreme 
Court Justices Ginsburg and Kagan, contributed to both the 
Obama and Clinton campaigns and zero to Trump.
    Next, James Quarles. He's contributed to the Democratic 
Presidential campaigns of Dukakis, Kerry, Obama, and Hillary 
Clinton, and Gore as well. He did contribute to former 
Congressman Chaffetz and Senator Allen, but he contributed over 
$20,000 to Democratic House and Senate candidates and, again, 
gave zero to Trump.
    Seventh, Jeannie Rhee, she actually represented, as was 
previously mentioned, Hillary Clinton and the Clinton 
Foundation in several lawsuits. She's donated $16,000 to 
Democrats, contributed $5,400 to the Clinton campaign, and zero 
to the Trump campaign.
    Eighth, Brandon Van Grack contributed to ActBlue, the 
fundraising outfit organized to elect Democratic congressional 
candidates, contributed to the Obama Presidential campaign, 
and, of course, gave nothing to Trump.
    And finally, Andrew Weissmann. He contributed $2,000 to the 
Democratic National Committee, $2,300 to the Obama campaign, 
$2,300 to the Clinton campaign, and zero to Donald Trump. He's 
also the guy who praised the holdover Acting Attorney General 
Sally Yates for defying President Trump on the travel ban.
    Now, my question to you is, how with a straight face can 
you say that this group of Democrat partisans are unbiased and 
will give President Trump a fair shake?
    Mr. Rosenstein. Well, Congressman, I think it's important 
to recognize that when we talk about political affiliation, 
that all demonstrates political affiliation.
    The issue of bias is something different. I've discussed 
this with Director Mueller, and he and I collectively have a 
lot of experience managing offices in the Department of 
Justice. We recognize we have employees with political 
opinions, and it's our responsibility to make sure those 
opinions do not influence their actions.
    And so I believe that Director Mueller understands that and 
that he is running that office appropriately, recognizing that 
people have political views, but ensuring that those views are 
not in any way a factor in how they conduct themselves in 
office.
    Mr. Chabot. Well, when you say he is running it 
appropriately, I think putting the committee, the people, his 
investigators together to begin this investigation in the first 
place is part of the investigation. And how these people, the 
group he put together, is considered unbiased, I don't know how 
anyone can possibly reach that conclusion.
    You know, when this whole Russia was involved in our 
elections flap surfaced and you picked Robert Mueller to lead 
the investigation, I was at first encouraged. It seemed like a 
serious matter and it deserved a serious investigation. And I 
assumed, as many of us did, that Mr. Mueller would pull 
together an unbiased team.
    But rather than wearing stripes as umpires and referees 
might wear, I would submit that the Mueller team overwhelmingly 
ought to be attired with Democratic donkeys on their jerseys or 
I'm With Hillary t-shirts, certainly not with Let's Make 
America Great Again.
    And I think that's a shame, because I think the American 
people deserve a lot better than the very biased team that 
they're getting under Robert Mueller. And I think it's really 
sad.
    I yield back.
    The Chairman. The chair recognizes the gentlewoman from 
Texas, Ms. Jackson Lee for 5 minutes.
    Ms. Jackson Lee. Deputy Attorney General, thank you, 
welcome, and thank you for your service to the Nation.
    Allow me just for a moment as I move on to my questions to 
indicate that I am shocked and baffled the way some in the 
right-wing media and some of our friends on the other side show 
such contempt for the Department of Justice and the FBI and so 
much skepticism for mistrust of the Russian Government.
    Let me briefly review for the record, the FBI and DOJ 
brought to justice and put away Timothy McVeigh, domestic 
terrorist, who killed 168 Americans; Klansmen who murdered 
civil rights workers Goodman, Chaney, and Schwerner; the 
Unabomber; terrorists who bombed U.S. embassies in Kenya and 
Tanzania; organized crime family kingpins; the murderer who 
assassinated Medgar Evans; Pan Am 103 bombing; Soviet diplomat 
that had a spy ring during World War II; Aldrich Ames, Richard 
Hanssen, Alger Hiss, and others for espionage; World Trade 
Center bombing in 1993; TWA 847 hijacking; Lindbergh 
kidnapping; Beltway snipers; Klansmen who killed four little 
girls in a 16th Street church in Birmingham.
    And, of course, on the other hand, the Russians are known 
for shooting down a civilian airlines, KAL 007, killing 269 
passengers and crew; annexing Crimea and invading Ukraine; 
killing journalists; propping up Assad, the butcher of 
Damascus; building the Berlin Wall, imposing an iron curtain 
against freedom; and committing cyber theft and conspiring and 
doing a sabotage of the American Presidential election in 2016.
    Perhaps our friends on the other side of the aisle can show 
more respect for the FBI and the DOJ, as so many of us do, 
including myself.
    So let me ask these questions, and with my limited time I 
really need just a yes or no.
    Are you in the business of helping to secure the elections 
in 2018 and making sure that there is an infrastructure in the 
DOJ to help States have secure elections? Yes or no?
    Mr. Rosenstein. Yes.
    Ms. Jackson Lee. Special Counsel Mueller, I'm reminded, 
some of us would say we read it in the history books, of the 
Saturday Night Massacre. I know you must be aware of it.
    During the meeting of May 8, 2017, with you, Sessions, and 
the President, the day before Comey was fired, what did you 
discuss regarding the FBI investigation?
    Mr. Rosenstein. Congresswoman, as I explained previously, 
I'm not going to be discussing anything related to that until 
after the investigation.
    Ms. Jackson Lee. Thank you very much, Mr. Deputy Attorney 
General.
    Let me then go forward with the question of the protection 
of the special prosecutor. Do you have in place a protection 
scheme or system that would void a potential Saturday Night 
Massacre?
    Do you in fact have the authority to stand up against the 
President, who is putting out the right-wing media to taint the 
Mueller investigation?
    Will you protect Mr. Mueller if he deserves the protection 
and has done nothing to violate his duties and 
responsibilities?
    Mr. Rosenstein. As I've explained, if he hasn't violated--
--
    Ms. Jackson Lee. Is that yes or no, Mr. Deputy Attorney 
General?
    Mr. Rosenstein. I won't take any action unless he has 
violated his duties.
    Ms. Jackson Lee. Let me show you these individuals here. It 
says that the Trump accusers want a day in court or at least 
want to be heard.
    The President is the chief executive and law enforcement 
officer of the United States; therefore, he is an officer of 
the United States.
    What does the Department of Justice, what intentions do you 
have to allow these women, who are accusing the President of 
sexual misconduct and have never been heard in terms of a 
public setting, as many of us on this committee, women on this 
committee, Democratic women on this committee have asked for 
this committee to hold a hearing with these women, what does 
the Department of Justice intend to do in light of the fact 
that the President is the chief law enforcement officer of the 
United States of America?
    Mr. Rosenstein. I don't think I have any position on that, 
Congresswoman. If they file a lawsuit, they're free to do so. 
It wouldn't be a Department matter.
    Ms. Jackson Lee. Would you not believe that it's important 
to give these women a forum to be heard? The Department of 
Justice, the FBI, investigates. I just gave a long litany of 
the great successes of the Department of Justice.
    Mr. Rosenstein. If there's anything that warrants Federal 
investigation, Congresswoman, we'd certainly look at it.
    Ms. Jackson Lee. So can I refer these women, can we refer 
these women to the Department of Justice? If they walked up to 
the Department of Justice, would there be an intake officer, an 
FBI officer, that would take their complaints?
    Mr. Rosenstein. If somebody wants to file a complaint of a 
potential Federal crime, yes, they can report that to the FBI 
or they can write. Anybody can do that at any time.
    Ms. Jackson Lee. Well, then let me publicly say to these 
women, you have one option at this time, is to go to the 
Department of Justice, as the Deputy Attorney General has just 
said to us, to be able to file a complaint. And I would 
encourage them to do that. I would also encourage this hearing 
as well to do--this committee to have hearings.
    Let me ask this last question regarding the whole question 
of commutation program and President Obama and, of course, the 
memo by Attorney General Sessions that rescinds memos regarding 
the charging and sentencing policy and also the use of private 
prisons. That was by Eric Holder.
    What is the position of the U.S. Department of Justice as 
it relates to a fair and just commutation program and also the 
issues dealing with overprosecution and the sentencing policy 
that was offered by Eric Holder, which was considered fair and 
just? And the use of private prisons have been known to be 
abusive to prisoners and do not allow FOIA requests to go 
forward. What is your position on that?
    Chairman Goodlatte. The time of the gentlewoman has 
expired. The Deputy Attorney General may answer the question.
    Ms. Jackson Lee. Thank you.
    Mr. Rosenstein. Thank you, Mr. Chairman.
    You've raised a number of issues, Congresswoman. I don't 
know that I have time to respond to them all.
    But I do just want to clarify, anybody is free to report to 
the Department of Justice when they believe a crime is 
committed. It's not a complaint in the way that you might file 
a complaint in some local police departments. You're free to 
report any allegations, and the Department will conduct 
appropriate review, as we do with any allegations of alleged 
criminal conduct. We initiate investigations, though, only if 
we determine there's proper predication under our policies.
    Ms. Jackson Lee. Well, I am yielding back, Mr. Chairman, 
but he did not answer my question. Thank you.
    Chairman Goodlatte. The time of the gentlewoman has already 
expired.
    The chair recognizes the gentleman from California, Mr. 
Issa, for 5 minutes.
    Mr. Issa. Thank you.
    Deputy Attorney General, if someone comes in to make that 
complaint or to file that information, they are going to have 
their identification checked for who they are, right, to get 
into the building?
    Mr. Rosenstein. I am not certain. If they were to be 
admitted to the building, you actually can walk into most FBI 
offices, I think, without having to go through security.
    Mr. Issa. But you wouldn't consider it draconian if while 
they are filing this complaint or allegation, their driver's 
license was looked at, would you?
    Mr. Rosenstein. Well, if we are going to conduct an 
investigation, we need to know who the witnesses are.
    Mr. Issa. Thank you. I just wanted to note that that wasn't 
draconian.
    In the case of Mr. Strzok, you know, there was an 
appearance of impropriety that people are observing, but you 
had said, well, that may not have been the reason. But if it 
wasn't the appearance of impropriety based on his numerous 
rather strident tweets--or not tweets, but texts commenting 
adversely on the President, what was it?
    Mr. Rosenstein. If I said that, Congressman, it was 
inadvertent.
    The decision to remove Mr. Strzok off that case was made by 
Director Mueller based upon the circumstances known to him. It 
is important to understand, though, those text messages were 
uncovered in the course of an inspector general investigation 
that is not complete, so we won't be able to make any 
determination about what, if any, discipline is required 
until----
    Mr. Issa. Let me go to the inspector general now. This is 
Michael Horowitz, correct?
    Mr. Rosenstein. Correct.
    Mr. Issa. Michael Horowitz has repeatedly complained that 
he cannot, in fact--he does not have the authority to look for 
impropriety by lawyers as to their conduct as lawyers, because 
the office of--the OPR has that authority. That is still true, 
isn't it?
    Mr. Rosenstein. It is true, but he does have authority for 
certain types of misconduct by lawyers.
    Mr. Issa. Okay. So we have a situation in which he can look 
at some of the misconduct, not others. So one of the pieces of 
misconduct he cannot look at would be the question of a bias or 
the appearance of bias in their investigations in how they are 
conducting it and/or decisions. That is uniquely excluded to 
the inspector general in your cabinet position versus all other 
cabinet positions, if I am correct.
    Mr. Rosenstein. I am not certain about that. And if I may, 
I will check and get back to you on that, but it would either--
--
    Mr. Issa. But he is excluded?
    Mr. Rosenstein. It would either be OPR or the inspector 
general. And with regard to conflicts of interest, I believe 
certain of those are within the jurisdiction of the inspector 
general, but I would have to verify.
    Mr. Issa. Okay. Well, you can get back to me on that.
    You know, these political views that Mr. Chabot mentioned, 
and they are pretty clear that these are people who had a 
strong preference, but notwithstanding that, let's be very 
candid. Nobody up here is going to claim to be without their 
political bias. So one of the reasons that when there is a 
conflict of interest, people recuse themselves, and when there 
is an appearance of impropriety, they are excused. And one of 
the reasons that we look to a Special Prosecutor and that you 
appointed a Special Prosecutor was to not only get past the 
politics on this dais, but to get past the appearance of any 
conflict by the Department of Justice. Is that fair to say?
    Mr. Rosenstein. To minimize any appearance on either side 
of bias, correct.
    Mr. Issa. Okay. But a Special Prosecutor under the 
remaining statute, how it is done, is still a group looking for 
wrongdoing. That is their charge. They are not looking for 
right doing, they are looking for wrongdoing. That is fair to 
say? Like any prosecutor, you are not looking for innocence?
    Mr. Rosenstein. Well, to characterize it, Congressman, is 
they are looking for the truth, and then they will make a 
determination about whether or not it is appropriate to 
prosecute.
    Mr. Issa. Okay. So my question to you is, if that is the 
case, if we accept, my assumption, that they are looking, if 
they can, to hang the President or people around him--hear me 
out for a moment--then there really isn't a problem with having 
people that are dead-set on trying to find anything that would 
incriminate the administration in a Russian connection, which 
is somewhat their charge. So I will posture to you that maybe 
it is not that bad to have people who really dislike the 
President, would like to hang him.
    Having said that, when there is impropriety, such as Mr. 
Strzok, when there is, in fact, a history at the FBI of 
withholding information from Congress, when there is the 
appearance of impropriety by the Department of Justice, and 
when the inspector general is limited under the statute both 
because he doesn't have full access, and because certain 
portions are out of it, wouldn't you say that this is a classic 
example where in order to investigate the FBI and the 
Department of Justice, a special prosecutor who is equally 
looking for the truth, if it exists adversely, to the conduct 
of the FBI and the Department of Justice is within your charge 
and responsibility to see that it happens?
    Chairman Goodlatte. The time of the gentleman has expired.
    Mr. Rosenstein. You built a number of assumptions into your 
question, Congressman, and my simple answer to it would be 
that, you know, if we believed there was a basis for an 
investigation or a special counsel, I can assure you that we 
would act.
    Mr. Issa. Well, Mr. Chairman, I would say that since we 
have already had dismissals for wrongdoing, since there are 
ongoing internal investigations, the elements necessary to ask 
for a special prosecutor to, in fact, see what was done wrong 
already exist.
    Chairman Goodlatte. The time of the gentleman has expired.
    The chair recognizes the gentleman from Tennessee, Mr. 
Cohen, for 5 minutes.
    Mr. Cohen. Thank you, Mr. Chair.
    First, I want to thank you for your service to the country 
and for accepting the difficult position under the difficult 
circumstances that you have.
    Has President Trump ever communicated with you about 
removing Robert Mueller in his role as special counsel?
    Mr. Rosenstein. Congressman, I am not going to be 
discussing my communications with the President, but I can tell 
you that nobody has communicated to me a desire to remove 
Robert Mueller.
    Mr. Cohen. You said you are not going to relate your 
conversations with President Trump. How many conversations have 
you had since your appointment with President Trump?
    Mr. Rosenstein. I am the Deputy Attorney General, 
Congressman, and it is appropriate for me to talk with the 
President about law enforcement issues, and I don't believe 
that is an appropriate issue for discussion.
    Mr. Cohen. When you chose Robert Mueller to be the special 
counsel, what were his characteristics, his history, and the 
reasons for you to have chosen him for this important position?
    Mr. Rosenstein. I think it would be very difficult, 
Congressman, for anybody to find somebody better qualified for 
this job. Director Mueller has, throughout his lifetime, been a 
dedicated and respected and heroic public servant. He, after 
college, volunteered to serve as a Marine in Vietnam, where he 
was wounded in combat.
    He attended law school and then devoted most of his career 
to serving as a Federal prosecutor. With the exception of brief 
stints in private practice, served as United States Attorney in 
two districts, in Massachusetts and in Northern California. He 
served in many other positions in the Department.
    After he lost his position as the head of the criminal 
division when President Clinton was elected in 1992, Mr. 
Mueller briefly went into private practice, and then he went 
back at an entry level position as a homicide prosecutor, 
trying to help with the violent crime problem in the District 
of Columbia in the early 1990s.
    He then rose, once again, through the ranks, and ultimately 
was confirmed, I believe unanimously, as FBI Director, 
protected this Nation after 9/11. And then when his 10-year 
term expired, he was so well respected, that his term was 
extended, I believe also almost unanimously for another 2 
years.
    So I believe that based upon his reputation, his service, 
his patriotism, and his experience with the Department and with 
the FBI, I believe he was an ideal choice for this task.
    Mr. Cohen. Thank you, sir. I agree with you. FBI Director 
Wray agrees with you. He said similar thoughts. He said he was 
a smart lawyer, a dedicated public servant, and well respected 
within the FBI.
    I think everybody on the other side of the aisle agreed 
with you when you appointed him. And everybody in this 
Judiciary Committee, and probably everybody in this Congress 
agreed with this appointment as FBI Director, which was 
unanimous, his reappointment, which was unanimous, by 
Republican Bush and Democrat Obama. Everybody respects that man 
in this country. He may be the most respected man in this----
    Mr. Gohmert. I didn't. I don't.
    Mr. Cohen. Obviously. We knew that would be an exception.
    But the fact is, they didn't start to dislike him until he 
started to get into issues that affected the President that 
currently serves this country, and because of that, they said 
the FBI was in tatters, that the FBI, the chief law 
enforcement, top law enforcement folks in this country are 
questionable. Some of their allies on television said they are 
like the KGB. They have questioned you, they have questioned 
the Justice Department, they have questioned some of the most 
loyal, dedicated, fearless people in our country, who serve the 
rule of law, and I find it repugnant and awful.
    I wonder what you think about it when you hear about the 
FBI, which works under you, being suggested it is in tatters, 
and that there is something wrong with the FBI and that they 
are somehow like the KGB.
    Mr. Rosenstein. Well, Congressman, as I know you are aware, 
I have expressed concern with certain aspects of certain things 
done by the FBI, but in general, throughout my experience 
working with FBI agents over the decades, I have found them to 
be an exceptional group of public servants, very loyal, 
faithful, and dedicated, and I believe some of the finest 
people that I know are agents in the Federal Bureau of 
Investigation.
    Mr. Cohen. I have thought about them, sir, when I watched 
the Army-Navy game, and I thought about them because I have the 
honor, as everybody up here has, of recommending some folks to 
be at West Point and Annapolis. Those are the cream of the 
crop. And the people at the FBI are in law enforcement, they 
are the cream of the crop, and Justice Department attorneys 
are, too. It is not easy to get a job at Justice no matter 
where you went to law school and what you did. You hire the 
best. You always have, and I compliment you on that. I hope and 
know you will continue to hold the Department of Justice up as 
a pantheon of outstanding lawyers and jurists, and take justice 
where it should go, as truth demands and justice dictates.
    I yield back the balance of my time.
    Chairman Goodlatte. The chair recognizes the gentleman from 
Iowa, Mr. King, for 5 minutes.
    Mr. King. Thank you, Mr. Chairman, and thank you, Mr. 
Rosenstein, for your testimony here and your service.
    A number of things I am curious about here. First of all, 
in the interview of Hillary Clinton that took place reportedly 
July 2nd of 2016, how many people were in the room for that? 
How many people had the opportunity to question her?
    Mr. Rosenstein. Congressman, I do not know the answer to 
that. I believe when the inspector general completes his 
review, we may have additional information, but I personally do 
not know.
    Mr. King. And would you know who selected that team?
    Mr. Rosenstein. No, I do not.
    Mr. King. Really? Okay. I recall the testimony here by 
James Comey and also by then-Attorney General Loretta Lynch 
that testified, one of the two of them, that there were three 
representatives of the FBI and three representatives of DOJ in 
that room during that interview. Would that be consistent with 
practice that you would anticipate? Am I going to hear ``IG'' 
again?
    Mr. Rosenstein. Typically, we would have at least two 
agents conduct an interview, and there may be any number of 
attorneys based upon who is on the case. I just don't know the 
details of that particular decision.
    Mr. King. Okay. And the practice in an interview like that, 
would there be records kept of that interview?
    Mr. Rosenstein. Yes. If there were FBI agents present, 
typically they would take notes and produce a report 
summarizing the interview.
    Mr. King. Would there be a videotape, audiotape, or a 
transcript?
    Mr. Rosenstein. Generally no.
    Mr. King. And why not?
    Mr. Rosenstein. Well, it is just not--it is not the 
practice to do it.
    Mr. King. It needs to become the practice. The practice out 
across the countryside, many of our local law enforcement is 
that if you are a county deputy and you interview somebody for 
drunk driving, you tape that interview. And we have sheriffs 
out there that will say if they don't do that, that is cause 
for discipline.
    Now we are sitting here with a mystery on what went on in 
that interview of July 2nd, and many questions have been asked 
about that before and after, and they will trickle through 
history until we get to the bottom of it.
    We don't know yet who was in the room, at least you can't 
tell me who was in the room. Do you have any knowledge that 
Peter Strzok might have been one of the people?
    Mr. Rosenstein. I do not know.
    Mr. King. It has been reported in the news that he was one 
of those people. Are you aware of that?
    Mr. Rosenstein. I have read a lot of news reports. I may 
have seen that in the news, but I personally do not know.
    Mr. King. I see. And when I look through just a timeline 
here, I will just quickly drop this into the record. April, May 
of 2016, Peter Strzok interviews Huma Abedin and Cheryl Mills, 
Cheryl Mills, who happened to be in the room with Hillary 
Clinton, and her general counsel, and her chief of staff, and 
the subject of the investigation.
    Then on May 2nd, Comey emails FBI officials a draft 
statement a couple of months before his recommendation not to 
prosecute Hillary Clinton, and in that chain, Peter Strzok's 
name shows up. It has been reported that he is the one that 
swapped out the references from ``gross negligent'' to 
``extremely carelessness.''
    I don't know if that is true. Do you have any knowledge 
about that?
    Mr. Rosenstein. No, but I would point out, Congressman, 
that it is the inspector general review that has turned up----
    Mr. King. I thought that was going to be the answer.
    And then, also skipping forward to July 24th, the FBI 
interviews Michael Flynn on Russia. It is reported in the news 
that Peter Strzok is in that interview. No knowledge to 
disagree with the reports that are in the news, however?
    Mr. Rosenstein. Correct.
    Mr. King. And then we get the news later on some time in 
midsummer, Peter Strzok had been removed from Mueller's 
investigative team, but we find out December 4th that that took 
place publicly. I kind of understand that. If that had drifted 
into the jet stream, perhaps we wouldn't be in the middle of 
this controversy, but what about--if his hands are in so many 
things, and I have not touched them all by any means, but if he 
has his hands in this many things, what about the fruit of the 
poisonous tree? This is the reverse of this. This is the voids 
of the fruit of the poisonous tree.
    And I am looking at what was reported this morning. I just 
took a picture of the television set on my iPhone just so that 
we all know what I am talking about here, a quote from an 
August 6, 2016, text, Lisa Page to Peter Strzok, and they are 
talking about President Trump, ``And maybe you are meant''--she 
is speaking to Peter Strzok, her lover, I hear, ``and maybe you 
are meant to stay where you are because you are meant to 
protect the country from that menace.''
    And Peter Strzok's response is, ``Thanks. It is absolutely 
true that we are both very fortunate, and, of course, I will 
try and approach it that way. I just don't know. It will be 
tough at times. I can protect our country at many levels. Not 
sure if that helps.''
    Does that sound like a declaration that he would use his 
job to leverage his work against the President of the United 
States?
    Mr. Rosenstein. Congressman, the inspector general's 
investigation includes interviews of numerous witnesses, and I 
anticipate, hopefully in the near future, we will have a report 
with the inspector general's conclusions.
    Mr. King. Would you have any opinion on the lack of the 
fruit from the poisonous tree that might have been erased by 
Peter Strzok?
    Mr. Rosenstein. Well, as a legal matter, Congressman, I can 
tell you that if evidence is tainted--and that would raise a 
concern for me, but typically our cases would be prosecuted 
based upon witnesses and documents, and not upon the agent, 
unless the agent personally were a witness in the case, but 
that would certainly concern us if there were any tainted 
evidence in the case.
    Mr. King. Thank you, Mr. Rosenstein. I appreciate it.
    And I yield back.
    Chairman Goodlatte. The chair recognizes the gentleman from 
Georgia, Mr. Johnson, for 5 minutes.
    Mr. Johnson of Georgia. Thank you, Mr. Chairman. And thank 
you for your service to the country, Mr. Rosenstein.
    Based on the language in your special counsel order, or 
your order appointing the special counsel, does the special 
counsel have the authority to investigate any individual who 
may have obstructed the investigation that FBI Director Comey 
confirmed on March 20th of this year, which was the Russian 
interference with the 2016 elections?
    Mr. Rosenstein. The special counsel does have authority to 
investigate any obstruction related to his jurisdiction.
    Mr. Johnson of Georgia. Does this authority to investigate 
possible obstruction include investigating President Trump?
    Mr. Rosenstein. I hope you won't take an inference one way 
or the other, Congressman, but as I have explained, that is 
simply something we do not do. We do not discuss who may or may 
not be under investigation.
    Mr. Johnson of Georgia. Well, I am not asking you whether 
or not the President is under investigation. I am just simply 
asking whether or not your order appointing the special counsel 
authorizes the special counsel to investigate the President.
    Mr. Rosenstein. It authorizes him to investigate anybody 
who there is predication to believe obstructed justice.
    Mr. Johnson of Georgia. And that includes the President, 
correct?
    Mr. Rosenstein. It would include anybody who was suspected 
of obstructing justice.
    Mr. Johnson of Georgia. All right. Do you think that it is 
appropriate for the President to comment publicly on any 
pending investigation?
    Mr. Rosenstein. Congressman, a decision about whether 
people in political positions comment on investigations is not 
mine. My responsibility is to ensure that our investigations 
are not impacted improperly by any opinion, whether it be a 
Member of Congress or anybody else.
    Mr. Johnson of Georgia. Well, it would not be appropriate 
for you to comment about any pending investigation. Isn't that 
correct?
    Mr. Rosenstein. Correct.
    Mr. Johnson of Georgia. And the President is the chief law 
enforcement officer, he considers himself, in the country. It 
would be inappropriate for him, then, to comment on a pending 
investigation, would it not?
    Mr. Rosenstein. Congressman, I believe over the years, 
there have been presidents who have made comments about 
investigations, and it is simply not my responsibility to make 
that decision.
    Mr. Johnson of Georgia. Well, do you think it is 
appropriate for the President to publicly call for the 
investigation of specific individuals?
    Mr. Rosenstein. I am simply not going to comment on that, 
Congressman, other than to tell you it is my responsibility, 
along with the Attorney General, to make sure that those 
decisions are made independently by the Department based upon 
the facts and the law.
    Mr. Johnson of Georgia. Has the President ever contacted 
you to urge action in any pending investigation?
    Mr. Rosenstein. Congressman, I have not received any 
improper orders, and I am not going to be talking about 
particular communications I may have with--which are 
appropriate communications with the White House.
    Mr. Johnson of Georgia. Well, what would be your legal 
basis for refusing to answer the question whether or not the 
President has contacted you to urge any action in any pending 
investigation? What would be your legal basis for refusing to 
answer that question?
    Mr. Rosenstein. Congressman, this is not a partisan issue. 
I worked on an investigation where the previous president 
encouraged the Department to do an expeditious investigation. 
And so the question for me is, are we or are we not 
appropriately making an independent determination regardless of 
who comments on it?
    Mr. Johnson of Georgia. Well, my question--I respect your 
question, but my question is, has the President ever contacted 
you to urge action in any pending investigation, yes or no?
    Mr. Rosenstein. I have nothing further to say about it, 
Congressman.
    Mr. Johnson of Georgia. So you are going to refuse to 
answer a question from a Member of Congress seeking to do 
oversight?
    Mr. Rosenstein. I have told you, Congressman, that I have 
not received any improper orders, and I am simply not going to 
talk about communications.
    I think in every administration, senior law enforcement 
officers have to be able to communicate with the President and 
his officials about appropriate matters within their 
responsibility and not comment on it. So you shouldn't draw any 
inference. It is simply not appropriate for me to talk about 
communications I may have with the administration.
    Mr. Johnson of Georgia. So it would----
    Mr. Rosenstein. I would tell you if something happened that 
was wrong, if somebody ordered me to do something that was 
improper, but that has not happened.
    Mr. Johnson of Georgia. Well, it would be improper for the 
President to ever contact you about initiating an investigation 
of someone, would it not?
    Mr. Rosenstein. We have discussed this previously, 
Congressman. Presidents have commented publicly and----
    Mr. Johnson of Georgia. No, no, no. My question is, it 
would be improper for a president to contact you about 
initiating an investigation of someone? It would be improper, 
wouldn't it?
    Mr. Rosenstein. It would be improper for the President to 
order me to conduct an investigation that wasn't justified 
based on the facts and the law.
    Mr. Johnson of Georgia. It would be improper for the 
President to ask you to initiate an investigation, would it 
not?
    Mr. Rosenstein. If it were for improper reasons, yes.
    Mr. Johnson of Georgia. And so is it your testimony today 
that the President has not asked you to investigate someone 
specifically?
    Mr. Rosenstein. Congressman, I understand what you are 
getting at, but as I said, I was in the last administration, 
and the president in the last administration commented on 
matters. There is nothing wrong about that.
    Mr. Johnson of Georgia. You are being very artful----
    Mr. Rosenstein. No, I am not.
    Mr. Johnson of Georgia [continuing]. In jumping around and 
evading answering my question, and so you are not going to 
answer it, and that is----
    Mr. Rosenstein. I am not evading.
    Mr. Johnson of Georgia [continuing]. That is unfortunate.
    Are you afraid of President Trump firing you?
    Mr. Rosenstein. No, I am not, Congressman.
    Mr. Johnson of Georgia. With that, I will yield back.
    Chairman Goodlatte. The chair recognizes the gentleman from 
Texas, Mr. Gohmert, for 5 minutes.
    Mr. Gohmert. Thank you, Mr. Chairman. Thanks for being 
here, Mr. Rosenstein.
    Mr. Rosenstein. Thank you.
    Mr. Gohmert. Did you ever tell Special Counsel Robert 
Mueller that, in essence, everything you do must not only be 
just and fair, but must also appear beyond reproach? Anything 
like that?
    Mr. Rosenstein. In essence, yes.
    Mr. Gohmert. Yes. Well, since Attorney General Sessions 
recused himself, you are effectively the boss of the special 
counsel and staff, correct?
    Mr. Rosenstein. It is correct that I am effectively the 
boss.
    Mr. Gohmert. Well, we all know that FBI Director James 
Comey was fired, we know of your letter, we know of your public 
statements, but here is the question: To your knowledge, who 
first proposed the idea of firing James Comey as FBI Director?
    Mr. Rosenstein. Congressman, I am not going to comment on 
that. The President has explained that he made the decision, 
and I am not going to comment beyond that.
    Mr. Gohmert. At the time you wrote the letter suggesting a 
firing, did you believe what you put in that letter?
    Mr. Rosenstein. Yes, I did.
    Mr. Gohmert. All right. If an FBI employee goes into a 
meeting as part of his job, in furtherance of his job, someone 
in the government, and he comes out and he makes a memo 
memorializing the meeting, perhaps an in-the-future past memory 
refreshed, is that memo DOJ property?
    Mr. Rosenstein. Generally, Congressman, I would think that 
it would be. It might depend on what is in the memo, what the 
subject matter is, but generally the answer would be yes.
    Mr. Gohmert. Well, in an FBI employment agreement 
statement, it says, and this is the person agreeing to work for 
the FBI, ``All information acquired by me in connection with my 
official duties with the FBI and all official material to which 
I have access remain the property of the United States of 
America. I will not reveal, by any means, any information 
material from or related to the FBI files or any other 
information acquired by virtue of my official employment.''
    If you make a memo of things that were discussed as part of 
your job, then it would be a violation of that agreement to 
send that to someone to leak to the press. Isn't that right?
    Mr. Rosenstein. It well may be.
    Mr. Gohmert. All right. In the question I am about to ask, 
I am not asking what you may have told Attorney General Jeff 
Sessions, I don't want to know any words used or ideas conveyed 
nor sources referenced, in fact, I am asking a question that 
could not possibly have any other answer other than one of two 
words, that would be ``yes'' or ``no.'' You are completely free 
to wholly answer this question with one of those two words, and 
neither word is privileged, confidential or classified.
    Here is the question: As Attorney General Jeff Sessions' 
deputy, did you give Jeff Sessions any advice regarding whether 
or not he should recuse himself in the matter of the Russian 
investigation, yes or no?
    Mr. Rosenstein. No. Can I give a little bit of an 
explanation, Congressman? I appreciate your asking that 
question.
    I wasn't there. I was confirmed, I believe, on April 25th, 
and took off on April 26th. I was not there at the time of the 
recusal.
    Mr. Gohmert. All right. And have you ever talked to Bruce 
Ohr?
    Mr. Rosenstein. Yes.
    Mr. Gohmert. And wasn't he four doors down from yours?
    Mr. Rosenstein. I haven't counted, but he was down the 
hall.
    Mr. Gohmert. All right. And, of course, he has been demoted 
over the relationship with Fusion GPS, and then, of course, we 
found out that his wife, Nellie, was a Russian expert and was 
paid by Fusion GPS in the summer and fall of 2016 helping the 
Clinton campaign get apparently a dossier from the Russians.
    How well do you know the people that work on your hall?
    Mr. Rosenstein. Well, it varies, Congressman. I think that 
is precise. It varies. Some of them I know well, some of them I 
don't know as well.
    Mr. Gohmert. All right. Of course, everybody has some 
opinions, political opinions or otherwise. The key is not 
having those affect or bias you in the Department of Justice.
    Mr. Rosenstein. Correct.
    Mr. Gohmert. Well, here is Mr. Strzok, some of his texts 
talking about Trump. ``He is an idiot like Trump.'' ``And 
Martin O'Malley is,'' he said, well, a D word. ``I am not 
watching. I can't tell you how little I care right now.'' He is 
talking about the Republican Convention. ``So much more 
substantive than the representative debates.''
    He goes on, ``At some point, the Republican Party needs to 
pull their head out of their `blank,' shows no sign of 
occurring any time soon.''
    Of course he is--you know, the ``F,'' we were told by 
Christopher Wray, stands for fidelity, but these were all made 
in the course of infidelity.
    And then he makes slurs against Kasich. He is just 
unbelievable. ``I truly hate these people,'' talking about the 
Republicans. ``No support for the women who actually has to 
spend the rest of her life rearing this child, but we care 
about,'' quote, ``life,'' and then, ``A holes.'' ``How can 
he''--``how the F can he be a Republican?'' And on and on it 
goes. ``America will get what the voting public deserves, and 
that is what I am afraid of. God, Hillary should win 100 
million to zero. Did you hear him make a comment the size 
of''----
    Anyway, this is not just political opinions. This is 
disgusting, unaccountable bias, and there is no way that could 
not affect a person's work.
    Were you aware of just how biased Mr. Strzok was?
    Mr. Rosenstein. No, I was not.
    Mr. Gohmert. Thank you. One final thing. I am asking a 
question, and the answer is not classified nor privileged.
    Based on information you believe, to the best of your 
knowledge, has the FBI ever used work product or report any 
part of which was paid for by a political campaign, political 
party, political candidate, or prepared on a candidate's 
behalf?
    Mr. Rosenstein. Congressman, the issue that you are----
    Chairman Goodlatte. The time of the gentleman has expired. 
The witness may answer the question.
    Mr. Rosenstein. I know that we are working with at least 
one committee, House Intelligence, that has access to that 
information. I believe that they will get whatever 
information----
    Mr. Gohmert. Sir, I am asking a general question. I am not 
specifically asking----
    Chairman Goodlatte. The time of the gentleman has expired.
    Mr. Gohmert. But I am asking you if I can get an answer.
    Chairman Goodlatte. In the form it was already presented.
    Mr. Rosenstein. Not in my personal knowledge, but I am not 
representing--I don't know everything about the FBI.
    Mr. Gohmert. And, Mr. Chairman, a point of personal 
privilege. Since my character was slandered by Mr. Cohen, who 
said that I never--we never challenged Mueller until he came 
after the administration, when he knows how tough I went after 
FBI Director Mueller. He has been here when I went after 
Mueller while Bush was President. He knows I have been after 
him for the damage he did. And what he stated about me is a 
lie, and I need the record to properly reflect that.
    Chairman Goodlatte. The gentleman's comment is duly noted.
    The chair recognizes the gentlewoman from California, Ms. 
Bass, for 5 minutes.
    Ms. Bass. Thank you, Mr. Chairman.
    According to an August 17th FBI intelligence assessment 
titled ``Black Identity Extremists Likely Motivated to Target 
Law Enforcement Officers,'' quote, ``It is very likely that 
Black identity extremists' perceptions of police brutality 
against African Americans spurred an increase in retaliatory 
violence.''
    So I have tried to get to the bottom of where this report 
came from, who did it, what its status is. I have asked 
Attorney General Sessions, I have asked Director Wray, and so 
now I want to ask you. Did you order the FBI to conduct this 
assessment?
    Mr. Rosenstein. Sorry. What was the date?
    Ms. Bass. August 2017, August of this year.
    Mr. Rosenstein. No, I did not.
    Ms. Bass. Do you know who authored the report? Are you 
familiar with the report?
    Mr. Rosenstein. I am not familiar with the report. I am 
familiar with the general issue.
    Ms. Bass. And so maybe you could talk a little bit about 
the general issue----
    Mr. Rosenstein. Yes.
    Ms. Bass [continuing]. In particular, when the FBI began 
tracking black identity extremism.
    Mr. Rosenstein. I think it is important for me to explain, 
Congresswoman, that the FBI does not make a determination with 
regard to domestic groups to investigate them based upon their 
First Amendment views or their affiliation. It bases its 
decisions on evidence of a propensity to violence.
    So with regard to members of any ideology domestically, the 
FBI would only be investigating if there were some indication 
of violence.
    Ms. Bass. Do you believe that there is a political movement 
in the country called Black identity extremism?
    Mr. Rosenstein. I don't believe the FBI intends that to 
encompass a particular political movement. What they do is they 
try to categorize different threats that they identify.
    Ms. Bass. So you said ``investigate,'' but before you do an 
investigation, there is surveillance, correct?
    Mr. Rosenstein. Generally, no. There might need to be a 
determination first that there was a basis for an investigation 
typically before any surveillance.
    Ms. Bass. So how does that determination take place, and 
where has it taken place?
    Mr. Rosenstein. If you want details, I need to get back to 
you, but the FBI does have very strict guidelines. As you know, 
several decades ago, there was quite a bit of controversy about 
this issue, and the FBI has very detailed guidelines for when 
they initiate investigations, and I am not aware of any 
departure from those guidelines.
    Ms. Bass. So one thing that--and I am aware of the FBI's 
history from many years ago, COINTEL-Pro, and many people are 
looking at this document, ``Black Identity Extremism,'' as 
COINTEL-Pro II.
    One of the concerns that has been raised and that I raised 
with Attorney General Sessions and Director Wray is that this 
document, for whatever reason, was mass distributed to law 
enforcement offices around the country. Are you aware of that?
    Mr. Rosenstein. No, I am not.
    Ms. Bass. So when we talked to Director Wray, it wasn't 
clear how this term was even developed, in other words, what 
evidence was it based on to even come up with a term like that, 
and then to write a document about it, and then to distribute 
it to law enforcement around the country.
    Mr. Rosenstein. I don't know the answer to that, 
Congresswoman, but if it is of any reassurance, I have been in 
this job for 8months, I haven't seen any indication that the 
FBI is approaching this in a biased way. They are conducting 
investigations where they believe the person who is the subject 
represents a potential threat, not simply because they believe 
in an ideology or associate with an ideology, but because they 
represent a particular threat. And I believe the FBI guidelines 
are designed specifically to ensure that there are no abuses.
    Ms. Bass. So what I am hearing from activists around the 
country, in particular, activists who were protesting law 
enforcement, you know, police brutality or deaths at the hands 
of law enforcement, is that they are being visited by the FBI, 
that the FBI is leaving, you know, business cards. And then 
what the concern about that is is that if they do engage in a 
conversation with an FBI agent, and perhaps make a mistake, or 
maybe say something that isn't true, then they are vulnerable 
to be prosecuted for lying to a law enforcement officer.
    So the activists that have received visits by the FBI have 
never been involved in violence at all. Are you aware of that 
happening in any of your offices around the country?
    Mr. Rosenstein. No.
    Ms. Bass. Let me just express another concern about this. 
When a document that doesn't seem to have any scientific basis 
that develops a category called Black identity extremism, that 
nobody can say whether or not it really exists, when you send a 
document like that to law enforcement around the country, you 
know, in some places, I will worry that they will take that to 
say that any time there is an officer-involved shooting, and 
then there is a protest, that the people that protest might be 
Black identity extremists.
    Mr. Rosenstein. Congresswoman, to the best of my knowledge, 
the FBI is not investigating people who are peacefully 
protesting. As having read that document, I will review it and 
I will see what it says, but----
    Ms. Bass. I would appreciate it if you would; and if there 
is no basis for this term, that then the FBI take the step to 
retract the document and send a message to law enforcement 
around the country that no such category exists.
    I yield back my time.
    Chairman Goodlatte. The chair recognizes the gentleman from 
Ohio, Mr. Jordan, for 5 minutes.
    Mr. Jordan. Did the FBI pay Christopher Steele? And was the 
dossier the basis for securing warrants at the FISA Court to 
spy on Americans associated with the Trump campaign? Really, 
when you sum it all up, it boils down to those fundamental 
questions.
    Did you pay the guy who wrote it, and did you use what he 
wrote, disproven, discredited dossier paid for by the Clinton 
campaign, did you use to go get warrants to spy on Americans? 
That is what it comes down to, and you are the guy who can 
answer those questions.
    Yesterday, I was convinced that the answer to those 
questions was probably yes, but today I am even more convinced 
the answer is yes, based on the text messages we got to read 
early this morning.
    Mr. Rosenstein, you know Peter Strzok? Are you familiar 
with that name.
    Mr. Rosenstein. Yes, I am familiar with the name, and----
    Mr. Jordan. Former deputy head of counterintelligence at 
the FBI, Peter Strzok? That one?
    Mr. Rosenstein. I don't know his precise title, but, yes, 
he had a significant role in----
    Mr. Jordan. Peter Strzok ran the Clinton campaign; 
interviewed Mills, Abedin, Clinton; changed the exoneration 
letter from ``gross negligence'' to ``extreme carelessness''; 
Peter Strzok, who ran the Russia investigation, interviewed 
Mike Flynn; Peter Strzok, selected by Mr. Mueller to be on his 
team.
    That Peter Strzok, we learn, had all these text messages, 
we got to read some of them early this morning. Now, as my 
colleagues have pointed out, some of them are, you know, they 
are----so he didn't like Trump, he and Ms. Page are exchanging 
text messages back and forth that show they don't like the 
President, but that is nothing new. Everyone on Mueller's team, 
no one on Mueller's team likes Trump. We already knew that.
    But I want to focus on one in particular, one in 
particular, and this is a text message from Mr. Strzok to Ms. 
Page recalling a conversation and a meeting that took place in 
Andrew McCabe's office, Deputy Director of the FBI, recalling a 
meeting earlier, and Mr. Strzok says this: ``I want to believe 
the path you threw out for consideration in Andy's office,'' 
and there is a break, dash, it says that ``there is no way he 
gets elected. No way Trump gets elected.'' He said, ``I want to 
believe that. You said that in a meeting in Andrew McCabe's 
office. ``I want to believe that.'' But then he goes, ``But I 
am afraid we can't take that risk.''
    Now, this goes to intent. He says, we can't take the risk 
of, you know, the people of this great country might elect 
Donald Trump President. We can't take this risk. This is Peter 
Strzok, head of counterintelligence at FBI. This is Peter 
Strzok, who I think had a hand in that dossier that was all 
dressed up and taken to the FISA court. He is saying, We can't 
take the risk. We have to do something about it.
    Now, don't forget the timeline here either, Mr. Rosenstein. 
Mr. Strzok, January 10th, he is the guy who changes the 
exoneration letter from ``gross negligence,'' criminal 
standard, to ``extreme carelessness.''
    July 2nd, he is the guy who sits in on the Clinton 
interview. July 5th, 2016, that is when Comey has the press 
conference, says we are not going to prosecute, Clinton is 
okay, we are not going to prosecute.
    And then August 2016, we have this text message, the same 
month that the Russian investigation is opened at the FBI, 
August 2016, and my guess is that is the same month that the 
application was taken to the FISA court to get the warrants to 
spy on Americans, using this dossier that the Clinton campaign 
paid for, Democrats paid for, fake news, all dressed up, taken 
to the court.
    So I have got really just a couple basic questions, because 
it seems to me if the answer to any of those two questions, if 
the answer is yes, if you guys paid Christopher Steele at the 
same time the Democrats and the Clinton campaign were paying 
him, or, if you took the dossier, dressed it all up, took it to 
the FISA court and used that as the basis to get warrants, and 
now we have intent in this text message saying--there is 
another text message, my colleague referenced it earlier, where 
Mr. Strzok says, ``I can protect our country at many levels,'' 
says it with all the humility he could muster. ``I can protect 
our country at many levels.''
    This guy thought he was Super Agent James Bond at the FBI. 
This is obvious. ``I am afraid we can't take that risk. We 
can't''--``There is no way we can let the American people make 
Donald Trump the next president. I got to protect our 
country.''
    This is unbelievable. And I am here to tell you, Mr. 
Rosenstein, I think the public trust in this whole thing is 
gone. So it seems to me you have got two things you can do. You 
are the guy in charge. You are the guy who picked Mueller. You 
are the guy who wrote the memo saying why you needed to fire 
Comey. You are the guy in charge. You could disband the Mueller 
special prosecutor and you can do what we have all called for: 
Appoint a second special counsel to look into this, to look 
into Peter Strzok, Bruce Ohr, everything else we have learned 
in the last several weeks.
    Mr. Rosenstein. Yes, Congressman. And I can assure you that 
I consider it very important to make sure a thorough review is 
done, and our inspector general is doing a thorough review. 
That is how we found those text messages as part of that 
review.
    Mr. Jordan. You have given that answer, like, 15 times. Let 
me ask you this: Are you concerned--this is what a lot of 
Americans are believing right now, and I certainly do, that the 
Comey FBI and the Obama Justice Department worked with one 
campaign to go after the other campaign. That is what 
everything points to. Think about what we have learned in the 
last several weeks. We first learned they paid for the dossier, 
then we learn about Peter Strzok, and last week we learned 
about Bruce Ohr and his wife Nell. This is unbelievable. So 
what is it going to take to get a second special counsel to 
answer these questions and find out was Peter Strzok really up 
to what I think he was?
    Mr. Rosenstein. I think it is important to understand, 
Congressman, we have an inspector general that has 500 
employees, and $100 million budget, and this is what he does, 
he investigates allegations of misconduct involving Department 
employees. That review of what he is conducting is what turned 
up those text messages. It will also involve interviews of 
those persons and of other witnesses.
    Mr. Jordan. We are looking forward to his report, and we 
have met with Mr. Horowitz and we are anxiously awaiting that 
report. But that doesn't dismiss the fact that the country 
thinks we need a second special counsel. Twenty members of this 
committee, the Judiciary Committee, with primary jurisdiction 
over the Justice Department, thinks we need a second special 
counsel. What fact pattern do you have to have? What kind of 
text messages do you have to see before you say it is time for 
a second special counsel?
    Mr. Rosenstein. I want to assure you, Congressman, I think 
the Attorney General explained, we take very seriously the 
concerns of 20 members of this committee, or one member of this 
committee, but we have responsibility to make an independent 
determination and we will.
    Mr. Jordan. I thank the chair.
    Chairman Goodlatte. The chair recognizes the gentleman from 
New York, Mr. Jeffries, for 5 minutes.
    Mr. Jeffries. Thank you, Mr. Chairman. Mr. Rosenstein, 
there are approximately 14,000 special agents within the FBI, 
is that correct?
    Mr. Rosenstein. 37,000 total employees.
    Mr. Jeffries. And is it fair to say that a majority of 
those FBI agents are registered Republicans?
    Mr. Rosenstein. I haven't asked them, and I wouldn't want 
to speculate.
    Mr. Jeffries. Is it fair to say that the majority of 14,000 
FBI special agents have conservative-leaning political views, 
like much of the law enforcement community throughout the 
entire Nation?
    Mr. Rosenstein. I am certain that many of them do. I 
haven't counted.
    Mr. Jeffries. Now, the Department of Justice apparently, 
last evening, invited a group of reporters to its offices to 
view the private text messages that were sent during the 
election by Peter Strzok and Lisa Page. Is that correct?
    Mr. Rosenstein. I believe that is correct.
    Mr. Jeffries. Now, who exactly authorized the Department of 
Justice, in advance of a congressional hearing, to invite 
reporters to come view private text message communications 
between two Department of Justice employees who were the 
subject of a pending investigation? Did you give that order, 
sir?
    Mr. Rosenstein. It is a very important question you ask, 
Congressman, because that was one of my concerns about this 
issue is what the status of these messages, and is it 
appropriate to release them? And the determination was made 
that it is, so we gave notice to their attorneys, we notified 
the committee, and our goal, Congressman, is to make sure that 
it is clear to you and the American people, we are not 
concealing anything that is embarrassing to the FBI.
    Mr. Jeffries. So is it extraordinary that you would invite 
reporters for a private viewing in advance of a congressional 
hearing?
    Mr. Rosenstein. Only if the information is appropriate for 
public release. If it is not appropriate for public release, it 
is never appropriate to disclose it to reporters.
    Mr. Jeffries. Okay. Now, Shannon Bream is a FOX News 
Supreme Court reporter. She tweeted last at 9:29, that FOX News 
producer Jake Gibson has approximately 10,000 text messages 
between Peter Strzok and Lisa Page. Now, it is my understanding 
that only about 350 or so were released to this committee. Is 
that correct?
    Mr. Rosenstein. There are others that are being reviewed, 
and we have assured the committee chairs that we are going to 
produce them as soon as we have them available. There are some 
redactions that need to be made.
    Mr. Jeffries. So how is it possible that FOX News 
apparently has 10,000 text messages?
    Mr. Rosenstein. I wouldn't assume that is true just because 
it was in the news, Congressman. I am not aware of that.
    Mr. Jeffries. Okay. But this is a FOX News reporter who is 
indicating that. I am sure we are going to get to the bottom of 
it. Hopefully, the chairman, in a bipartisan way, would be 
interested in what is clearly a--what would be a violation of 
law in the Department of Justice proceedings.
    Mr. Rosenstein. If there were any evidence that we 
disclosed information to a reporter that wasn't appropriate for 
public release, or wasn't disclosed to Congress, I would agree 
with you. I am not aware of that.
    Mr. Jeffries. Okay. Now, the Department of Justice 
investigation should be free of political interference, true?
    Mr. Rosenstein. Absolutely.
    Mr. Jeffries. Let me put up a tweet from Donald Trump on 
November 3rd at 3:57 a.m. in the morning. God knows what he was 
doing at that time other than tweeting. It says, everybody----
can we put that tweet up?
    Mr. Cicilline. Mr. Chairman, I ask unanimous consent that 
the o'clock stop while we are trying to----
    Chairman Goodlatte. What was the gentleman's request?
    Mr. Jeffries. The committee had been given notice of a 
tweet that I wanted displayed on the screen last evening, and I 
am asking for that to be put up.
    Chairman Goodlatte. And there is some technical difficulty 
in doing that? All right. We will suspend.
    Mr. Gaetz. Mr. Chairman, I believe the gentleman had a 
minute and 45 seconds.
    Chairman Goodlatte. We will make sure he gets plenty of 
time.
    Mr. Jeffries. Thank you, Mr. Gaetz. Well, in the interests 
of time, Mr. Chairman, I will just read what was written by the 
President. He said, ``Everybody is asking why the Justice 
Department and FBI isn't looking into all of the dishonesty 
going on with crooked Hillary and the Dems.''
    Let me ask you a question. Is it ever appropriate for a 
President, any President of the United States, to encourage the 
Department of Justice to launch criminal investigations against 
his or her perceived political enemies?
    Mr. Rosenstein. I am not going to comment on that, 
Congressman. As I have explained previously. The President has 
put a team of experienced folks in charge of the Department of 
Justice, and we are not going to be influenced by anything 
other than the facts of law.
    Mr. Jeffries. Is that an appropriate tweet for the 
President of the United States of America to send?
    Mr. Rosenstein. It is not my role to opine on that.
    Mr. Jeffries. Does the President's repeated attempts to 
encourage criminal prosecution against perceived political 
enemies concern you, sir?
    Mr. Rosenstein. Congressman, as I said, we understand our 
responsibility, and we are going to continue to conduct our 
responsibility in accordance with the facts and the law, and I 
am grateful that the President's put an experienced team in 
charge of the Justice Department who understand what to do.
    Mr. Jeffries. Okay. On June 20, The New York Times 
published a wide-ranging interview with Donald Trump. In it, 
the President criticized you for being from Baltimore, saying 
there are very few Republicans in Baltimore, if any. So he is 
from Baltimore.
    Mr. Rosenstein. That's true.
    Mr. Jeffries. Mr. Rosenstein, are you unable to be fair and 
impartial because you are from Baltimore?
    Mr. Rosenstein. Well, I am actually not from Baltimore. I 
did work in Baltimore for 12 years. It's true that there are 
not a lot of Republicans in Baltimore.
    Mr. Jeffries. Okay. Donald Trump's statement had no basis 
in reality, correct?
    Mr. Rosenstein. Well, as I had said, that part of it was 
true.
    Mr. Jeffries. Okay. Preet Bharara is a former U.S. attorney 
for the southern district of New York, true?
    Mr. Rosenstein. Yes.
    Mr. Jeffries. And he was fired by Donald Trump in March. Is 
that correct?
    Mr. Rosenstein. Along with almost all sitting U.S. 
attorneys.
    Mr. Jeffries. U.S. attorneys in the southern district of 
New York has prosecutorial jurisdiction over Trump Tower in 
Manhattan, correct?
    Mr. Rosenstein. It has jurisdiction over everything in its 
jurisdiction.
    Mr. Jeffries. Okay. And Presidential interviews of U.S. 
attorney candidates, as has been reported to be the case for 
Preet Bharara's replacement, that would be a departure from 
traditional Presidential protocol, correct?
    Mr. Rosenstein. For the President personally to conduct the 
interviews?
    Mr. Jeffries. That is correct.
    Mr. Rosenstein. I am not aware of all the prior practices, 
I don't think it was done in the last two administrations that 
I'm familiar with.
    Mr. Jeffries. Okay. And you were appointed by President 
Bush and then continued in that position as U.S. attorney for 
Maryland by Barack Obama. That is correct?
    Mr. Rosenstein. That is correct. As a matter of law, I was 
appointed and never removed, correct.
    Mr. Jeffries. Were you ever asked by President Bush for a 
loyalty pledge?
    Mr. Rosenstein. No.
    Mr. Jeffries. Were you ever asked by President Barack Obama 
to take a loyalty pledge?
    Mr. Rosenstein. No.
    Mr. Jeffries. Is it ever appropriate for the President of 
the United States to demand that a Department of Justice 
official or FBI Director take a loyalty pledge?
    Mr. Rosenstein. I don't have any opinion about that, 
Congressman. Nobody's asked me to take a loyalty pledge other 
than the oath of office.
    Mr. Jeffries. Thanks. I yield back.
    Chairman Goodlatte. The chair recognizes the gentleman from 
Texas, Mr. Poe, for 5 minutes.
    Mr. Poe. I thank the chairman.
    Thank you for being here. Just so it is clear, I am one of 
the numerous members of the Judiciary Committee that have asked 
for a second special prosecutor based on what Mr. Jordan 
earlier said.
    The Justice Department is responsible for investigating 
criminal conduct. Would that include criminal conduct by the 
NSA?
    Mr. Rosenstein. Yes.
    Mr. Poe. Okay. We all learned, under the PRISM, that was 
happening years ago by the NSA that the NSA was doing, in my 
opinion, unconstitutional surveillance on Americans and their 
emails by tracking it and hacking in to see those emails. It 
came to light under Snowden, after Snowden, who I care nothing 
for, brought that to America's attention. The NSA said we are 
not going to do that anymore, which, I think, is appropriate, 
because I thought it was unconstitutional.
    And we have heard reports through the media that there has 
been unmasking of information. What I mean by that is, 
classified information is seized on somebody, and someone else, 
an American, that their name is caught up in the communication, 
and if someone leaks who that was, unmasked that individual, my 
understanding is if it is classified information, whoever does 
that unmasking has committed a felony. Is that correct?
    Mr. Rosenstein. The only distinction I would make, 
Congressman, is the unmasking typically is something done in 
the course of the intelligence analysis. Leaking would be a 
violation.
    Mr. Poe. That is what I am talking about, the leaking of 
that information.
    And as of today, has anybody been indicted under PRISM? Has 
anybody been indicted under leaking information on unmasking up 
until today? Has the Justice Department indicted anybody under 
those two scenarios and events?
    Mr. Rosenstein. We have indicted, prosecuted people for 
leaking. I am not certain whether--I don't believe any of them 
related to unmasking.
    Mr. Poe. So no one's been indicted, to your knowledge? 
Which I want to bring up now the Foreign Intelligence 
Surveillance Act that has been discussed by this committee 
numerous times. It is the law that allows secret courts to 
issue secret warrants to try to go get terrorists that are 
operating overseas and get their information. Does the Justice 
Department present those FISA warrants to a FISA judge?
    Mr. Rosenstein. In situations where a warrant is required, 
yes, it needs to be obtained from a Federal judge.
    Mr. Poe. That is right. But the Justice Department is 
responsible for that. Is that correct?
    Mr. Rosenstein. That's correct.
    Mr. Poe. Also under FISA, once again, Americans are brought 
into the scenario because you target a foreign terrorist, and 
then you go after their emails, and then you find emails of 
Americans, and those are inadvertently caught in the 
surveillance of the target. According to The Washington Post 
recently, 90 percent of those inadvertent emails are on 
Americans. And my question to you is, why hasn't the Justice 
Department, the FBI, the intelligence community, presented to 
Congress and our request that took place years ago, how many of 
those inadvertent emails, communications, text messages, 
conversations have been on Americans? We have been asking for 
the number. Do you know why that has not been brought to our 
attention? And let me just follow up with this reason.
    Here is the reason we need it. We are getting ready to 
maybe reauthorize 702, which I have a lot of problems with, I 
think it is unconstitutional in many other ways, but beside the 
point, here we are at a deadline getting ready to reauthorize 
it, and still, the intelligence community refuses to tell us 
how many Americans' information has been seized. Can you tell 
us why we haven't gotten that information that we have asked 
for for years.
    Mr. Rosenstein. No. I testified at a hearing with Director 
Coats, who I think would be a more appropriate person to answer 
that, because he has access to the data, and he is--he has 
explained it, but I--I would simply point out that you used the 
term ``inadvertent.'' I think that we use is incidental.
    Mr. Poe. Incidental. I don't mind the name change.
    Mr. Rosenstein. My point is simply if you are investigating 
a foreign terrorist, knowing with whom that person is 
communicating may be relevant to your investigation. So it is--
--
    Mr. Poe. That is not my question. My question was we are 
getting ready to maybe reauthorize 702. I don't think we ought 
to reauthorize it until we find out from the intelligence 
community, where there are no indictments that have been issued 
against the intelligence community based upon the statements 
that you have made, to see whether or not they are violating 
the law, and they refuse to give this committee the information 
about how many people have been caught up in that. And we have 
been--we have been stonewalled by the intelligence community 
saying, well, we just can't do it. Why can't the intelligence 
community get some geek over at Best Buy and have them come in 
and answer that question with a few little taps into the big 
computer system? We just want the number.
    Chairman Goodlatte. The time of the gentleman has expired. 
The witness may answer the question.
    Mr. Rosenstein. As I explained, Congressman, I have heard 
Director Coats explain this, and he is in a better position 
than I.
    Mr. Poe. So we don't know. Still don't know. Thank you, Mr. 
Chairman.
    Chairman Goodlatte. The chair thanks the gentleman. The 
gentleman from Illinois, Mr. Gutierrez, is recognized for 5 
minutes.
    Mr. Gutierrez. Thank you, Mr. Chairman.
    I would like to ask you about sexual assault by the 
President of the United States of America. Over the past few 
days, echoing previous allegations made against the President 
in the past several years, at least 16 women have come forward 
to say that the President of the United States felt them up, 
kissed them without permission, put his hands under their 
clothing without permission, groped them, touched their 
genitalia, walked into dressing rooms unannounced to see them 
naked, and made other unwanted sexual advances that, to 
everyone, are clear violations of the law.
    Now, I believe the women, and I generally give the women 
and their word a lot of weight. And when the him in question is 
Donald Trump, there really should be no further discussion, 
because as everybody, regardless of their political 
affiliations or partisanship can clearly see, we have a man in 
the Presidency who has a very difficult relationship with the 
truth.
    In this case, we have women who were made to feel powerless 
and insignificant, who, at great personal cost and risk, have 
come forward. And I believe them. I do. Al Franken is resigning 
from the Senate. And it goes no further than this committee, 
where two senior members resigned because women came forward 
and made credible claims.
    That just happened last week. And others on this dais right 
now are among the additional Members of the body who are 
accused, credibly accused of misconduct. Right now, with the 
number two person in the Justice Department before our 
committee and sworn to tell the truth, I think it is important 
to get your opinion on whether there are grounds for a criminal 
investigation, or an ethics investigation against the President 
of the United States of America.
    For example, Rachel Crooks is one of the 16 women that we 
know of who have come forward. She said that President Trump, 
before he was President, quote, ``kissed me directly on the 
mouth. It was so inappropriate. He thought I was so 
insignificant that he could do that,'' end quote.
    Jill Harth, another one of the 16 women said, quote, ``He 
groped me, he absolutely groped me, and he just slipped his 
hand there, touching my private parts,'' end quote.
    Now, these are just two examples of unwelcome sexual 
advances. I think were he on the subway or in a restaurant, 
would not either or both of these incidents be enough to get 
him arrested, in your experience as the number two most 
important law enforcement officer in the United States? But 
before you answer that, how about these cases? Kristin Anderson 
in an interview said, quote, ``The person on my right, who 
unbeknownst to me at the time was Donald Trump, put their hand 
up my skirt, he did touch my vagina through my underwear,'' end 
quote.
    And Cassandra Searles said ``He continually groped my ass 
and invited me to his hotel room,'' end quote. These are very 
serious allegations of crimes committed by the President, are 
they not?
    But before you answer the question, I think it is important 
to point out that these stories are corroborated by one of the 
most important witnesses of all. The President himself 
corroborates this. He told Billy--he told TV host Billy Bush 
when he was mic'd up for an interview with Entertainment 
Tonight, quote, ``I just start kissing them. It's like a 
magnet. Just kiss. I don't even wait. And when you are a star, 
they let you do it. You can do anything.'' He continued, said, 
``grab them by''--and you know what he said. ``You can do 
anything,'' end quote.
    Samantha Holvey said on national television that when she 
was a contestant in a beauty contest, Trump would come back 
unannounced to the dressing room. And she tells her story, and 
once again, we have audiotape of the President corroborating 
this account when he told Howard Stern, well, quote, ``I will 
tell you, the funniest is that before a show, I will go back 
stage and everyone's getting dressed and everything else and, 
you know, no men are anywhere, but I am allowed to go in 
because I am the owner.'' And he went on to say ``The chicks 
will be almost naked,'' end quote.
    Mr. Rosenstein, I see you as you a law enforcement officer, 
and I value your opinion on these matters. Would it be 
appropriate for you to investigate these and other allegations 
of assault and unwanted sexual advances by the President of the 
United States?
    Mr. Rosenstein. Congressman, I am happy to take any 
questions regarding oversight of the Department of Justice. 
With regard to that matter or any other allegation that you 
think warrants investigation, I would invite you to submit the 
evidence, and the Department will review it if you believe 
there is a Federal crime. That applies to any alleged violation 
by any person. And that's all I have to say about that.
    Mr. Gutierrez. But, Mr. Rosenstein, you're the number two 
top law enforcement officer in the Nation.
    Let me ask you, if a person on a train went and kissed a 
woman, is that a crime?
    Mr. Rosenstein. If it's a Federal train, it might be a 
Federal crime, Congressman.
    Mr. Gutierrez. It's Amtrak.
    Mr. Rosenstein. Just not going to answer any hypotheticals.
    Mr. Gutierrez. It's Amtrak.
    Mr. Rosenstein. It wouldn't be appropriate for me to answer 
any hypotheticals.
    Mr. Gutierrez. It wouldn't be appropriate? You think that, 
as the number two law enforcement officer, you don't think it's 
a crime for a woman to be on a train, to be in a restaurant 
sitting, and a stranger, unwanted, stranger would come up to 
her and grope her and kiss her, that that's not a crime?
    Mr. Rosenstein. So if you ask me if there's a crime----
    The Chairman. The time that the gentleman has expired. The 
witness may answer the question.
    Mr. Rosenstein [continuing]. I would have to know the facts 
and I would have to evaluate the law. I've never prosecuted a 
case like that in Federal court, Congressman, but if you have 
an allegation by any person at any time, you should feel free 
to submit it.
    Mr. Gutierrez. The women have made the allegations----
    Chairman Goodlatte. The time of the gentleman has expired.
    The chair recognizes the gentleman from Pennsylvania, Mr. 
Marino, for 5 minutes.
    Mr. Marino. Thank you, Chairman.
    Deputy Attorney General, it's good to see you again.
    Mr. Rosenstein. Thank you.
    Mr. Marino. We did a lot of good work together over the 
years.
    Mr. Rosenstein. Yes, sir.
    Mr. Marino. And I'm proud of it. And I'm still proud to 
tell people that I was part of the Justice Department.
    Actually, I have a strong bias for the Justice Department. 
I know your character, I know what kind of man you are, and I 
have the most confidence in you that you will direct that 
agency to follow the rule of law and to see that everything is 
above board.
    Ninety-nine-point-ninety-nine percent of the people that I 
worked with there are good, honest law enforcement people, and 
I have ultimate respect for them. They helped me in many cases, 
even when I was a DA.
    I would like to ask you to clarify a procedure. And first 
of all, would you tell me if I'm right here. A special counsel 
is appointed by the Attorney General, or under the 
circumstances by you, and that special counsel reports to you.
    Mr. Rosenstein. Correct.
    Mr. Marino. Am I correct in saying that an independent 
counsel is, again, appointed by the Attorney General or you, 
but that counsel is independent and not report to anyone in the 
essence of, ``Can I do A, B, or C?'' Is that correct?
    Mr. Rosenstein. Under the independent counsel statute that 
lapsed in 1999, the appointment would actually be made by a 
Federal judge. So there would be no role for the Department in 
the selection or oversight.
    Mr. Marino. DOJ wouldn't be involved in it at all.
    Mr. Rosenstein. Correct.
    Mr. Marino. Let's talk a moment about, I've been in many 
interviews with FBI agents, DEA agents concerning potential 
cases and what I've seen handled was above board. But wouldn't 
you explain to the committee what a 302 is?
    Mr. Rosenstein. Yes. A 302 is simply the form number for an 
FBI interview report. So after conducting a witness interview, 
the FBI agent would write a summary of the interview, and we 
refer to that as a Form 302.
    Mr. Marino. And during an interview, whether it's done by 
attorneys or investigators at the Department of Justice or it's 
done back in my district in the middle of Pennsylvania, at some 
point is there usually an assistant U.S. attorney present in 
those interviews?
    Mr. Rosenstein. There's no rule against it, Congressman, 
but typically not. I would say the majority of interviews would 
be conducted by two agents without a prosecutor.
    Mr. Marino. Who makes the final determination on whether 
immunity is granted? Is that by the U.S. attorney or the 
attorney at Justice Department who could, perhaps, be handling 
that case?
    Mr. Rosenstein. That's correct. It would be a prosecutor 
who would need to make that determination. And depending upon 
what type of immunity, it might require a higher level of 
review.
    Mr. Marino. And before any immunity is given to anyone, 
whether it's absolute or not, we in law enforcement look for a 
proffer, is that correct, from that individual or the attorney, 
what are you going to tell us why should we give you immunity?
    Mr. Rosenstein. We have a strong preference for obtaining a 
proffer prior to any grant of immunity. We don't always do it, 
but we have a strong preference for it.
    Mr. Marino. I have never been in a situation, and perhaps 
it's not unique, where immunity has been given where there has 
not been a proffer. Would that be an extreme or unusual 
situation where someone would, say, get their immunity but we 
have no idea what they're going to say?
    Mr. Rosenstein. I wouldn't want to characterize it, 
Congressman. As a U.S. attorney, I had to approve formal 
immunity, and in the majority of the cases there had been a 
proffer. If there wasn't a proffer, I typically would ask why. 
So I can't characterize what percentage of cases might fall 
into that category.
    Mr. Marino. And also any evidence that would be collected, 
such as laptops, computers, things of that nature, pursuant to 
the investigation, again, there would be a thorough 
investigation of that equipment before immunity would be given 
to someone.
    Mr. Rosenstein. It would depend upon the circumstances, 
Congressman. We would have to make a determination of whether 
we believed what was--the data might be relevant to the 
decision.
    Mr. Marino. But there is--we just don't give blanket 
immunity because someone asks for it or just to get them into 
talk.
    Mr. Rosenstein. We should not give immunity just because 
somebody asks for it, correct.
    Mr. Marino. That's all I have. Thank you very much for 
being here. And I know you will keep eye on things and keep 
everything above aboard. It is a pleasure to see you again.
    I yield back.
    Mr. Rosenstein. Likewise. Thank you.
    Mr. Poe [presiding]. I thank the gentleman.
    The chair recognizes the gentleman from Florida, Mr. 
Deutch.
    Mr. Deutch. Thank you, Mr. Chairman.
    Thank you for being here.
    There has been a lot of talk about dates and timelines. I'd 
like to actually just walk through, for the benefit of my 
colleagues, just a short timeline from this year.
    In January, the FBI, CIA, and NSA concluded the following, 
and I quote: ``We assess Russian President Vladimir Putin 
ordered an influence campaign in 2016 aimed at the U.S. 
Presidential election. Russia's goals were to undermine public 
faith in the U.S. democratic process, denigrate Secretary 
Clinton, and harm her electability and potential Presidency. We 
further assess Putin and the Russian Government developed a 
clear preference for President-elect Trump,'' close quote.
    Mr. Rosenstein, do you have any reason to dispute that?
    Mr. Rosenstein. No.
    Mr. Deutch. In January, also in January, on January 24, 
Michael Flynn denied to the FBI agents that he discussed U.S. 
sanctions with Russia before he took office.
    On January 26, Acting Attorney Sally Yates told the White 
House Counsel that Flynn lied about the nature of his calls 
with Kislyak and is vulnerable to blackmail.
    On February 13 of this year, Flynn resigned over his 
conversations with the Vice President.
    On February 15, public reports of telephone records that 
show that members of the Trump campaign and other Trump 
associates had repeated contacts with senior Russian 
intelligence officials in the year before the election.
    On March 16, documents released by Representative Cummings 
show that Flynn received $33,750 dollars from Russia state-
owned TV for a speech that he made in Moscow.
    On March 20, the FBI Director acknowledged an investigation 
into possible collusion between the Trump campaign and Russia.
    On May 9, the President fired the FBI director.
    On May 10, Trump met with Russian diplomats in the White 
House and revealed classified information and told them that he 
fired the head of the FBI, called him a nut job, and said, and 
I quote, ``I face great pressure because of Russia. That's 
taken off,'' close quote.
    On May 11, the President told NBC News that the Russia 
thing with Trump and Russia is a made-up story.
    On June 7, we learned President Trump urged Comey to drop 
the Flynn investigation.
    On July 8, we learned of an undisclosed Trump Tower meeting 
between Donald Trump Jr., Jared Kushner, Paul Manafort, and a 
Russian lawyer.
    The next day, five sources stated that Donald Trump Jr. 
agreed to the meeting on the premise that damaging information 
on Hillary Clinton would be provided.
    And 5 days after that, a veteran of the Russian military, 
we learned, also attended that Trump Tower meeting with Donald 
Trump Jr., Paul Manafort, and Jared Kushner.
    On October the 5th, George Papadopoulos, one of five people 
the President identified as a policy adviser, pleaded guilty to 
one count of making a false statement to the FBI on January 27 
about the timing, extent, and nature of relationships and 
interactions with certain foreign nationals. In the statement 
of offense, we learned that he reached out regarding his 
connections that he could help arrange a meeting between Trump 
and Putin.
    On October 27, former Trump campaign chairman Paul Manafort 
and campaign adviser Rick Gates were indicted on multiple 
counts, including conspiracy against the United States.
    In November, the President of the United States met with 
Vladimir Putin and said, and I quote, ``He said he didn't 
meddle. He said he didn't meddle. I asked him again. You can 
only ask so many times. Every time he sees me, he says, `I 
didn't do that.' And I really believe that. When he tells me 
that, he means it.''
    The President went on to say, ``I mean, give me a break,'' 
talking about the national security folks who put together that 
report that I quoted earlier, ``give me a break. They are 
political hacks.''
    On December 1, former National Security Advisor Mike Flynn 
pleaded guilty to one count of making a false statement to the 
FBI about conversations he had with the Russian Ambassador 
regarding sanctions.
    This is a little walk through what happened over the past 
year.
    I would like to ask you, Mr. Rosenstein, I would like to 
quote some of my colleagues from this committee. One of them 
said that the special counsel's investigation into whether the 
Trump campaign assisted in its effort to interfere in the 
election is actually an attempt to overthrow the government of 
the United States.
    Do you believe that, Mr. Rosenstein?
    Mr. Rosenstein. No.
    Mr. Deutch. He said we're at risk of a coup d'etat in this 
country if we allow an unaccountable person. Is the special 
counsel unaccountable here?
    Mr. Rosenstein. No, he is not unaccountable.
    Mr. Deutch. He went on to say with no oversight. Is there 
no oversight at all of the special counsel?
    Mr. Rosenstein. There is oversight.
    Mr. Deutch. And then he went on to say that if we allow an 
unaccountable person with no oversight to undermine the duly 
elected President of the United States. Is pursuing the rule of 
law undermining the duly elected President of the United 
States, Mr. Rosenstein?
    Mr. Rosenstein. No, it is not.
    Mr. Deutch. One of my other colleagues said we've got to 
clean this town up. He talked about firing Mueller.
    One of our former colleagues on this committee accused 
Mueller of having a vendetta against President Trump because he 
fired James Comey.
    Mr. Rosenstein, do you believe that he has a vendetta 
against the President?
    Mr. Rosenstein. No, I do not.
    Mr. Deutch. I would just conclude that this little walk 
through this 1 year in American history makes it impossible to 
understand how it is that my colleagues on the other side 
continue to launch attacks, not only against reporters, against 
the FBI, against the special counsel, but they do so to throw 
dirt on this story, to make it try to go away.
    They may want to bury their heads in the sand, but Mr. 
Chairman, I want to make clear that they will not bury the rule 
of law in the United States of America.
    And I yield back.
    Mr. Poe. The gentleman's time has expired.
    The chair recognizes the gentleman from South Carolina, Mr. 
Gowdy, for 5 minutes.
    Mr. Gowdy. Thank you, Judge Poe.
    There are a lot of issues that I would like to ask you 
about, Mr. Deputy Attorney General. We had a terrorist incident 
in New York this week, we have 702 reauthorization that is 
pending in Congress, gun violence, the opioid epidemic, 
criminal justice reform.
    But when I go home to South Carolina this weekend, trust me 
when I tell you, no one is going to ask me about any of those 
issues. They're going to ask me: What in the hell is going on 
with the Department of Justice and the FBI?
    The reason we have special counsel--this is a very 
important point, and you know it--the reason we have special 
counsel is because of a conflict of interest. The regulation 
itself specifically makes reference to a conflict of interest. 
And we don't like conflicts of interest because it undercuts 
people's confidence in both the process and the result.
    So let's be really clear why we have special counsel: There 
was either a real or perceived conflict of interest that we 
were fearful would either impact the result or people's 
confidence in the process. That's why we have something called 
special counsel, and that's why we have special counsel in this 
fact pattern.
    And then, lo and behold, those who were supposed to make 
sure there are no conflicts of interest seem to have a few of 
their own.
    There's a senior prosecutor who sent obsequious emails to a 
fact witness. She can be described as nothing other than a fact 
witness. She's a really important fact witness if you pursue 
the line of inquiry that my Democrat friends want to pursue.
    They got off of collusion and now they're on obstruction of 
justice. She may be the most important fact witness in an 
obstruction of justice case. And the senior prosecutor for this 
conflict-of-interest-free special counsel sent a fawning, 
obsequious email to a fact witness.
    And then we have prosecutors assigned to conduct this 
investigation who donated almost exclusively to one candidate 
over another.
    And then we have a prosecutor assigned to this conflict-of-
interest-free team that attended what was supposed to be, what 
he had hoped to be a victory party for Secretary Clinton.
    And we have a senior DOJ official, Mr. Deputy Attorney 
General, with an office that used to be two doors down from 
yours, meeting with Fusion GPS. And Fusion GPS, of course, was 
paying for Russian dirt on the very person that they're 
supposed to be objectively investigating. And then that same 
senior DOJ official's wife, the one that met with Fusion GPS, 
his wife was on the payroll of Fusion GPS.
    And then we have a senior agent assigned to investigate 
Secretary Clinton's email, helped draft the exoneration letter 
where we changed the language from grossly negligent to 
extremely careless, interviewed Secretary Clinton in an 
interview I've never seen and I doubt you have either in your 
career as a prosecutor, interviewed Michael Flynn, was actively 
involved in the investigation into the Trump campaign, before 
the inspector general found his text.
    So this agent in the middle of almost everything related to 
Secretary Clinton and President Trump sent pro-Clinton texts, 
anti-Trump texts to his paramour in response to being told 
maybe he is where he is to protect the country from that 
menace, Donald Trump. He said, ``I can protect our country at 
many levels.'' And then he said, ``Hillary Clinton should win 
100 million to nothing.''
    Now, think about that, Mr. Deputy Attorney General. That's 
a pretty overwhelming victory, 100 million to zero. And when I 
read that last night, what I thought was this conflict-of-
interest-free senior agent of the FBI can't think of a single, 
solitary American who would vote for Donald Trump. That's where 
the zero comes in, not a single, solitary American he can 
imagine would vote for Donald Trump. This is the conflict-of-
interest-free special agent assigned.
    And then he went on, if that weren't enough, to belittle 
Trump supporters by saying he could smell them at a Walmart in 
Virginia. This is the person we needed to avoid a conflict of 
interest. And then he said this: ``They fully deserve to go, 
and demonstrate the absolute bigoted nonsense of Trump.''
    But he wasn't content to just disparage Donald Trump. He 
had to disparage Donald Trump's family. This is what he said, 
Mr. Deputy Attorney General. He said, ``The douche bags are 
about to come out.'' He's talking about our First Lady and 
children, this conflict-of-interest-free special agent of the 
FBI.
    This is who we were told we needed to have an objective, 
impartial, fair, conflict-of-interest-free investigation. So he 
is openly pulling for the candidate he had a role in clearing, 
and he is openly investigating a candidate that he has bias 
against.
    And then, if that's not enough, he says, ``Trump is an F-
ing, what the F just happened to our country?'' This is the 
same man that said he would save our country.
    What happens when people who are supposed to cure the 
conflict of interest have even greater conflicts of interest 
than those they replace? That's not a rhetorical question. You, 
nor I, nor anyone else would ever sit Peter Strzok on a jury. 
We wouldn't have him objectively, dispassionately investigate 
anything, knowing what we know now. Why didn't we know it ahead 
of time?
    And my last question, my final question to you--and I 
appreciate the chairman's patience--how would you help me 
answer that question when I go back to South Carolina this 
weekend?
    Mr. Rosenstein. Congressman, first of all, with regard to 
the special counsel, Mr. Strzok was already working on the 
investigation when the special counsel was appointed. The 
appointment that I made was of Robert Mueller.
    So what I'd recommend that you tell your constituents is 
that Robert Mueller and Rod Rosenstein and Chris Wray are 
accountable and that we will ensure that no bias is reflected 
in any of the actions taken by the special counsel or in any 
matter within the jurisdiction of the Department of Justice. 
When we have evidence of any inappropriate conduct, we're going 
to take action on it.
    And that's what Mr. Mueller did here. As soon as he learned 
about this issue, he took action. And that's what I anticipate 
that the rest of our prosecutors, our new group of U.S. 
attorneys, our Justice Department appointees, they understand 
the rules, and they understand the responsibility to defend the 
integrity of the Department. And if they find evidence of 
improper conduct, they're going to take action.
    So, Congressman, that's the best assurance I can give you. 
But actually, there's one other point, which is you should tell 
your constituents that we exposed this issue because we're 
ensuring that the inspector general conducts a thorough and 
effective investigation. And if there is any evidence of 
impropriety, he is going to surface it and report about it 
publicly.
    Mr. Gowdy. I'll try.
    Chairman Goodlatte [presiding]. The time of the gentleman 
has expired.
    The chair recognizes the gentleman from Rhode Island, Mr. 
Cicilline, for 5 minutes.
    Mr. Cicilline. Thank you, Mr. Chairman.
    Thank you, Mr. Rosenstein.
    In February, the Department of Justice changed its 
litigation position in Veasey v. Abbott, the Texas photo ID 
case.
    Did you have any involvement in this decision to reverse 
the Justice Department's longstanding position in this case 
that the Texas voter ID law was intentional and discriminatory.
    Mr. Rosenstein. No, I did not.
    Mr. Cicilline. In August, the Department of Justice changed 
its litigation position in the case Husted v. A. Philip 
Randolph Institute. The Justice Department is now defending 
Ohio's voter purging law.
    Were you involved in the decision to change this litigation 
position and now side with the voter purging law?
    Mr. Rosenstein. I was at the Department at that time, but I 
don't believe I had any involvement in the decision.
    Mr. Cicilline. And were you involved in the Justice 
Department's decision to file an amicus brief in Masterpiece 
Cake Shop v. Colorado Civil Rights Commission on behalf of the 
baker who seeks to deny baking wedding cakes to same-sex 
couple.
    Mr. Rosenstein. That decision was made by our inspector 
general--pardon me, our solicitor general.
    Mr. Cicilline. You described the special counsel as a 
heroic figure who served his country, a career prosecutor, 
someone who was confirmed unanimously as FBI Director, someone 
of extraordinary reputation, service, and patriotism. I take it 
your judgment on Mr. Mueller has not changed today?
    Mr. Rosenstein. Correct.
    Mr. Cicilline. And you would not have appointed a special 
counsel or appointed Mr. Mueller if you thought he was going to 
engage in a witch hunt, correct?
    Mr. Rosenstein. Correct.
    Mr. Cicilline. So you then would disagree with the 
President's labeling of the special counsel's investigation as 
a witch hunt, I assume.
    Mr. Rosenstein. I don't know exactly what the President 
meant by that, Congressman. The special counsel's investigation 
is not a witch hunt.
    Mr. Cicilline. It's not a witch hunt, the President said it 
is, you disagree. I mean, you're supposed to be independent. 
You can answer a question contrasting with the President. You 
disagree it's a witch hunt. The President's wrong, correct?
    Mr. Rosenstein. I do not know what the President meant by 
that, Congressman. I can only answer for myself.
    Mr. Cicilline. Do you believe that the repeated attacks on 
the credibility of Special Counsel Mueller, whether by 
conservative pundits on TV or by my colleagues here in 
Congress, threatens to undermine the credibility of the 
independent investigation?
    Mr. Rosenstein. The independence and integrity of the 
investigation is not going to be affected by anything that 
anybody says.
    Mr. Cicilline. You delivered remarks on October 25 before 
the U.S. Chamber of Commerce, and I quote, you said, ``If we 
permit the rule of law to erode when it does not directly harm 
our personal interest, the erosion may eventually consume us as 
well. The rule of law is not self-executing. If it collapses, 
if the people lose faith in the rule of law, then everyone will 
suffer,'' end quote.
    In the context of the President's attacks, the American 
people are really witnessing an unprecedented attack on our 
democratic institutions by this President, first diminishing 
the seriousness of the investigation which is underway about 
Vladimir Putin's interference on our elections, attacks on the 
judiciary, attacks on the free press.
    The one institution which continues to enjoy broad public 
support and remains key to protecting the rule of law is the 
Federal Bureau of Investigation and the Department of Justice. 
America is counting on your integrity and your commitment to 
protecting the independence of the special counsel to reaffirm 
our commitment to the rule of law.
    And so when you said just a moment ago that you don't have 
an opinion about a loyalty oath from the President being asked 
of people, it might be useful to remind you, sir, that members 
of the Department of Justice take an oath to the Constitution. 
And so a loyalty oath to the President of United States is 
inappropriate for any President to ask for and for anyone to 
swear it. Do you agree?
    Mr. Rosenstein. Congressman, nobody has asked me for a 
loyalty oath.
    Mr. Cicilline. That's not my question, sir. My question is, 
you are here to demonstrate the independence of your office. 
And you are unwilling to say that an oath to the President of 
the United States rather than to the Constitution is not 
inappropriate? That does not inspire a lot of confidence.
    Mr. Rosenstein. No, I am willing to say that. An oath to 
the President of the United States rather than the Constitution 
would be inappropriate.
    Mr. Cicilline. An oath to the President of the United 
States, period, is not appropriate.
    Mr. Rosenstein. Congressman, you're talking about a 
hypothetical. It's not clear what was asked or what was said.
    Mr. Cicilline. You also said----
    Mr. Rosenstein. As long as you are following your oath of 
office, you can also be faithful to the administration.
    Mr. Cicilline. No, that's not--faithful is not the 
question. I'll move to a new question.
    You also said you would not respond to the question to say 
whether or not the President of the United States had asked you 
to initiate criminal prosecutions against political 
adversaries, that you would not disclose whether or not those 
conversations took place.
    Mr. Rosenstein. I said I would disclose if I was told to do 
something improper.
    Mr. Cicilline. But what about if you were encouraged to do 
something improper? What if you were encouraged to initiate a 
criminal investigation? That's not appropriate to do, is it?
    Mr. Rosenstein. Several of your colleagues on both sides 
have encouraged me today, Congressman. And as I've explained, 
I'm going to base my decisions on the facts and the law.
    Mr. Cicilline. I understand that, Mr. Rosenstein, but the 
action of a President to encourage you to initiate a criminal 
prosecution, separate and apart what you will do with that, 
that very action is not appropriate.
    Mr. Rosenstein. You're free to make that judgment.
    Mr. Cicilline. Well, I'm asking you in your judgment. Isn't 
that inappropriate?
    Mr. Rosenstein. My judgment is it would be inappropriate 
for somebody to order me to do something inappropriate.
    Mr. Cicilline. But it wouldn't be inappropriate for your 
supervisor, the person you serve, the President of the United 
States, to tell you or suggest to you or encourage you to 
initiate a criminal prosecution against a political adversary?
    Mr. Rosenstein. Congressman, I think I've been very clear 
about this, that nobody has given me an improper order.
    Mr. Cicilline. I'll just end with this, Mr. Deputy Attorney 
General.
    You know, we've heard you very proudly here talk about the 
integrity of the Department of Justice and the work of the FBI. 
We heard Director Wray say the same thing.
    These two agencies, the FBI and the Department of Justice, 
are in the midst of an unprecedented attack by individuals who 
are trying to undermine the credibility of this independent 
counsel's investigation.
    These are the same group of individuals who praised Robert 
Mueller when he was appointed--spectacular, was praised 
uniformly. And now the only thing that's changed is two 
indictments, two pleas. Michael Flynn, part of the President's 
inner circle, now cooperating with the government. That's the 
only thing that's changed.
    We need to hear your voice, defending the integrity of this 
Department, rule of law, the independence of this 
investigation, because the very future of our democracy is at 
stake if you fail to do that. And so I urge you to do so.
    And with that, I yield back.
    Chairman Goodlatte. The chair recognizes the gentleman from 
Idaho, Mr. Labrador, for 5 minutes.
    Mr. Labrador. Thank you, Mr. Chairman.
    Thank you, Mr. Rosenstein, for being here today.
    I shudder at some of the questions from the other side. And 
I just want to ask you a quick question. Have you ever said 
that you are the President's wingman?
    Mr. Rosenstein. No, sir.
    Mr. Labrador. Has the current Attorney General of the 
United States ever said that he is the President's wingman?
    Mr. Rosenstein. Not to my knowledge.
    Mr. Labrador. But yet the Attorney General under President 
Obama said that he was the President's wingman, and I never 
heard a single Democrat object to that. So it's kind of 
ridiculous to sit here and try to question your integrity or 
try to question whether somebody is going to be loyal to their 
President or not.
    As you clearly indicated, you can both be loyal to the 
Constitution and to the President of the United States. As long 
as there's not a conflict of interest, as long as you're not 
doing anything that is inappropriate, it's okay to be the 
President's wingman. It's also okay to say that you're going to 
be loyal to the President, as long as they're not asking you to 
do anything that's illegal. Isn't that correct?
    Mr. Rosenstein. Yes.
    Mr. Labrador. So what was the goal of the Russians when 
they tried to interfere with the elections in the United 
States?
    Mr. Rosenstein. The assessment of the intelligence 
community, as reflected in their public report, is that the 
goal of the Russians was to undermine American confidence in 
democracy.
    Mr. Labrador. So to undermine the Americans'----
    Mr. Rosenstein. I'm paraphrasing, Congressman. I don't have 
it in front of me.
    Mr. Labrador. So they tried to undermine the public faith 
in the U.S. democratic process. Is that correct?
    Mr. Rosenstein. I believe that's correct.
    Mr. Labrador. I believe that no one in the United States 
has done more to undermine the belief in the United States 
democratic process than the Democrats, and the press in some 
cases, when they continue to report on false allegation after 
allegation after allegation.
    In fact, what you see from the Democrats is that they move 
from one allegation, that allegation is proven to be false, and 
they move to the next one and they move to the next one and 
they move to the next one, because they are unhappy with the 
result of the election.
    Can you tell me why the independent counsel was actually 
appointed?
    Mr. Rosenstein. Special counsel, Congressman, I've 
explained publicly that I appointed the special counsel based 
upon the unique circumstances in order to promote public 
confidence. And I have nothing to add to that.
    Mr. Labrador. So why when Mr. Mueller was charged with 
investigating, he was charged with investigating, quote, ``any 
links and/or coordination between the Russian Government and 
individuals associated with the campaign of Donald Trump and 
any matters that arose or may arise directly from the 
investigation,'' end quote?
    That charge is overly broad, but there's been two 
prosecutions, or at least two charges so far brought by the 
independent counsel. Is that correct?
    Mr. Rosenstein. Four individuals charged. Two pleaded 
guilty and two will stand trial.
    Mr. Labrador. Have any of them been charged with any links 
and/or coordination between the Russian Government and 
individuals associated with the campaign for President Trump?
    Mr. Rosenstein. Congressman, the charges speak for 
themselves. I'm not going to comment beyond what's in the 
charging documents.
    Mr. Labrador. But is there anything in those charging 
documents that there was a coordination between the Trump 
administration and the Russians?
    Mr. Rosenstein. Congressman, I'm not going to comment 
beyond what's in the charging documents. I think you can draw 
your own conclusion.
    Mr. Labrador. So something I do agree with my friends on 
the other side is that we should get to the bottom--that we 
should know the truth. We should know whether there was 
collusion between Russia and the President of the United 
States.
    We should also know whether there was collusion between any 
Department who tried to interfere with our elections.
    So can you tell me, was there collusion between the DOJ and 
Fusion GPS to use a Democratic-funded document for political 
and legal purposes?
    Mr. Rosenstein. I don't know the answer to that, 
Congressman. I simply point out that the language actually used 
in the appointing order was coordination, and I believe that 
was the language used by Director Comey when he publicly 
testified about an ongoing investigation. I did not use the 
word collusion.
    Mr. Labrador. Okay. So that coordination--was there any 
coordination between the DOJ and Fusion GPS to try to undermine 
an election of the United States?
    Mr. Rosenstein. If there were, Congressman, I would be very 
concerned about that. As you know, there are ongoing reviews, 
and I'm not in a position to comment about that.
    Mr. Labrador. So there are ongoing reviews. So there could 
potentially be an investigation whether the DOJ and members of 
the DOJ actually colluded with an enemy of a political party 
and a political candidate to undermine the elections of the 
United States?
    Mr. Rosenstein. If there's any evidence that warrants it, 
congressman, we'll do what's appropriate.
    Mr. Labrador. All right.
    So I think if you want to restore the trust of the American 
people, I think the Department of Justice has a duty to give us 
all the information that we have been asking for. We need to 
find out who started this investigation. We need to find out 
what the purpose was.
    If you have an individual who actually had a desire to have 
an outcome in a political race and they decided to use the 
Department of Justice to investigate their political opponents, 
I think that is one of the worst crimes that has occurred in 
the history of the United States when it comes to politics. Do 
you agree with that?
    Mr. Rosenstein. It would, if that were what happened, 
Congressman, it would certainly be of great concern.
    Mr. Labrador. All right. Well, I hope that you are truly 
investigating this and that we get to the bottom of this.
    Thank you very much, and I yield back.
    Chairman Goodlatte. The chair recognizes the gentleman from 
California, Mr. Swalwell, for 5 minutes.
    Mr. Swalwell. Thank you, Mr. Chairman.
    Welcome, Mr. Rosenstein.
    Mr. Rosenstein. Thank you.
    Mr. Swalwell. And please express my thanks to your 
employees who serve at our national interest every day and do 
very important work at the Department.
    Mr. Rosenstein, have you spoken with the President since 
you were appointed?
    Mr. Rosenstein. Of course.
    Mr. Swalwell. And is that in a one-on-one setting?
    Mr. Rosenstein. I've never spoken with the President in a 
one-on-one setting.
    Mr. Swalwell. Okay. Has he called you since you've been 
appointed by telephone?
    Mr. Rosenstein. Yes.
    Mr. Swalwell. And what was discussed?
    Mr. Rosenstein. As I said, Congressman, I have told you 
that if I were told to do anything inappropriate I would talk 
about it. But if the President is consulting me about matters 
within my official responsibility, that's part of the way you 
run the government.
    Mr. Swalwell. Did he discuss at all Mr. Mueller's 
investigation?
    Mr. Rosenstein. I'm not going to comment, Congressman, 
about my communications with the President.
    Mr. Swalwell. How many times has he called you?
    Mr. Rosenstein. Congressman, I do not--I'm not going to 
comment about my communications with the President. There is 
nothing wrong with the President consulting with his Deputy 
Attorney General about matters within the jurisdiction of the 
Justice Department as long as it's not inappropriate.
    Mr. Swalwell. Mr. Rosenstein, I agree, except that this 
President has demonstrated, and that's been expressed through 
testimony from James Comey that has not been contradicted under 
oath multiple times, that he is willing to talk to individuals 
at the Department about ongoing investigations. That's where 
the concern arises.
    With respect to Attorney General Sessions' recusal, was he 
involved at all in the decision by the Department to allow 
reporters to review the text messages that you discussed 
earlier?
    Mr. Rosenstein. Not to my knowledge.
    Mr. Swalwell. Will you tell us if he was?
    Mr. Rosenstein. If I learn about it, if it matters, 
Congressman. As I said, there is--I'm not aware of any 
impropriety in what the Department has done in making these 
text messages available.
    Mr. Swalwell. But Attorney General Sessions is recused from 
Bob Mueller's investigation, right?
    Mr. Rosenstein. Attorney General Sessions is recused from 
Director Mueller's investigation, correct.
    Mr. Swalwell. And these text messages related to an 
individual on Bob Mueller's investigation?
    Mr. Rosenstein. I don't want to argue with you, 
Congressman. I'm aware of the recusal, and I'm not aware of any 
evidence that the Attorney General has violated his recusal.
    Mr. Swalwell. Mr. Rosenstein, if you are overseeing an 
investigation and lead a team of investigators and you learn 
that one of the investigators has demonstrated a perceived bias 
against an individual in the investigation, should you, A, keep 
the person on the team, or B, remove the person from the 
investigation?
    Mr. Rosenstein. B.
    Mr. Swalwell. And knowing that fact pattern, what did Bob 
Mueller do with a similar fact pattern?
    Mr. Rosenstein. He chose the correct option.
    Mr. Swalwell. Mr. Rosenstein, the President has said a 
number of things about you, the Attorney General, the FBI being 
in tatters. He even compared our intelligence community, which 
your employees are a part of, to Nazi Germany.
    And I want to ask, considering his continued disparagement 
of the Department and your employees, are your employees proud 
to work for a person who holds their high integrity in such low 
regard?
    Mr. Rosenstein. Congressman, my employees are, I believe, 
proud to work for the Department of Justice. Some of them 
support a particular President, some of them don't. But as long 
as they do their job appropriately, that's my concern.
    Mr. Swalwell. I agree, and I hope so, and I hope that's the 
case.
    Mr. Rosenstein, your testimony today is that you believe 
Bob Mueller is a person of high integrity. Is that right?
    Mr. Rosenstein. Yes.
    Mr. Swalwell. You believe that his investigation is being 
conducted fairly. Is that correct?
    Mr. Rosenstein. Yes.
    Mr. Swalwell. You also believe that--and you understand 
that he's publicly indicted two individuals with respect to his 
investigation.
    Mr. Rosenstein. Correct.
    Mr. Swalwell. He's also obtained two guilty pleas with 
respect to his investigation.
    Mr. Rosenstein. Correct.
    Mr. Swalwell. Is there good cause to fire Bob Mueller as we 
sit here today?
    Mr. Rosenstein. Not to my knowledge.
    Mr. Swalwell. Now, I am concerned that my House Judiciary 
Committee colleagues, particularly on the majority, have 
signaled quite indiscreetly today that they would probably give 
the President a pass if he were to fire or order you to fire 
Bob Mueller. There have been a number of statements attempting 
to undermine the good character of Bob Mueller.
    That concerns me because that would certainly fly in the 
face of the rule of law in this country. It would not be okay, 
I believe, with the American people or the spirit that our 
country was founded upon.
    Mr. Deputy Attorney General, your investigation is a very 
narrow bridge. The important part, I believe, for our country 
is for you to not be afraid. During these trying times, we need 
you to be fearless. We have a President who has demonstrated a 
willingness to involve himself in ongoing investigations that 
involve he and his family.
    And for the sake of our country, for the sake of rule of 
law, I hope that you continue to demonstrate the character that 
got you into this position and that has given us as a 
committee, I think, faith in your ability to carry out that 
mission.
    I yield back.
    Chairman Goodlatte. The chair recognizes the gentleman from 
Texas, Mr. Farenthold, for 5 minutes.
    Mr. Farenthold. Thank you, Mr. Chairman.
    And I know we've talked a lot about this today, but I feel 
obliged on the account of the folks that I represent are always 
asking me about this to say there is a real concern out there, 
in Texas certainly, and I think around the Nation, that we've 
got a special counsel who's working 24/7 investigating the 
Trump administration, yet the Department of Justice, various 
witnesses we've had up here, basically has not been able to 
confirm or deny what investigations, if any, are going on with 
respect to the potential misdeeds of the Clinton campaign in 
their dealings with Russia, be it through Uranium One, various 
speaking engagements for former President Clinton, and the 
like.
    And, again, I'm not asking to you break that 
confidentiality, but I am suggesting that there are a lot of 
people out there who would be sadly disappointed if there isn't 
an investigation and may actually--or who do actually think 
that there might ought to be a special prosecutor or a special 
counsel appointed to look at the other side.
    So instead of beating that dead horse, I'm going to beat 
another one that I've been talking a lot about, and that's 
specifically the DOJ's opposition to the USA Liberty Act. Why 
is it so hard, why is a warrant requirement so difficult to 
deal with on your part?
    We understand the need to have exigent circumstances where 
things get looked at quickly, but it's like the FISA court and 
this whole process of obtaining things for foreign intelligence 
purposes, to stop terrorists, are being rolled into more normal 
mainstream criminal investigations where traditionally there's 
been a need for a warrant.
    Why is it so difficult to get a warrant? In many cases you 
can create the necessary probable cause in paperwork in a 
matter of hours, if not minutes. There are judges on call 24/7 
to look at these things. Why is it such a problem? And why are 
you all opposed to it?
    Mr. Rosenstein. I believe--I don't want to duplicate 
Director Wray's comments about this, Congressman. I wish, 
actually, that you could join us in the Department and see how 
we go about our work and I think that would actually enhance 
public confidence. The public sees when things go wrong. They 
don't see the 99.9 percent of the time, as Congressman Marino 
pointed out, when things go right.
    And it would be burdensome. And I certainly respect and I 
understand the concerns, Congressman. And I think those are 
serious concerns and we're going to do everything that we can 
to try to reassure people about it.
    But I can simply tell you, it would take me a lot longer 
than the time that you have to explain the full process, but I 
believe Director Wray is correct about this.
    And the national security community, I know many folks who 
were involved pre-9/11 and post-9/11 have spoken up about how 
important it is for us to have this tool because we do not want 
to be in a position again, as we were in 9/11, when people 
said, why didn't the FBI put all these facts together and 
figure out about this threat before the terrorist attacks?
    So that's the basis, Congressman. And I can assure you that 
if it were easy to do with a warrant, I would be in favor of 
it. But it's not. And I believe that we have appropriate 
safeguards in place and that we have people who are responsible 
who are conducting these investigations and are going to avoid 
infringing Americans' rights.
    That's our primary concerns, Attorney Sessions has made 
that one of his priorities, to make sure that there are no 
violations of Americans' rights. And I do not believe the 
program as it exists represents a violation of anyone's rights.
    Mr. Farenthold. Well, you and I may respectfully disagree 
on whether it violates folks' rights or not. I agree we've got 
to fight terrorism, but there's a reason the Fourth Amendment 
was included in the Constitution.
    Finally, I just want to touch for a second on 
cybersecurity. I used to run a computer consulting company. And 
you've heard about breaches all throughout the public and 
private sector.
    Can you just give me an overview quickly about what you all 
are doing with respect to that and what, if anything, Congress 
needs to do to help you?
    Mr. Rosenstein. It would be hard for me to do it quickly, 
Congressman, because we do have a lot of resources, both the 
FBI and other agencies that are protecting against the cyber 
threat. It's a significant threat. We face both an intelligence 
threat from hostile foreign governments, and also a criminal 
threat from people who try to break into our systems to commit 
crimes and defraud Americans.
    And so it's a very challenging issue, as you know from your 
experience. Technology continues to evolve and we need to stay 
a step ahead of the capabilities of our adversaries and of 
criminals.
    So the FBI does have a lot of resources devoted to that. I 
testified about our budget a couple of months ago. And I think 
that's going to be an area where we will need increasing 
support from the Congress to make sure that we keep up with our 
adversaries.
    Mr. Farenthold. I see my time has expired. Thank you, Mr. 
Chairman.
    Chairman Goodlatte. Thank you.
    The chair recognizes the gentleman from California, Mr. 
Lieu, for 5 minutes.
    Mr. Lieu. Thank you, Mr. Chairman.
    Thank you, Deputy Attorney General Rosenstein, for being 
here today.
    I note for the American people that not only were you 
appointed by Republican President Donald Trump, you were also 
previously appointed by Republican President George Bush to 
serve as U.S. attorney for Maryland.
    And in a profile of you in The Washington Post when you 
were a U.S. attorney a former prosecutor says, ``Rod Rosenstein 
is the poster child for the professional, competent, ethical, 
and fair-minded prosecutor.'' So thank you for your service to 
the American people and for your exemplary service.
    Mr. Rosenstein. Thank you.
    Mr. Lieu. Last week FBI Director Christopher Wray told us 
that no one is above the law. You would agree with that 
statement, correct----
    Mr. Rosenstein. Absolutely.
    Mr. Lieu [continuing). That no one is above the law?
    Mr. Rosenstein. Yes, I would.
    Mr. Lieu. Now, important to our democracy is not only that 
concept, but also that people have to have trust in our law 
enforcement investigations. There are some of my colleagues and 
some in the media who have suggested that if you make political 
contributions, somehow you cannot be fair and impartial.
    So, as you know, these political contributions are a matter 
of public record. You previously said that when it comes to a 
special counsel investigation, you, Special Counsel Mueller, 
and FBI Director Wray will be the ones held accountable.
    So we looked up the political contributions of FBI Director 
Wray. He has made over $39,000 in contributions exclusively to 
Republicans, including $2,500 twice to Romney for President, 
$2,600 twice to Perdue for President, thousands of dollars to 
the National Republican Senatorial Committee, $1,000 to 
Comstock for Congress, and on and on.
    Do you believe FBI Christopher Wray can remain fair and 
impartial?
    Mr. Rosenstein. Yes, I do.
    Mr. Lieu. Your colleague, Associate Attorney General Rachel 
Brand, has made over $37,000 of political contributions 
exclusively to Republicans.
    Do you believe she can remain fair and impartial despite 
her political contributions?
    Mr. Rosenstein. Yes.
    Mr. Lieu. Okay. I think it is important right now to shut 
down this silly argument from my colleagues across the aisle 
that somehow if a Department of Justice employee exercises 
their First Amendment right to make political contributions 
that somehow they cannot do their job. And it shows the 
desperation that some people have about the Mueller 
investigation, which I now want to turn to.
    You supervise that investigation, so you are aware, of 
course, of their guilty pleas and indictments. And in reviewing 
the guilty plea of George Papadopoulos, you would agree that 
there is a solid legal and factual basis for that guilty plea, 
correct?
    Mr. Rosenstein. I believe he was represented by competent 
defense counsel who assisted him in making his decision.
    Mr. Lieu. And he pled guilty to lying to FBI agents about 
interactions with Russia, Russian officials, correct?
    Mr. Rosenstein. I believe that's correct. I don't want to 
comment, Congressman, beyond what's in the charging documents. 
They speak for themselves.
    Mr. Lieu. Thank you.
    The guilty plea of Michael Flynn, you must have looked at 
those as you supervise this investigation, you would agree 
there is a legal and factual basis for that guilty plea as 
well, correct?
    Mr. Rosenstein. Yes.
    Mr. Lieu. And he lied to FBI agents about his interactions 
with Russian Ambassador Sergey Kislyak, correct?
    Mr. Rosenstein. Again, Congressman, the documents speak for 
themselves.
    Mr. Lieu. You have read the indictments against Paul 
Manafort and Mr. Gates. You would agree there is a solid legal, 
factual basis for those indictments, correct?
    Mr. Rosenstein. Congressman, when we return an indictment, 
we are always careful to say the defendants are presumed 
innocent, but I'm comfortable with the process that was 
followed with regard to that indictment.
    Mr. Lieu. You're aware of the various people that have been 
interviewed by Special Counsel Mueller's team. You would agree 
that there was a factual and legal basis to interview those 
witnesses, correct?
    Mr. Rosenstein. I'm not aware of any impropriety.
    Mr. Lieu. You previously had testified about Robert 
Mueller's exemplary record and dedication to service. You did 
mention he was a Vietnam veteran. I just want to note for the 
record, and I'm sure you know as well, he also did receive a 
bronze star for his service in Vietnam, correct?
    Mr. Rosenstein. I believe two, correct.
    Mr. Lieu. He also received a purple heart for his service 
in Vietnam, correct?
    Mr. Rosenstein. Yes.
    Mr. Lieu. Okay. So what do we have here? We have a special 
counsel investigation that is being supervised by Mr. 
Rosenstein, who has been described as a fair-minded prosecutor 
appointed twice by Republican Presidents, being run by Special 
Counsel Mueller, a man of extraordinary dedication that is a 
Vietnam veteran, bronze star winner, purple heart, and in 
coordination with FBI Director Christopher Wray, who has been 
appointed by a Republican President, who has made over $39,000 
of contributions exclusively to Republicans. That is the 
leadership of this special counsel investigation, and I am okay 
with that.
    I yield back.
    Mr. Johnson of Louisiana [presiding]. The gentleman yields 
back.
    And the chair recognizes the gentleman from Florida, Mr. 
DeSantis, for 5 minutes.
    Mr. DeSantis. Mr. Deputy Attorney General, when Sally Yates 
defied President Trump's travel restriction order at the end of 
January 2017, was that appropriate what she did?
    Mr. Rosenstein. I disagreed with her decision.
    Mr. DeSantis. So if you're in a position where you get an 
order, your job is to follow the order. If you think it's 
unconstitutional, then your response would be to resign your 
office, correct?
    Mr. Rosenstein. Well, my response would be, I think, first 
to talk with the person who gave the order.
    Mr. DeSantis. Of course.
    Mr. Rosenstein. But ultimately, if I concluded it were 
unconstitutional, I would not implement it.
    Mr. DeSantis. And obviously you can't have a Department 
operating where each one is a law onto themselves, or if they 
happen to think something is bad, that they just don't follow 
the orders, correct?
    Mr. Rosenstein. That's exactly right.
    Mr. DeSantis. So it bothered me, then, one of the recent 
revelations. You know, you have Andrew Weissmann. Yeah, he's a 
big Democrat donor, which I agree doesn't disqualify you from 
being fair. He went to Hillary's supposed victory party. It 
doesn't mean that necessarily disqualifies you.
    But when she took that action, he sends her an email with 
his DOJ email account saying how he's in awe and so proud of 
her basically standing up to Trump. I mean, it was seen as a 
very direct rebuke to the President.
    So your test was, are the political opinions affecting how 
one conducts himself in office? I think that's a fair test. But 
isn't that example, of that email, an example of his strongly 
held anti-Trump opinions affecting how he is conducting himself 
on his official email?
    Mr. Rosenstein. As I mentioned, Congressman, I've discussed 
this general issue with Director Mueller on several occasions. 
He understands the importance of ensuring that there's no bias 
reflected in the conduct of the investigation.
    Mr. DeSantis. It looks bad to the public, I'm just telling 
you right now. Part of it is, is there is an actual bias, but 
as you know, as someone very experienced, is there an 
appearance of that. And this appears that to be because, 
clearly, what she did was not something that experienced 
prosecutors would think was good, and obviously the Supreme 
Court has slapped it down.
    The Russia investigation, who started it? Who was the 
agent? Was it Strzok who started it? Who opened the case?
    Mr. Rosenstein. Congressman, that matter is under review by 
the Intelligence Committee and there is nothing that I can talk 
about publicly regarding the initiation of the investigation. 
But I can assure you, we're going to provide appropriate access 
to the Intelligence Committee to what they need to answer----
    Mr. DeSantis. Did the FBI pay for the dossier?
    Mr. Rosenstein. I'm not in position to answer that 
question, Congressman.
    Mr. DeSantis. Do you know the answer to the question?
    Mr. Rosenstein. And that is, I believe I know the answer, 
but the Intelligence Committee is the appropriate committee to 
make that determination.
    Mr. DeSantis. That is not true. We have oversight over your 
Department and the FBI. And whether public funds were spent on 
a dossier, that is not something that's classified, we have 
every right to that information. You should provide it. If 
you're not, then there will probably be things.
    Was that info used to get surveillance over anybody 
associated with Trump?
    Mr. Rosenstein. I appreciate that question, Congressman, 
and I know that's been a concern for several members of the 
committee. I have set aside about a half hour every day to 
review FISA applications, and it is not legal for me to talk 
about those applications. So I'm not able to answer one way or 
the other.
    Mr. DeSantis. Well, I would like that authority. I think 
that you can say--you may not be able to talk about the sources 
and methods of the substance, but if this was used, we need to 
know that.
    Do you agree that given--so what was the rule of Bruce Ohr? 
He met with Christopher Steel before the election. Was that an 
authorized meeting?
    Mr. Rosenstein. Congressman, I do not know all the details. 
This information is still developing. So I don't know the full 
story, but we've agreed to make Mr. Ohr available for 
congressional interviews, and they will be free to ask him 
those questions.
    Mr. DeSantis. I mean, you need to pursue it. It's your 
Department. You demoted him. He is working with Christopher 
Steel. You have an anti-Trump dossier funded by the Democratic 
Party. His wife works for Fusion GPS. This doesn't look good, 
so we need answers to those questions.
    Mr. Rosenstein. I'm not suggesting that I'm disinterested, 
Congressman, just that we have done everything we can to allow 
you to get those answers.
    Mr. DeSantis. No, I get it. I get it.
    Let me ask you this. The role of Mr. Strzok, how much of 
this Russia investigation was due to him? Because, yes, Mueller 
saw the texts. Obviously, I think there was nothing he could 
do, you get rid of him. But how much of this whole 
investigation has been infected with his bias? Have you made a 
determination on that?
    Mr. Rosenstein. I have not. But I do want you to know, and, 
again, without talking specifically about this investigation, 
that the FBI does have procedures for all investigations to 
ensure that they're appropriately vetted. So there's no case 
for any one individual would be able to make decisions on----
    Mr. DeSantis. I hope not, but if you look at that damning 
text on 15 August, 2016, this is bad. He said, ``I want to 
believe the path you threw out for consideration in Andy's 
office''--I'm going to go out on a limb and say that's Andrew 
McCabe's office---- ``that there's no way he,'' meaning Donald 
Trump, ``gets elected. But I'm afraid we can't take that risk. 
We in the FBI can't take that risk. It's like an insurance 
policy in the unlikely event you die before you're 40.''
    So let me ask you this. If you have those Walmart-shopping 
Trump voters that Peter Strzok so derided in his text messages, 
how do they react to that? Do they have confidence in their 
FBI, in their Department of Justice when you see that, that you 
can't let the American people vote somebody in who they want 
to?
    Mr. Rosenstein. Congressman, I think--what I hope you can 
tell your constituents, and to provide reassurance to the 
American people, is that we have appropriate internal affairs 
officers who will get to the bottom of that.
    Our inspector general is the one who exposed that and he's 
going to deliver a report and we're going to take----
    Mr. DeSantis. When is that report due?
    Mr. Johnson of Louisiana. The gentleman is out of time.
    Mr. Rosenstein. I believe it is going to be relatively 
soon. I believe he is actually testifying, coincidentally, next 
door. He knows I want to complete it as quickly as possible, 
but consistent with his responsibility is to make sure he gets 
it right.
    Mr. DeSantis. I thank the gentleman. I yield back.
    Mr. Johnson of Louisiana. Thank you.
    The chair recognizes Mr. Raskin for 5 minutes.
    Mr. Raskin. Mr. Chairman, thank you very much.
    Mr. Rosenstein, welcome. It's good to see you again. I'm 
aware, from having been a State senator in Maryland for a 
decade, of your excellent service as U.S. attorney there. And 
thank you for your service to your country now.
    My first question is about the Emoluments Clause, which you 
know forbids the collection of foreign government payments by 
the President of the United States and other public officials.
    More than 180 Members of the U.S. Congress brought a 
lawsuit in the District of Columbia against the President's 
continuing collection of foreign government money for the Trump 
Hotel, the Trump Tower, Trump golf courses, and so on.
    The Department of Justice took the position that we don't 
have standing to raise that. If Members of Congress whose 
permission is required under the Emoluments Clause do not have 
standing to raise the President's violation of the clause, how 
do we deal with the problem?
    Mr. Rosenstein. Congressman, that, as you mentioned, it's 
pending litigation. The Department has taken its position in 
court. It will be the judge's determination whether or not that 
position prevails. And I don't have anything to say beyond 
that. The court will make that decision.
    Mr. Raskin. Okay. Thank you.
    You said that Robert Mueller is a dedicated, respected, and 
a heroic public servant whose distinguished military career and 
career as a prosecutor make him eminently qualified, perhaps 
singularly qualified to be running the special counsel 
investigation right now.
    He's also a registered Republican, nominated FBI Director 
by President Bush and unanimously confirmed by every Republican 
and Democrat in Congress. Is his judgment impaired or are his 
decisions suspect because he's a registered Republican?
    Mr. Rosenstein. No.
    Mr. Raskin. Do criminal prosecutors and investigators have 
a right to contribute money to candidates for public office?
    Mr. Rosenstein. Yes.
    Mr. Raskin. And there are members of this committee who, as 
prosecutors at the Federal or State level, gave thousands of 
dollars of contributions while they were prosecutors to 
candidates for office.
    Do you think that that would be the grounds for overturning 
verdicts that they received against criminal defendants?
    Mr. Rosenstein. No.
    Mr. Raskin. Okay. So I want to ask you this. On the eve of 
this hearing, we got a dump of hundreds of text messages that 
we've been spending most of the day talking about between Mr. 
Strzok and Ms. Page. And they no doubt make for fascinating 
reading. It's a little bit like ``Anna Karenina'' to go through 
them.
    And they are, of course, equal opportunity critics of 
public officials. They trash Bernie Sanders. They trash Senator 
McConnell. They trash Martin O'Malley, the Governor of our 
State.
    And of course they trash Donald Trump, who is repeatedly 
called an idiot, and at one point I think Mr. Strzok says, 
watching the Republican debates, ``OMG, he is an idiot,'' which 
hardly qualifies him for any awards for originality or 
exceptional insight. You probably could have found that in 
millions of tweets across the country.
    But I was amazed to learn from Business Insider that the 
Department of Justice had invited a select group of reporters 
yesterday evening to DOJ to screen these emails, to look at 
these private emails.
    And I'm wondering whether you know of any precedent of the 
Department of Justice calling reporters, asking them to come in 
to look at part of an ongoing investigation outside of a press 
conference, or even if that's taken place during a press 
conference. I was amazed. Can you just explain that?
    Mr. Rosenstein. I'm accountable, Congressman, but as you 
know, I'm not the public affairs officer, so I wouldn't know 
what the precedent was. But generally speaking, our goal is to 
be as forthcoming with the media as we can when it's lawful and 
appropriate to do so. So I would not approve anybody disclosing 
things that weren't appropriate to disclose.
    Mr. Raskin. Do you know of any other cases where material 
in an ongoing investigation were released by the press officer 
to reporters?
    Mr. Rosenstein. I don't know the details, Congressman, 
but----
    Mr. Raskin. And are you aware of the IG rule which says 
that material in an ongoing investigation cannot be revealed?
    Mr. Rosenstein. Yes. I appreciate that. No, when this 
inquiry came in from the Congress, we did consult with the 
inspector general. And he determined that he had no objection 
to the release of material. If he had, I can assure you, I 
would not have authorized the release.
    Mr. Raskin. Okay. There's been much propagandistic talk 
today about fruit of the poisonous tree. And so, you know, they 
are in a mad wild goose chase for a villain and they found 
their villain in Mr. Strzok, who was promptly removed from the 
investigation by Mr. Mueller. But they're saying, well, there 
might be fruit from the poisonous tree here.
    And, of course, fruit of the poisonous tree is a Fourth 
Amendment doctrine that relates to evidence that derives from 
an illegal search or seizure. Have you heard any allegation of 
Mr. Strzok or any other agent in this case having conducted an 
illegal search or seizure?
    Mr. Rosenstein. No.
    Mr. Raskin. Thank you very much for your testimony.
    I yield back.
    Mr. Johnson of Louisiana. Thank you.
    The chair recognizes Mr. Ratcliffe for 5 minutes.
    Mr. Ratcliffe. Thank you, Chairman Johnson.
    Mr. Deputy Attorney General, good to see you.
    Mr. Rosenstein. Likewise.
    Mr. Ratcliffe. I had a line of questions that I wanted to 
go into, but like many of the folks on this committee, last 
night I had a chance to see a number of these text messages 
between Agent Peter Strzok and Ms. Page. You've been asked 
about those.
    Have you had a chance to read them?
    Mr. Rosenstein. Not all of them, Congressman.
    Mr. Ratcliffe. How many you have read?
    Mr. Rosenstein. A few dozen, I believe.
    Mr. Ratcliffe. Okay. Well, I will tell you, I can't read 
some these publicly, they are that obscene, they are that 
offensive. And as someone who served with you at the Department 
of Justice and reveres the independence of the Department of 
Justice, I will tell you that I changed my questioning to ask 
you about them because, as I read them, I found them so 
sickening and heartbreaking that I felt compelled to do so.
    In addition to being sickening and heartbreaking, these 
texts are also evidence. They are not evidence of an appearance 
of impropriety, they are evidence of an actual vitriolic bias 
of actual prejudice, of actual hatred for the subject of the 
special counsel's investigation by folks serving as the 
independent investigators and lawyers on the special counsel 
itself.
    Mr. Deputy Attorney General, I guess, please tell me that 
when you read these texts your heart fell and that you were 
appalled by what you read there.
    Mr. Rosenstein. I don't mean to quibble with you, 
Congressman, the special counsel investigation does not have 
any identified subjects, that is individuals, other than the 
persons who have already been charged.
    But I can tell you with regard to those text messages, we 
concluded when we learned about that them that it was 
appropriate to complete the inspector general's investigation. 
And if the inspector general reaches the conclusion that it is 
misconduct--and obviously, I have an opinion, as anybody may, 
about what it looks like. But it's important for me, since I 
supervise that investigation, to await the formal conclusion 
and then any recommendation before I reach an official decision 
and take any action.
    Mr. Ratcliffe. Well, I guess when you line up Agent Strzok 
and Ms. Page, along with Bruce Ohr and Aaron Zebley and Andrew 
Weissmann and all the other conflicts of interest, I would tell 
you that, first of all, these aren't run of the mill conflicts 
of interest.
    You mentioned Mr. Ohr being a few doors down. He is your 
Assistant Deputy Attorney General. And, you know, employees of 
the Department sometimes have spouses that are involved with 
corporations. But we're not talking about companies like 
Walmart or Microsoft here. We're talking about Fusion GPS, a 
company that had 10 employees, and his wife was one of them, 
and he was engaged in meetings with that.
    Mr. Rosenstein. I just to clarify, if I may, Congressman, 
that while Mr. Ohr was part of my office when I arrived, I 
never involved Mr. Ohr in the Russia investigation, so he had 
no role assigned by me.
    Mr. Ratcliffe. Well, I understand that, but I guess what 
I'm getting at is, you know, the conflict of interest here and 
the appearance of impropriety are, as everyone has said, 
colossally bad.
    But let's talk beyond that about judgment. You said in 
response to Mr. Gowdy's questioning that we should have great 
confidence in Mr. Mueller and in Director Wray and in yourself, 
and you pointed out that as soon as former Director Mueller 
found out about Mr. Strzok, for instance, that he took action. 
I want to give him credit for removing or reassigning folks, 
but isn't he the one that chose them in the first place?
    Mr. Rosenstein. Congressman, Mr. Mueller was assigned by me 
to come in as special counsel, and there were a number of folks 
already working on the investigation. So I don't know to what 
extentMr.Mueller--my goal was to get him in and working as 
quickly as possible. So I don't know what, if any, screening he 
did----
    Mr. Ratcliffe. Well, do you know what anyone did with 
respect to vetting this team? Because, you know, if you set out 
to create an appearance of bias or prejudice or impropriety or 
conflict of interest, the only way you could do a better job of 
doing it would be to pick this team and then have them wear 
their ``I'm With Her'' t-shirts to work every day.
    Mr. Rosenstein. I regret that you feel that way, 
Congressman, but as I said, I've talked with Director Mueller, 
and he understands the importance of avoiding any bias in that 
investigation.
    Mr. Ratcliffe. Well, Deputy Attorney General, I have talked 
often about the fact that I think people can lose faith and 
trust in elected officials. But if they lose faith and trust in 
organizations like the FBI and the Department of Justice to 
fairly investigate and adjudicate violations of the law, then 
we may lose the Republic.
    I know that you take that charge seriously in the role 
where you are. But as has been said, events like these and the 
daily transgressions that become public one after another are 
not serving either the Department of Justice or the FBI well. 
And I just encourage you to do everything you can to restore 
integrity to those organizations that I know that we have both 
revered.
    Mr. Rosenstein. If I may, Mr. Chairman, I agree with you 
entirely, Congressman. And I want to assure you that when 
Attorney General Sessions talked with me about taking on this 
job, he conveyed to me his desire to make certain that we do 
everything we can to enhance public confidence in the rule of 
law and ensure that the Department of Justice runs 
appropriately.
    He, like you and me, served as a U.S. attorney, he had the 
privilege of serving for 12 years. And he was so proud to 
return because of the deep respect that Attorney General 
Sessions has for the Department. And I think that's reflected 
in the appointments that have been made to the Department, 
setting myself aside. We have a superb team of experienced 
professionals, including Chris Wray, who are in position to run 
that Department.
    So I cannot assure you that there will be no wrongdoing. We 
have 115,000 employees, things go wrong. But I can assure you 
that we will respond appropriately when they do.
    Mr. Ratcliffe. I appreciate it. Thank you. I yield back.
    Mr. Johnson of Louisiana. Thank you.
    The chair recognizes the gentlewoman from Washington, Ms. 
Jayapal, for 5 minutes.
    Ms. Jayapal. Thank you, Mr. Chairman.
    And, Deputy Attorney Rosenstein, thank you for your service 
to the country at this consequential time.
    We have spent 3 hours, and many of my colleagues on the 
other side have continued to harp on the theme of expressing 
concern with FBI Agent Peter Strzok and the text messages that 
were just released yesterday. But I'd like to remind everyone 
of where we were just a little over a year ago.
    The FBI was conducting investigations of Hillary Clinton's 
emails, and leaks occurred routinely. Reports cited anti-
Hillary Clinton bias within the FBI as the cause of leaks 
surrounding the investigation of Secretary Clinton's emails. 
One current agent even described the FBI as, quote, 
``Trumpland.'' Another agent said that some within the FBI 
viewed Secretary Clinton as, quote, ``the anti-Christ,'' and 
said, quote, ``The reason why agents are leaking is that 
they're pro-Trump.''
    Now, these leaks had serious consequences, and they 
arguably swung the election results in Trump's favor, and I 
didn't hear any of my colleagues on the other side expressing 
concern about the FBI's bias last year when this was happening, 
despite the very real problems we were seeing.
    I agree with you in your earlier statement that political 
affiliation is different from bias. I believe I'm quoting you 
correctly when you say that. And I want to remind my colleagues 
that people are allowed to have their personal opinions and 
their political affiliations. For instance, Special Counsel 
Mueller and former FBI Director James Comey and you are 
lifelong Republicans.
    But that is not what is at issue. As much as my colleagues 
on the other side would like to deflect attention away from the 
urgency of the special counsel's investigation into obstruction 
of justice and collusion at the highest levels of our 
government, it is clear to me after listening to 3 hours of 
questioning that none of this is about text messages.
    It is, rather, a full-fledged, irresponsible, and very 
dangerous attempt on the other side to attack and undermine 
Robert Mueller's investigation and his credibility and to lay 
the groundwork for a desire to fire Robert Mueller or 
invalidate the results of his investigation, acts that I 
believe would cripple our democracy and acts the likes of which 
we have not seen since Watergate.
    Let me just warn my Republican colleagues and the American 
people that history will not judge those acts kindly. And being 
dragged into a President's personal vendettas or apparent 
attempts to undermine the very fundamentals of our democracy is 
something we must resist.
    And so, Deputy Attorney General Rosenstein, let me just ask 
you again, in your role overseeing the FBI, is it your sense 
that the FBI's impartiality is at any risk?
    Mr. Rosenstein. Congresswoman, I think it's important to 
distinguish the reputation of the FBI from the character of the 
FBI. Reputation obviously is damaged by every incident that 
comes to public attention, but the character of the FBI is a 
function of the approximately 37,000 employees. And as I said 
earlier, I've been very impressed with the character of the 
agents and employees who I know personally.
    Ms. Jayapal. And do you believe that the FBI as an agency 
is politically motivated?
    Mr. Rosenstein. I don't believe you can characterize any 
agency, Congresswoman. We all recognize there can be 
individuals who do things they shouldn't do, but that's 
something that we address when it comes to our attention.
    Ms. Jayapal. Deputy Attorney General, what can you do to 
protect the integrity of Special Counsel Mueller's 
investigation and the results that it comes out with?
    Mr. Rosenstein. Congresswoman, I don't think there's 
anything special that I need to do. Director Mueller has his 
mandate, he's conducting his investigation, and I believe he'll 
continue to conduct it until it's concluded.
    Ms. Jayapal. And let me ask you one more time, you've said 
this a couple of times, but do you have full faith and 
confidence in Director Mueller's ability to conduct this 
investigation?
    Mr. Rosenstein. Yes, I do.
    Ms. Jayapal. Thank you.
    Let me move to election security. On November 15, when the 
Attorney General appeared before this committee, I and several 
of my colleagues asked questions about the Justice Department's 
actions to ensure the security of our elections. And at the 
time, the Attorney General said that he had not yet ordered a 
review of what laws might need to be updated to protect our 
elections from foreign influence. Has such a review yet been 
ordered?
    Mr. Rosenstein. I can tell you, Congresswoman, we have a 
lot of ongoing work relating to protection of elections. I 
don't have enough time to go through it all now, but that is a 
very high priority for us. We have met with, that is the 
Attorney General and I, have met with Director Wray and some of 
his experts, and we're going to continue to do everything that 
we can to ensure that our elections----
    Ms. Jayapal. Thank you. And we'd love to have an update on 
that.
    Let me use my last few seconds to ask you about civil 
rights. I have been very concerned that the DOJ is not actively 
defending civil rights and is instead dismantling critical 
structures and abandoning tools that for decades have been used 
by the Department of Justice to protect people from police 
brutality and discrimination.
    What is the status of the 18 open reform agreements, 5 open 
investigations, and 1 case in active litigation brought under 
section 14141 that is managed by the Department's Civil Rights 
Division?
    Mr. Rosenstein. I regret I don't have personal knowledge of 
all of those, Congresswoman. But if I may, yesterday I attended 
the annual awards ceremony of the Civil Rights Division, and 
the Civil Rights Division has a lot of very talented and proud 
attorneys. The Attorney General spoke about his deep respect 
for the work of the Civil Rights Division. And so I'm confident 
that work will go on.
    Ms. Jayapal. I would appreciate just a response to that 
later when you have a chance.
    Thank you. I yield back.
    Mr. Johnson of Louisiana. Thank you.
    The chair recognizes the gentleman from Georgia, Mr. 
Collins, for 5 minutes.
    Mr. Collins. Thank you, Mr. Chairman.
    Thank you for being here.
    Just a few things that I'm not--I mean, there has been a 
lot of questions, a lot of understanding of texts and bias and 
a lot of things.
    And I think something that was really interesting and two 
things that I want to of base some of the questions I'm going 
to have on, because someone asked a little bit, one of my 
colleagues asked, is the special counsel not accountable--is 
unaccountable. And you said, no, they're accountable to you.
    Mr. Rosenstein. Correct.
    Mr. Collins. Which presents my line of questioning in a 
little bit of a way, because I think there has to be at least 
in your mind a little bit of embarrassment of what's going on 
right now. Because I think you in good conscience chose 
Director Mueller believing, as many of us did, you know, just a 
very respectable record, one that we could all trust. And now 
we're starting to find out that this team has been put together 
with interests.
    One of the questions that was also asked about Mr. Strzok 
was, did you know of his bias? And you responded, no.
    Now, given the indication there, the flip side is, is you 
would agree that there is a bias it looks at least to be 
presented in these text messages. Would you agree with that?
    Mr. Rosenstein. I agree that the text messages raise 
concern. As I said, I'm going to withhold my judgment until the 
investigation is completed.
    Mr. Collins. Well, that brings up an interesting question, 
because I spent time last week with FBI Director Wray, and it 
was really interesting that he, especially some of his 
comments, that he felt like he didn't have to provide to this 
committee. I think, hopefully, after that he realized that we 
do have direct jurisdiction and he will be getting us stuff.
    But he brought up this issue of Mr. Strzok and where he is 
now. So I want to focus just these last few minutes on where 
this issue is now.
    At the time--you give direct accountability to Director 
Mueller. When you discussed--was there a discussion between you 
and Director Mueller about moving Mr. Strzok off the committee, 
off the investigation.
    Mr. Rosenstein. I believe Director Mueller and I were 
together when we learned from the inspector general about what 
he had found.
    Mr. Collins. And by the way, when did you have that 
discussion and he was removed again?
    Mr. Rosenstein. It was approximately July 27.
    Mr. Collins. And it is just coming out that he was removed, 
correct, publicly?
    Mr. Rosenstein. I think the fact that he was no longer on 
the case was known. The reasons were not known.
    Mr. Collins. The reasons were not known. And I think that's 
an interesting thing, because it does--and, again, perception 
is reality in most parts, and whether that's true or false is 
perception is reality.
    And the perception is, is that, uh-oh, we found a problem, 
this investigation could be tainted, we don't really want this 
to come out, and now it's starting to come out.
    But I do have a question just in a process, because Mr. 
Wray last week said he was not demoted, he was just moved to 
HR. I made the comment at that point that said it is funny to 
me that the second in command in the investigation division 
being put on a very high profile investigation, one of the 
highest in this town in a long time, and then simply being 
moved over to HR was not a demotion.
    In fact, why would you put somebody with challenges that 
you've now seen in texts, which we didn't have last week, why 
would you put him in HR? There seems to be a little bit of a 
problem there.
    So I do have a question. When he was removed moved from the 
investigation, did he possess a security clearance?
    Mr. Rosenstein. I believe he did. I don't have personal 
knowledge, but I'm fairly confident he did.
    Mr. Collins. You don't know if he has a security clearance 
for working on what he was working on?
    Mr. Rosenstein. I'm certain he would have had a security 
clearance.
    Mr. Collins. Okay. Is it revoked or suspended at this 
point?
    Mr. Rosenstein. Not to my knowledge.
    Mr. Collins. Why would it not be?
    Mr. Rosenstein. Why would it not be revoked?
    Mr. Collins. Because I think what we're having here is 
there's a double standard. The new agent coming in working, or 
the new U.S. attorney in an office coming in and having what is 
now perceived as bias, working on a case in which that bias 
would at least be perceived by most average individuals as 
having an influence on the outcome of an investigation, 
especially him being involved in all of these other parts of 
this, changing letters, changing this, I think the interesting 
issue here is he being treated differently than a younger agent 
or a line agent out in, you know, another field office?
    Mr. Rosenstein. I appreciate that question, Congressman. If 
I may explain. I can understand why to the average American it 
might seem unusual, but within the Department of Justice we're 
subject to the government employment regulations, and there are 
very strict rules about what we may and may not do.
    So when we have an allegation of misconduct, it's 
investigated, and we don't take any disciplinary action unless 
and until a conclusion is made that it's warranted.
    So the decision to transfer the agent was made based upon 
what was known at the time. That's not a punishment. If there 
is an adverse finding--and, again, I'm supervising the 
inspector general, I need to withhold my judgment--but if there 
is an adverse finding--and our employees have due process 
rights, so they have a right to provide any explanation or 
defense. I don't know what it's going to be, but they have the 
right to do that. And at the conclusion--
    Mr. Collins. And I agree with that. Let me just jump in 
here. And I appreciate where you're headed there, I understand 
investigations.
    But also let me say, this is a gentleman who, through these 
texts that we have seen, there is an understanding that he 
wanted to protect America, that he didn't like the new 
President. He is still involved in the FBI, he's still at this 
point undoubtedly still has his security clearance.
    Does it not strike you that at least this person who had 
access to very high risk, sensitive security issues dealing in 
this Russia investigation, why would they have not been 
separated out under all rules and regulations, but at least 
taken out?
    Has he been polygraphed simply since he's--in regards to 
this?
    Mr. Rosenstein. The inspector general is responsible for 
handling that review, and when he concludes it, as I said, 
there will be a public report.
    And with regard to the timing, I should clarify, I actually 
anticipated and hoped the report would have been done, 
completed in November, but it's not completed yet. But I 
anticipate it will be ready soon.
    Mr. Collins. Is there a reason why it's not been completed?
    Mr. Rosenstein. Yes, because the inspector general made a 
determination that he wasn't finished.
    Chairman Goodlatte [presiding]. The time of the gentleman 
has expired.
    Mr. Collins. I think the impression here is, though, again, 
is that somebody's been treated special, and that you're 
looking at it. And I think from your having the responsibility 
and the accountability for the special counsel, it is on you at 
this point----
    Mr. Rosenstein. Correct.
    Mr. Collins [continuing]. To make sure that that is 
corrected, and right now there is a lot of mistrust out there.
    Thank you, and I yield back.
    Chairman Goodlatte. The gentleman from Illinois, Mr. 
Schneider, is recognized for 5 minutes.
    Mr. Schneider. Thank you.
    Deputy Attorney General, I believe you touched earlier on 
this, but I want to confirm your answer. Do you agree with the 
unanimous finding of the Director of National Intelligence and 
the 17 agencies of the intelligence community that Russia, on 
orders of Vladimir Putin, actively worked to interfere in the 
2016 Presidential election?
    Mr. Rosenstein. I agree with the assessment of the 
intelligence community, yes.
    Mr. Schneider. Well, Mr. Rosenstein, in an October 
interview with the Target USA podcast, you stated the 
following, quote, ``If we have foreign countries that are 
seeking to interfere in our elections, I think we need to take 
appropriate actions in response,'' end quote. I wholeheartedly 
agree with you.
    Unfortunately, on several occasions, including recently 
before this very committee, Attorney General Sessions stated 
that we're not where we need to be on this issue and there is 
no review underway by the Department on what steps should be 
taken.
    You have said that protecting the integrity of our 
elections is a high priority. You seemed to indicate earlier 
that you have had conversations with the Attorney General and 
FBI Director.
    I have a simple yes-or-no question. Has there been a formal 
review of the attacks made on the 2016 election and what DOJ 
must do to protect the integrity of our 2018 elections?
    Mr. Rosenstein. Congressman, that's the second time this 
issue's been raised. And I did not watch all the Attorney 
General's testimony, and I'll have to check, but I believe he 
may have been referring to a review of legislation as opposed 
to a review of the issue.
    Mr. Schneider. No. If I can reclaim my time. I asked him 
very specifically what steps have been taken following the 
appearance on the Senate side and the question asked by Senator 
Sasse, if any steps had been taken to review the elections and 
to take steps to protect our future elections.
    I'm asking the same question of you, simple yes or no. Has 
there been a review of what Russia tried to do or any other 
agencies tried to do to interfere in our elections last year 
and what must we do to protect our elections next year?
    Mr. Rosenstein. I believe the answer is yes, but I can get 
further information for you if you like.
    Mr. Schneider. If that answer is yes, it has not been 
shared with us. As of today, we have had no information shared. 
I think this is an important issue. The elections are a short 
time away, and we need to make sure they are secured.
    Have there been any specific actions taken by the Attorney 
General following his appearance before this committee? You 
talked about meetings. Is there anything specifically you can 
share with us as actions to protect our elections?
    Mr. Rosenstein. Yes. The FBI has--the Attorney General and 
I met with a team of FBI experts and discussed a variety of 
things that they're doing, some of which are classified. In 
addition to that, Homeland Security has a role to play in this, 
too, in coordination with State and local elections officials. 
So there is a lot going on in that area.
    Mr. Schneider. I appreciate that, but I think we have to 
expect that 2016 wasn't the first time the Russians have tried 
to interfere in our elections. They've interfered in elections 
around the world. They're going to try to interfere in our 
future elections. Their attacks are going to become more 
aggressive, more intensive, more complicated. We need to be 
staying a step ahead of them.
    Twice now Attorney General Sessions, first in front of the 
Senate and then recently in front of this committee, said not 
enough has been done.
    The meeting you are talking about, did that happen before 
November or is that subsequent to Mr. Sessions' appearance 
here?
    Mr. Rosenstein. I don't recall the date, Congressman. I'll 
be happy when we take a break to review it. But I don't think 
there's any inconsistency in my answer.
    Mr. Schneider. Well, Mr. Sessions committed to me that the 
Department would brief this committee on any actions taken. 
Last month, after his appearance, I sent a follow-up letter 
asking for that briefing before the end of the year, ideally 
before this week and the intended adjournment of Congress. 
Unfortunately, I have not even received a response, let alone a 
scheduling of a briefing.
    Are you willing to commit that we can have a briefing, that 
you will update this committee on what actions are being taken 
to make sure our elections are secure next year?
    Mr. Rosenstein. If the Attorney General committed to that, 
Congressman, I will make sure it happens and I will make sure 
we respond to your letter. As I mentioned earlier, we make 
every effort to and I'm sure it's in the queue.
    Mr. Schneider. Thank you. I would hope that this moves to 
the top of the queue, that this is not a priority of a long 
list of items that may get to eventually.
    I think if the confidence of the American people in our 
electoral process, if the confidence of the American people in 
our democracy is damaged, as the Russians clearly have tried to 
do, then the future of the Republic is challenged.
    This is not a partisan issue, it's not Republican, it's not 
Democrat. We need to make sure that people respect our 
elections, know that their votes will be counted, know that 
their voices will be heard.
    I am imploring the Department of Justice to work with this 
committee, to work with Congress, to make sure that the 
American people can be confident in the future of our 
elections. I hope we can count on you to work with us.
    Mr. Rosenstein. Absolutely. And I want to be absolutely 
clear, that is near the top of the list for us, and I know it 
is for the Attorney General as well.
    Mr. Schneider. Thank you. I look forward to hearing back on 
our letter from last month.
    I yield back.
    Chairman Goodlatte. The chair thanks the gentleman.
    The committee is advised, Mr. Schneider and I are advised, 
that we have votes on the floor. General Rosenstein, we will be 
back in about 35 to 40 minutes. So if you want to get a bite to 
eat, whatever, you have time.
    The committee will reconvene immediately after this vote 
series. I think we have about four to six more members to ask 
questions.
    Mr. Rosenstein. Thank you. [Recess.]
    Chairman Goodlatte. The committee will reconvene and 
continue the questions for the Deputy Attorney General.
    The chair recognizes the gentleman from Florida, Mr. Gaetz, 
for 5 minutes.
    Mr. Gaetz. Was Peter Strzok the author, recipient, carbon 
copy, blind carbon copy on any documents relating to the 
meeting between Loretta Lynch and Bill Clinton on the Arizona 
tarmac?
    Mr. Rosenstein. I do not know the answer to that.
    Mr. Gaetz. Will all of the documents relating to that 
tarmac meeting be produced in an unredacted format?
    Mr. Rosenstein. Congressman, the inspector general is 
having that investigation, and as I said, we're going to try to 
accommodate any congressional requests that we can. But I will 
have to consult with him before I do.
    Mr. Gaetz. So if the President declassified the documents, 
how quickly could they be produced?
    Mr. Rosenstein. If documents are declassified, they could 
be produced fairly quickly.
    Mr. Gaetz. Is that, like, within a week?
    Mr. Rosenstein. Well, it would depend upon the sensitivity 
of the document. I can't answer----
    Mr. Gaetz. Well, if they were declassified, I guess they 
wouldn't be sensitive anymore. So, I mean, could we get them 
within a week?
    Mr. Rosenstein. Which documents are we talking about, 
Congressman?
    Mr. Gaetz. The documents relating to the tarmac.
    Mr. Rosenstein. Oh. Well, I don't know--I don't know if 
they're classified. I just--I don't know anything about them.
    Mr. Gaetz. No, assuming they're declassified, how quickly 
would it take to get them from you to us if the President 
declassified them?
    Mr. Rosenstein. If they're documents that's appropriate to 
disclose, then we disclose them as quickly as we could.
    Mr. Gaetz. When did Justice first learn that Nellie Ohr was 
employed by Fusion GPS?
    Mr. Rosenstein. I do not know the precise date, 
Congressman.
    Mr. Gaetz. Can you find that out and get it to us?
    Mr. Rosenstein. Well, if we know it, yes.
    Mr. Gaetz. Well, we've got to find that out, right?
    Mr. Rosenstein. Yes.
    Mr. Gaetz. I mean, you've got the wife of someone who was 
one of the top counterintelligence officials in the Department 
of Justice working for the company that was a pass-through for 
money from the Democratic Committee to Russians to get dirt on 
the President to discredit him both before and after the 
election. I feel like it should be a pretty high priority to 
figure out when that occurred, right?
    Mr. Rosenstein. I don't want to quibble with you except to 
say that Mr. Ohr is not a counterintelligence official. But, 
yes, I agree with you. In fact, I believe Mr. Ohr is scheduled 
to testify before one of the committees, or at least to be 
interviewed, next week.
    Mr. Gaetz. Right. But that doesn't absolve us of the 
obligation to actually go and find out when his wife started 
working for these people that wrote this salacious and 
unverified dossier.
    So when did the Department of Justice learn of Bruce Ohr's 
contact with Christopher Steele during the 2016 campaign?
    Mr. Rosenstein. Congressman, I'm reluctant to answer that 
only because I don't know all the information, and I want to 
make sure we know all the information before we give any 
answers.
    Mr. Gaetz. We, too, want to know all the information. 
That's why we keep asking these questions. I mean, again, 
you've got this person who works at the Department of Justice 
whose wife is working for Fusion GPS, and during the campaign 
he's meeting with the author of a dossier that Mr. Comey called 
salacious and unverified.
    And so I would hope that it would be a top priority to 
figure out when we first came to know of those meetings. Is 
that something you can get to the committee?
    Mr. Rosenstein. If we get all the information and we have a 
firm answer. I don't want to answer any questions until I know 
all the details.
    Mr. Gaetz. When did the Department of Justice first learn 
of Bruce Ohr's contact with Fusion, with Glenn Simpson after 
the election?
    Mr. Rosenstein. Congressman, we have agreed to provide all 
the relevant documentation to the Intelligence Committee. I 
haven't seen it all, so I'm not in a position to answer it.
    Mr. Gaetz. So during Mr. Chabot's questioning he pretty 
thoroughly laid out the number of people on Mr. Mueller's team 
who have financial donations to Democrats, to the Clinton, 
Obama campaigns. I mean, I think over half of the Mueller team 
donated to either Clinton or Obama. None of them donated to 
Trump.
    And so that's either one of two things: Either Mr. Mueller 
was curating a universe of people who hate the President or 
it's just one hell of a coincidence that a whole lot of people 
had demonstratable bias that we learn more and more about each 
day.
    And so you've answered that question by saying, look, 
people have personal opinions, but that doesn't always 
influence action. And it's the action that is your 
responsibility to make sure is not infected by this bias.
    Mr. Rosenstein. Correct.
    Mr. Gaetz. And I would proffer that, like, when Mr. Strzok 
goes and changes wording from ``gross negligence,'' a crime, to 
``extremely careless,'' that's not a belief. That's an action.
    We can't find out, you won't tell us whether or not 
taxpayer money was used to go and buy this dossier. If it was, 
if the FBI was working with the Democratic Party to buy a 
dossier to discredit the President of the United States, that's 
not a belief. That's an action.
    If that dossier was dressed up as an intelligence document 
and brought to a FISA court, that wasn't a belief. That was an 
action.
    If Bruce Ohr is meeting with the author of the dossier 
during the campaign and the head of Fusion GPS after the 
campaign, and as you sit here today, you can't tell us when 
that occurred, those meetings aren't beliefs. They're actions 
that undermine the credibility of this investigation.
    And I would certainly suggest that when Mr. Weissman, 
Mueller's number two in this probe, sends an email on his 
official Department of Justice email to Sally Yates praising 
her for defying the President of the United States, that's not 
a belief. That's an action.
    So my question to you is, like, what are we ultimately--
what do you have to see in terms of the actions of people with 
demonstrated bias against the President of the United States 
before you will appoint a special counsel to investigate the 
clear bias that has infected this investigation?
    Mr. Rosenstein. Well, Congressman, there are a number of 
different issues that you have raised.
    With regard to the allegations of bias, as I've explained, 
our inspector general is conducting a very thorough review of 
that. He's the one who identified the text messages. And so I 
am confident that's going to be done appropriately. We are 
going to get----
    Mr. Gaetz. Mueller didn't, right? It took the inspector 
general doing it. Mr. Mueller didn't find this information.
    Mr. Rosenstein. Well, I don't--Mr. Mueller found it when 
somebody told him about it. But it was in the text messages, 
which the IG got access to.
    Mr. Gaetz. It really makes you wonder how all these people, 
that we're finding all this information about, with all these 
connections, ended up on his team.
    I yield back, Mr. Chairman.
    Mr. Rosenstein. Mr. Chairman, if I could just clarify. I do 
want to make clear----
    Chairman Goodlatte. The gentleman may answer.
    Mr. Rosenstein. Thank you, sir.
    With regard to oversight, we are working with the 
Intelligence Committee to try to provide them all the 
information they need to answer some of those questions. And I 
don't personally know the answers, but I'm confident that we'll 
be able to get that information to them.
    Chairman Goodlatte. Well, thank you, but I just want to 
note here, and I'll take the time right now, I was going to say 
something at the end, but two things.
    First of all, the House Judiciary Committee, not the 
Intelligence Committee, has direct oversight responsibility 
over the Department of Justice and the Federal Bureau of 
Investigation.
    We have, the overwhelming majority of the majority, called 
for the appointment of a second special counsel to investigate 
all of this, and I think if that were taking place, that might 
satisfy a number of us.
    However, it's not. And even based upon prior conversations 
that I've had with you, you're aware of this and you've noted 
that we certainly have the right and the responsibility to do 
that oversight.
    So when you talk about providing documents to the 
Intelligence Committee, I have no problem with your doing that, 
but all of that information should be made available to this 
committee as well.
    Secondly, the inspector general, his investigation is very 
important. We support that. It is very encouraging to us that 
he is doing what I think is good, unbiased work, and we want 
that to continue.
    But our investigation does not need to--you may wait for 
them to draw conclusions--but our investigation does not need 
to wait on the inspector general.
    So, again, I thank you for the documents that were provided 
to us yesterday. There are, as you know, many, many, many more, 
I think 1.2 million documents that the inspector general has 
and that we have a commitment from the Assistant Attorney 
General, Mr. Boyd, to provide those by January 15. We have sent 
a letter asking for certain information and commitments 
regarded to that January 15 production date.
    But that is very important for us, and we do not intend to 
wait on the inspector general's report, whenever that may be, 
maybe before then, maybe after then, to pursue the 
investigation that this committee is pursuing.
    So as long as we have that understanding and that you live 
by the commitment that has already been made to be fulsome in 
your production of documents, I have no problem what you 
provide to the Intelligence Committee. But don't look at this 
as something that's just provided to them. It should be 
provided to this committee.
    If it needs to be handled in camera, if it needs to be 
handled in a classified manner, we have the facilities, and we 
are certainly prepared to make the necessary commitments to do 
that.
    Mr. Rosenstein. Mr. Chairman, I would appreciate, if I may 
further explain, I have instructed our staff to make sure they 
do make this information available to you as well. And my 
understanding is that we're seeking to make arrangements with 
your staff to do so this month.
    Chairman Goodlatte. Thank you very much.
    The chair recognizes the gentleman from Louisiana, Mr. 
Johnson, for 5 minutes.
    Mr. Johnson of Louisiana. Thank you, Mr. Chairman.
    And thank you for being here today, sir.
    Last night I was discussing the importance of this hearing 
with my teenage daughter, she's in civics right now. And I 
reminded her that it was 240 years ago when John Adams was 
trying to explain the difference between an empire and our 
fledgling Republic, and he famously summarized, ``We're a 
Nation of laws, not of men.''
    And I reminded her that the Founders understood that all 
men are fallen, we're flawed, and that we have a natural 
instinct, people have a natural instinct to benefit their 
friends and seek retribution against their political enemies. 
And that's a dangerous instinct when it's exercised by someone 
in a high position of authority at the Department of Justice, 
obviously.
    So the Founders gave constitutional authority to Congress 
to monitor all this and to monitor those who are in 
responsibility so we can maintain the rule of law. And as has 
been mentioned here today in the hearing, the survival of our 
Republic depends upon that.
    So there has been a lot of discussion this morning about 
biases of some members of the Mueller team, and we have 
expressed our serious concerns about former FBI Director 
Comey's investigation of Hillary Clinton's illegal use of a 
private server.
    Of course, it has been mentioned Federal regulations 
strictly prohibit, for obvious reasons, any DOJ employee from 
participating in a criminal investigation or prosecution if the 
employee has a personal or political relationship or 
affiliation with any person under investigation.
    Reports have shown, and it has been mentioned this morning, 
that the lawyers on Mueller's team have contributed more than 
$62,000 to Democratic candidates and only $2,750 to Republican 
candidates.
    The question is, isn't it reasonable for us to assume that 
there's an inherent bias there?
    Mr. Rosenstein. Congressman, I appreciate that question. I 
have teenage daughters, and I have had the same sorts of 
conversations with them.
    And I can assure you, Congressman, that although I 
understand the basis for the concern, as I explained earlier, 
Director Mueller and I have a lot of experience as managers in 
the Department and we understand our responsibility to make 
sure that nobody's personal opinions are improperly allowed to 
impact the investigation.
    So I can assure you that I've discussed that with Director 
Mueller, and he's taking appropriate steps to make sure that 
his investigation is not affected by any bias.
    Mr. Johnson of Louisiana. What are those appropriate steps? 
I mean, let us know what that looks like. I know you've 
explained it a little bit, but just----
    Mr. Rosenstein. Yes, sir.
    Mr. Johnson of Louisiana [continuing]. For my daughter back 
home, what does that look like?
    Mr. Rosenstein. I appreciate it. I think there are several 
aspects to it.
    Number one is the tone that you set around the office, 
making clear to everybody that although they may have personal 
political views, it's not to factor into their work and they're 
not to discuss it in the context of their work.
    Number two, it's the process that we have within the 
Department of Justice. Nobody does anything on their own. 
Everything is subject to review, and the more significant the 
matter, the higher level the review and the more people are 
involved in reviewing it. And, of course, we have external 
checks at well. We have our inspector general, our Office of 
Professional Responsibility.
    And for any matters that we bring, of course, within the 
Department of Justice, we need to be prepared to prove our case 
in court beyond any reasonable doubt, so you need admissible 
evidence.
    So there are several levels of checks within the 
Department.
    Mr. Johnson of Louisiana. In 2014, speaking of the 
processes, Attorney General Eric Holder announced a significant 
policy shift concerning electronic recording of statements, and 
there was established, at that time, a presumption that the FBI 
and other Federal law enforcement agencies will record all 
interviews of witnesses and suspects. My question is, is that 
policy still in place today?
    Mr. Rosenstein. I believe that the policy had to do only 
with custodial subjects, that is, somebody who's in custody of 
the FBI, not with mere witnesses.
    Mr. Johnson of Louisiana. With regard to the interview of 
former Secretary of State Hillary Clinton about her email 
server in 2016, was that recorded, do you know?
    Mr. Rosenstein. I have no personal knowledge of that. My 
understanding, from what I've read in the media, is no.
    Mr. Johnson of Louisiana. Could you find that out for us 
specifically?
    Mr. Rosenstein. Certainly.
    Mr. Johnson of Louisiana. If it was not recorded, would you 
have any idea why that would not have been recorded under that 
policy?
    Mr. Rosenstein. I think the norm would be for a 
noncustodial interview not to be recorded. That's my 
understanding.
    Mr. Johnson of Louisiana. If it was her email server, 
wouldn't she be--wouldn't it be implied that she was a 
custodian of----
    Mr. Rosenstein. No.
    Mr. Johnson of Louisiana. Not at that time?
    Mr. Rosenstein. That policy only applies to folks who 
actually have been arrested or they're in custody at the time 
of the interview.
    Mr. Johnson of Louisiana. That's not the way I understood 
that policy, but I'll defer to you on that. But if you can get 
us follow-up information on that, that would be helpful.
    Earlier this year, certain names of individuals who were 
apparently illegally leaked who were caught in a FISA 
surveillance investigation, and obviously, when something like 
this occurs, it's absolutely irresponsible and egregious that a 
leak on that level would ever happen.
    Can you inform this committee on what is currently being 
done within the DOJ to investigate potential FISA leaks? Just 
emphasize that for us.
    Mr. Rosenstein. Yes, sir. I appreciate the question. The 
Attorney General has made it a very, very high priority for us 
to pursue any leaks that are in violation of the law. So when 
we receive a referral from an intelligence agency that they 
believe there's been a leak of information within their 
jurisdiction, and that they believe a criminal investigation 
should be conducted, we give that a very high priority.
    We've set up a new unit within the FBI to conduct those 
investigations, and we have attorneys within our National 
Security Division who are specializing in that, and we are 
monitoring those cases to make sure that they move 
expeditiously. Obviously, as you know, there are challenges in 
proving a leak case, but we are giving those extraordinary 
attention.
    Mr. Johnson of Louisiana. I'm out of time. I yield back. 
Thank you.
    Chairman Goodlatte. The chair recognizes the gentleman from 
Arizona, Mr. Biggs, for 5 minutes.
    Mr. Biggs. Thank you, Mr. Chairman.
    I thought I understood in testimony to Mr. Ratcliffe that 
you said that you were supervising the inspector general and 
his team's review.
    Mr. Rosenstein. The inspector general reports to the Deputy 
Attorney General. In the conduct of the investigation, the 
inspector general traditionally has a high degree of autonomy. 
So I'm not micromanaging it, but I'm aware of the investigation 
and aware that we anticipate a conclusion in the near future.
    Mr. Biggs. Is he providing you substantive reports or is he 
providing you timeline reports?
    Mr. Rosenstein. Generally, timeline reports. When there are 
significant issues that arise in his investigations, as, for 
example, with the text messages that came up in the review of 
the Hillary Clinton email investigation, he brings that to my 
attention.
    Mr. Biggs. And I am curious about the scope of the 
inspector general's review. My understanding is it's to review 
allegations of Department policies or procedures were not 
followed in connection with or in actions leading up to or 
related to former Director Comey's July 16 announcement that 
Democratic presidential nominee Hillary Clinton would not be 
charged in her use of her private email server while Secretary 
of State.
    Is that the limitation of the scope, or is it broader than 
that? And what are the boundaries?
    Mr. Rosenstein. I believe it's broader than that. The 
inspector general, I believe, was scheduled to testify today, 
and it would be better directed to him, but he actually has 
publicly talked about the scope of the investigation, and 
identified a number of matters within the scope of that 
investigation. And so it's relatively broad, I believe.
    Mr. Biggs. Well, in light of that, Director Wray was here 
last week, and in questioning, he said that he would try to un-
ring the bell if the inspector general's conclusions indicated 
that there was something that had gone amiss with the Hillary 
Clinton investigation. I asked him what that meant, and he 
alluded to some personnel issues and remedial personnel action, 
but he also said that he thought they might reopen that 
original investigation if necessary. Is that your understanding 
as well?
    Mr. Rosenstein. I don't know exactly what he said. It's 
hard to un-ring bells, but we do make every effort Congressman 
to take appropriate action if something comes to our attention. 
So I certainly support Director Wray if he feels there's 
justification for reviewing that.
    Mr. Biggs. And I'm not just talking about reviewing, I'm 
talking about reopening the investigation. If that is the 
direction, you would concur with that, if that's the direction 
he----
    Mr. Rosenstein. Well, it's certainly conceivable. It would 
depend upon the facts and circumstances, but if he felt it was 
appropriate to do that, I would certainly give that great 
weight.
    Mr. Biggs. Additionally, I just thought it was interesting 
that you previously, I'm quoting from--this came from the 
media, so I don't know if it's accurate or not, that's just my 
skepticism, but it says, ``If there were conflicts''--this is 
you speaking--``if there were conflicts that arose because of 
Director Mueller other anybody employed by Director Mueller, we 
have a process within the Department to take care of that.''
    And just now, you've indicated that, I think, that those 
processes include the tone around the office, everything's 
subject to review by a supervisor, and the inspector general 
could be called in if there's something amiss, but the bottom 
line is, you ultimately have to prove the case in court, so 
there's some checks and balances built into the system.
    But previously, Director Wray and Attorney General Sessions 
testified in this committee that there are no formal processes 
to discover individual conflicts of interest or vet for, and 
I'm going to call it unfair bias, because everybody has some 
biases, it's just whether it's unfair or not. They both said 
it's left up to each individual.
    Would you concur with their bottom line assessment there?
    Mr. Rosenstein. To a large extent, Congressman, I would say 
it's left to the individual, but also to the supervisor. The 
supervisor has a responsibility to know if there's some reason 
for concern, and should take appropriate action and do an 
inquiry if there is a basis for it.
    Mr. Biggs. Another issue that we have touched on today, and 
this has been brought up repeatedly, is this idea of integrity, 
independence, adherence to the rule of law, and this idea that 
we don't want to lose faith in the rule of law.
    And one of the things that--I cannot convey to you in 
strong enough terms is that when I go home to my constituents, 
there is a real sense that there is disparity going on in how 
the current administration is being treated, and with former 
Secretary of State Hillary Clinton. I understand a lot of that 
is the divisiveness that exists in the Nation, a lot of that is 
partisanship, I understand that. But some of the things that 
we've talked about today, whether it's the Strzok issue, Bruce 
Ohr, and Jeannie Rhee, Aaron Zebley, Andrew Weisman, et cetera, 
et cetera, it isn't the money that people donate to campaigns, 
I think we have established that, it is what do they do beyond 
that. What did Aaron Zebley do? Set up a private email server--
represented Cooper, who set up the private email server and 
destroyed Clinton computer, hard drives, and drives.
    I mean, these are actions, these are actions that someone 
took. And it's not necessarily a mere bias that we might have 
or an unfair bias; it's just something that goes beyond that, 
and it taints this investigation.
    And that is the reason that so many of us--it's not because 
we don't think Director Mueller is a war hero and has done 
great service to this country; it is simply that it has tainted 
everything around this investigation so that I can't go home 
without people decrying it in loud terms.
    And so, I think that that's what needs to happen and I 
think we need more information. Some of this information came 
out through FOIA requests, some through the inspector general, 
but some of it not very timely. And I do agree with the 
chairman here. This committee has jurisdiction. We need to be 
getting this information timely.
    And with that, my time has expired. Thank you, Mr. 
Chairman.
    Chairman Goodlatte. The chair recognizes the gentlewoman 
from Georgia, Ms. Handel, for 5 minutes.
    Ms. Handel. Thank you, Mr. Chairman.
    Good afternoon. Thank you for your time today.
    I am having a little trouble reconciling some comments from 
your opening statement with the realities. You said justice 
requires a fair and impartial process, and I think we could 
both agree that to have a fair and impartial process, no 
appearance even of conflict of interest or bias needs to be 
present.
    I want to ask specifically, it's my understanding that the 
text messages and emails that Strzok sent were specifically 
labeled, quote, ``midyear exam'' or ``MYE'' or ME, which was 
the code name for the Clinton email investigation.
    Were those emails and text messages, were they put into the 
Sentinel case management system at the FBI?
    Mr. Rosenstein. To the best of my knowledge, no, but I can 
check and get back to you.
    Ms. Handel. I would appreciate an answer to that. Thank 
you.
    With the revelations regarding Strzok, Page, and others 
from the Mueller team, has Special Investigator Mueller taken 
any specific action on the remaining members of the team to 
ferret out whether they too have these types of biases and 
perhaps have sent such text messages or emails?
    Mr. Rosenstein. As I mentioned, I've talked with Director 
Mueller about the importance of ensuring the integrity and 
neutrality of everybody working on the investigation. I don't 
know precisely what steps he has taken.
    Ms. Handel. If you're supervising this, don't you think 
that would be something you should know?
    Mr. Rosenstein. Yes. And I can assure you, Congresswoman, 
based on his reputation, I'm confident that he knows what to do 
to ensure that his team is not biased.
    Ms. Handel. Okay. Well, apparently not, since we have just 
seen all of these text messages.
    I would like to--you said in your opening statement that 
there has to be a special responsibility for professional 
standards that rise to a truly higher standard. Do you think 
that the actions that we have seen rise to that standard?
    Mr. Rosenstein. Congresswoman, that's our aspiration. We 
recognize there are going to be deviations. I think the 
commitment that I have and the Attorney General is that when 
there are deviations, we are going to deal with them 
appropriately. So we can't guarantee there will be no mistakes, 
errors or wrongdoing, but we can ensure that we're going to set 
the right tone, and if anything comes to our attention, we're 
going to take appropriate action.
    Ms. Handel. Okay. Were those text messages, or emails, sent 
on Bureau or DOJ-issued cells or other electronic devices?
    Mr. Rosenstein. I believe the answer is yes.
    Ms. Handel. You said that Special Investigator Mueller 
acted appropriately and immediately to deal with the issue of 
Strzok. He was, my understanding is, reassigned to H.R. Is that 
correct?
    Mr. Rosenstein. Well, Director Mueller would make the 
decision to no longer have him participate in the Special 
Counsel investigation.
    Ms. Handel. Right.
    Mr. Rosenstein. The FBI would make the decision of where 
within the FBI to place him.
    Ms. Handel. All right. Let me be a little more succinct. 
Where is Strzok working now, in which Department?
    Mr. Rosenstein. That's my understanding, Congresswoman. I 
don't personally----
    Ms. Handel. That is H.R.?
    Mr. Rosenstein. That's what I've heard. I don't know 
specifically.
    Ms. Handel. Okay. It was reported that way. That would be 
very interesting. I would like to have the answer to that.
    It is peculiar to me that an individual under investigation 
by the inspector general would be redeployed to the very 
division and Department that is tasked with setting workplace 
policies. Do you think that's a little strange?
    Mr. Rosenstein. I don't--I assume that he's not setting 
workplace policies, but I can check on that.
    Ms. Handel. Well, what else would you be doing in H.R., but 
dealing with personal matters?
    Mr. Rosenstein. Well, I think processing personnel matters, 
I think that's largely what they do.
    Ms. Handel. Interesting. A person under IG investigation 
processing H.R.
    That's all I have. Thank you, Mr. Chairman. I yield back.
    Chairman Goodlatte. Thank you.
    The chair recognizes the gentleman from Florida, Mr. 
Rutherford, for 5 minutes.
    Mr. Rutherford. Thank you, Mr. Chairman.
    Deputy Attorney General, thank you for your long testimony 
today.
    Listen, I want to talk a little bit about policy, because 
everybody understands that in a large organization, you're 
going to have bias. And as was mentioned earlier, everybody 
accepts that you can have bias until it crosses into the 
workplace and it affects actions and how you conduct 
investigations, and that's when leadership and policy comes 
into play.
    Can you tell me, has Special Agent Strzok--I don't want to 
know if he has been found guilty of a charge, but is there a 
policy charge against Special Agent Strzok at this time?
    Mr. Rosenstein. There is an inquiry being conducted by our 
watchdog, the inspector general, and he'll reach a conclusion. 
And if he reaches an adverse conclusion, then there would be 
proposed discipline.
    Mr. Rutherford. Okay. And I'm not asking for the 
conclusion, because clearly, we have got to wait for due 
process, but the question is, is there a policy violation that 
Mr. Strzok is being charged with at this time?
    Mr. Rosenstein. Well, the charge would occur at the 
conclusion of the investigation.
    Mr. Rutherford. Okay. And let me ask you this: You 
mentioned earlier that offering immunity in a noncustodial 
interview is not unusual, as happened with Cheryl Mills and 
several other top State Department aides.
    My question is on a policy. During the investigation, you 
give immunity and you don't record the meeting, the interview? 
That to me is unprecedented. We discussed this with Director 
Wray last week. Is that normal policy for----
    Mr. Rosenstein. Congressman, as you know, that 
investigation occurred before I arrived, and so I don't know 
the details of what decisions were made or why.
    In my experience, we typically would not record a witness 
interview, but on the decision whether or not to grant 
immunity, that would be based on the facts and circumstances of 
the case, and I just don't know what they were, and so I wasn't 
involved. But the inspector general, if there's anything 
suspected inappropriate about that, he'd have the authority to 
review it.
    Mr. Rutherford. See, here's the situation that I think the 
American people are looking at. We have a situation where a 
special agent does something very unprecedented in an 
investigation by offering immunity and failing to record. You 
know, it was questioned earlier, was there a proffered 
statement during that interview. And I don't recall if you said 
no, but I suspect the real answer is nobody knows, because it 
wasn't recorded.
    Mr. Rosenstein. Well, if there had been a proffer, 
typically that would have been written down. I just don't 
know--I have no knowledge about what was done in that 
particular case.
    Mr. Rutherford. Okay. So here we have the situation with 
Special Agent Strzok, which is really bringing the agency's 
integrity into question, and what's going to be important is 
how you and Director Wray address this at the end of the 
investigation. I get that, and I appreciate that. And we are 
really waiting to see how folks are held accountable where we 
think bias has affected their investigative activities.
    Now, what really concerns me now with Mr. Strzok is after 
that situation and the others that have been mentioned earlier, 
do you see any reason that after President Trump's election, 
that the Office of the Attorney General should have any reason 
to fear his election?
    Mr. Rosenstein. No.
    Mr. Rutherford. And do you think the FBI should have any 
reason to fear the election of Donald Trump?
    Mr. Rosenstein. No.
    Mr. Rutherford. Let me read to you, this is number 70--I'm 
sorry--on page 89 of Mr. Strzok's conversations, and it says 
that he is worried about--hold on a second here--that New York 
Times probability numbers are dropping every day, talking about 
the election, and it says, ``I'm scared for our organization.''
    Do you have any idea what he's referring to there.
    Mr. Rosenstein. No, sir, I do not.
    Mr. Rutherford. ``Our organization.''
    And then on page 89, he says, ``And I keep thinking about 
what D said. What is it? Sick to one's stomach. Want to talk to 
you about it more and would like to talk to Jim and Andy too. 
Jim may be too much a true believer, though.''
    Those are scary comments from a special agent talking about 
other folks within the agency that he's having these kind of 
political conversations about, and he's worried because of the 
potential of a presidential election, he's worried about what 
that's going to do to his organization? Can you comment on 
that?
    Mr. Rosenstein. Yes, Congressman. Attorney General Sessions 
has been clear with me that our mission in this administration 
is to make sure we run the Department and the FBI properly. And 
if information comes to our attention or suggests there's been 
any wrongdoing, to make sure we conduct an appropriate 
investigation, that includes due process for the folks who are 
accused of wrongdoing, and take appropriate action if there's 
an adverse finding.
    And I think, Congressman, that I've been asked several 
times this issue about what reassurance we have. And the 
reassurance is that that's the commitment the Attorney General 
and I have made that is reflected by all of this 
administration's appointees in the Department of Justice, a 
really superb experienced team, and, in particular, Christopher 
Wray, who the President appointed to direct the FBI, who I 
believe is well-positioned to do a superb job and promote 
public confidence in the future.
    Now, that's all we can do, Congressman, is to commit to you 
that we will do everything we can in the future to earn and 
deserve public trust.
    Mr. Rutherford. And in closing, just let me say, if I could 
take just a moment, Mr. Chairman. I really do appreciate that. 
And I believe we have the right people in the right seats right 
now to root this out, but I'm going to tell you, I fear that it 
runs deep. And I do believe that we have the right people in 
place. Because we have to protect the integrity of all those 
men and women, all those agents, all those staff folks who are 
good, you know, law-abiding hard-working heroes out there. And 
they deserve an agency with strong integrity like theirs.
    So thank you for everything you're going to do to make that 
happen.
    Mr. Rosenstein. Thank you very much.
    Mr. Rutherford. And I yield back.
    Chairman Goodlatte. The chair thanks the gentleman. The 
chair understands the gentlewoman from Texas has some unanimous 
consent requests?
    Ms. Jackson Lee. Yes, Chairman. Thank you for your 
kindness. And I thank the Deputy Attorney General for his 
testimony.
    I would like to submit in the record a December 12, 2017 
letter, Mr. Chairman, to the committee by four members of the 
committee, four women of the committee--myself, Ms. Bass, Ms. 
Jayapal, and Ms. Lofgren--on asking this committee to hold 
hearings for the women accusers of Mr. Trump to be heard.
    I ask unanimous consent for that to be put in the record.
    Chairman Goodlatte. Without objection, that will be made a 
part of the record.
    Ms. Jackson Lee. And then I have a line of questions that I 
hope to put it in a letter to the Deputy Attorney General that 
would not complete. I ask unanimous consent to put that into 
the record.
    Chairman Goodlatte. Without objection.
    Ms. Jackson Lee. And then H.R. 3664, which is a complement 
to the Senate bill, follows my line of questioning regarding 
the protection of the integrity of the work of Special Counsel 
Mueller.
    Chairman Goodlatte. Without objection.
    Ms. Jackson Lee. Mr. Chairman, the scheduling, if I could 
stop and ask for a scheduling question. Are we having another 
Judiciary, do you think in the next week?
    Chairman Goodlatte. Not that I know of. I do not think at 
this point we have any plans next week.
    Ms. Jackson Lee. And let me ask, I've been sitting here 
listening, but as well, noting a lot of meetings are going on. 
I would just ask the Judiciary Committee to be an active 
participant in the DACA fix. I mean, this is our jurisdiction, 
and Mr. Chairman, as I go home, despite our likes or dislikes, 
there are so many young people that are living in such 
devastating fear. And I know that our engagement with the 
Speaker and the leadership could really provide some comfort to 
young people who are, right now, statused but they are so 
fearful that they will be unstatused, that I've had adults come 
to me whose children are not DACA, but whose children's friends 
are about the suicidal nature of many of these young people 
because they are so frightened.
    So I don't know whether we could fix it in the committee, 
the bills, or whether or not you would provide dialogue with 
the now-present ranking member and subcommittee's ranker and 
chair, that we look to see how we can fix this, or at least 
provide a clarifying message for these DACA young people as we 
go home for the Christmas holiday.
    We are leaving young people coming home from school into 
homes that they are fearful that will be raided and that they 
will be immediately deported, and not be able to even go back 
to school. Medical school, Ph.D. candidates, various other 
academic individuals, and then, of course, people who are 
working. I am very concerned, Mr. Chairman. I am very 
concerned.
    Chairman Goodlatte. I understand your concern. As you know, 
the Speaker has appointed a task force on the majority side, of 
which three members of this committee, including myself, are 
involved. I would be happy to have discussions with you about 
it.
    I also don't believe that DACA recipients, where the 
program has been extended through March, need fear what's going 
to happen here. And I do hope for an outcome that allows us to 
have the laws of the land changed to prevent this type of 
illegal immigration in the future, but also address the concern 
of these people who were brought here illegally, in many 
instances, by their parents. And I hope for a resolution just 
like you do.
    Ms. Jackson Lee. Well, I'll take the----
    Chairman Goodlatte. It may not be the same resolution you 
want but I do want----
    Ms. Jackson Lee. I'll take you up on this order, and I 
would beg to differ that they were statused even as they came 
into this country through no fault of their own. So I don't 
want that to hang over their head that they're illegal. They've 
got a status here now. But let me just say that the March 
deadline has been, unfortunately, it seems to be encroaching on 
their thinking process because the raids are still continuing 
with their family members, the raids are continuing in their 
schools, ICE, places where they are.
    So if nothing else, let me just put on the record, first of 
all, we need the DACA fix. I disagree that March is an 
appropriate timeframe, and I understand what you're saying, but 
we certainly need the President, the Speaker of the House, the 
leadership of this Nation, to be able to indicate that the 
Deputy Attorney General, Homeland Security, ICE officers, FBI 
officers, are not going to, unless there is some other element 
to their status, any action by them is not going to randomly 
deport DACA-statused young people. I think that is a crucial 
statement to have made.
    And I thank the gentleman for yielding.
    Chairman Goodlatte. I thank the gentlewoman for her 
comments, and the majority will definitely take them under 
advisement.
    I do want to thank the Deputy Attorney General for his 
participation, and I do have a couple more questions.
    Did former Director Comey, in sharing his memos with 
another individual, who then shared them with a New York Times 
reporter, share classified information?
    Mr. Rosenstein. Congressman, I do not know the answer to 
that, but the inspector general of our Department has 
jurisdiction to review that issue.
    Chairman Goodlatte. And are you aware of the report 
indicating that Jim Baker, the general counsel of the FBI, was 
under investigation by the FBI for sharing classified 
information?
    Mr. Rosenstein. I believe that I read the media account 
that you're referring to.
    Chairman Goodlatte. Do you still have confidence in the FBI 
general counsel?
    Mr. Rosenstein. I have counsel in the FBI, and I have 
confidence, Mr. Chairman, that Director Wray will make 
appropriate decisions with regard to his staff.
    Chairman Goodlatte. And finally, in an interview with NBC 
Scott MacFarlane on December 6, you indicated that you were 
satisfied with how the special counsel's investigation is 
proceeding.
    Why, after you've heard all the concerns expressed here 
today, why are you satisfied with the course of the 
investigation so far?
    Mr. Rosenstein. I'm satisfied, Congressman, because based 
upon what I know, which is different from what accounts may 
appear in the media, based upon what I know, I believe Director 
Mueller is appropriately remaining within his scope and 
conducting himself appropriately, and in the event that there 
is any credible allegation of misconduct by anybody on his 
staff, that he is taking appropriate action.
    Chairman Goodlatte. Thank you. Thank you very much.
    We will have, I have no doubt, from both sides of the 
aisle, additional questions in writing, and we hope that you're 
able to answer those and answer them expeditiously.
    Again, I thank you. You're a little bit ahead, not much, 
but a little bit ahead of Director Wray's time. And I know the 
sacrifice it is to prepare for this and then to give us the 
better part of a day to answer these questions, but they are 
very important.
    The FBI is an incredibly important law enforcement 
organization. In my opinion, it is still the premier law 
enforcement organization in the world. And again, as I said 
earlier, there are tens of thousands of employees there who are 
very dedicated to doing the right thing, upholding the rule of 
law, and providing justice in the fashion that the blindfolded 
woman with balanced scales stands for. I think the Department 
stands for that. But I do think at the higher levels of the 
Department, there are some serious problems.
    The gentleman from Florida asked some questions very much 
related to this, and I think that while we all have confidence 
in Director Wray, we also believe that there need to be some 
changes made, both in terms of the personnel, in terms of the 
protocols that are followed, and certainly, in terms of getting 
the necessary information to this committee and whatever other 
appropriate committees so that all of this can be aired and the 
public's understanding that these problems are being solved, 
and that they know what the nature of them are.
    So, again, thank you very much for your participation. 
Thank you very much for your work in a very difficult situation 
as Deputy Attorney General of the United States under these 
circumstances.
    Mr. Rosenstein. Thank you.
    Chairman Goodlatte. And with that, without objection, all 
members will have 5 legislative days to submit additional 
written additional questions for the witness and additional 
materials for the record. And the hearing is adjourned.
    [Whereupon, at 2:54 p.m., the committee was adjourned.]
 
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    
    
                          [all]
                          
                          
                          
</pre></body></html>
